No.

In the Supreme Court of the United States
DEPARTMENT OF JUSTICE, PETITIONER
v.
HOUSE COMMITTEE ON THE JUDICIARY
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
HASHIM M. MOOPPAN
Deputy Assistant Attorney
General
SOPAN JOSHI
Assistant to the Solicitor
General
MARK R. FREEMAN
MICHAEL S. RAAB
BRAD HINSHELWOOD
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether an impeachment trial before a legislative
body is a “judicial proceeding” under Rule 6(e)(3)(E)(i)
of the Federal Rules of Criminal Procedure.

(I)

RELATED PROCEEDINGS

United States District Court (D.D.C.):
In re Application of the Committee on the Judiciary,
U.S. House of Representatives, for an Order
Authorizing the Release of Certain Grand Jury
Materials, No. 19-gj-48 (Oct. 25, 2019)
United States Court of Appeals (D.C. Cir.):
In re: Application of the Committee on the Judiciary, U.S. House of Representatives, for an Order
Authorizing the Release of Certain Grand Jury
Materials, No. 19-5288 (Mar. 10, 2020)
Supreme Court of the United States:
Department of Justice v. House Committee on the
Judiciary, No. 19A1035 (May 20, 2020)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provision and rules involved....................................... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................... 8
A. The decision below is incorrect ...................................... 11
1. An impeachment trial before a legislative body
is not a “judicial proceeding” under Rule 6(e) ....... 11
2. The court of appeals’ interpretation would
create substantial constitutional difficulties
with the ordinary application of Rule 6(e).............. 19
B. The decision below warrants this Court’s review ........ 26
Conclusion ................................................................................... 29
Appendix A — Court of appeals opinion (Mar. 10, 2020) ..... 1a
Appendix B — District court opinion (Oct. 25, 2019) .......... 82a
Appendix C — Court of appeals order (Oct. 25, 2019) ...... 180a
Appendix D — Rules ............................................................ 182a
TABLE OF AUTHORITIES

Cases:
Atwell v. United States, 162 F. 97 (4th Cir. 1908) .............. 16
Bradley v. Fairfax, 634 F.2d 1126 (8th Cir. 1980) ............. 18
Clark v. Martinez, 543 U.S. 371 (2005) ............................... 25
Douglas Oil Co. v. Petrol Stops Northwest,
441 U.S. 211 (1979)..................................................... passim
Environmental Defense v. Duke Energy Corp.,
549 U.S. 561 (2007).............................................................. 12
Freytag v. Commissioner, 501 U.S. 868 (1991) .................. 18
Haldeman v. Sirica, 501 F.2d 714 (D.C. Cir. 1974) ............. 4
Illinois v. Abbott & Associates, Inc., 460 U.S. 557
(1983) ........................................................................ 21, 25, 28
(III)

IV
Cases—Continued:

Page

Jennings v. Rodriguez, 138 S. Ct. 830 (2018) ..................... 20
McKeever v. Barr, 920 F.3d 842 (D.C. Cir. 2019),
cert. denied, 140 S. Ct. 597 (2020) ................................... 3, 4
Murdick v. United States, 15 F.2d 965
(8th Cir. 1926), cert. denied, 274 U.S. 752 (1927)............. 16
Nixon v. United States, 506 U.S. 224 (1993)..... 14, 18, 21 ,23
Return Mail, Inc. v. United States Postal Service,
139 S. Ct. 1853 (2019) ......................................................... 13
Schmidt v. United States, 115 F.2d 394
(6th Cir. 1940) ...................................................................... 16
Senate Permanent Subcommittee on Investigations
v. Ferrer, 856 F.3d 1080 (D.C. Cir. 2017) ......................... 20
Shapiro v. McManus, 136 S. Ct. 450 (2015) ....................... 13
Special February 1971 Grand Jury, In re,
490 F.2d 894 (7th Cir. 1973) ............................................... 18
Trump v. Mazars USA, LLP, 140 S. Ct. 660 (2019) .......... 28
United States v. American Medical Association,
26 F. Supp. 429 (D.D.C. 1939) ........................................... 16
United States v. Baggot, 463 U.S. 476 (1983) ............ passim
United States v. Johnson, 319 U.S. 503 (1943) ............. 26, 27
United States v. Procter & Gamble Co.,
356 U.S. 677 (1958).........................................8, 20, 21, 22, 27
United States v. Sells Engineering, Inc.,
463 U.S. 418 (1983)..................................................... passim
United States v. Socony-Vacuum Oil Co.,
310 U.S. 150 (1940).............................................................. 15
Constitution, statutes and rules:
U.S. Const.:
Art. I:
§ 2, Cl. 5 ...................................................................... 21
§ 3, Cl. 6 ................................................................ 14, 21

V
Constitution, statutes, and rules—Continued:

Page

§ 6, Cl. 1 (Speech or Debate Clause).......................... 6
Art. III ................................................................................ 7
§ 1 ............................................................................... 14
Act of July 30, 1977, Pub. L. No. 95-78, § 2(a),
91 Stat. 319-320 ......................................................... 3, 11, 21
26 U.S.C. 7441 ........................................................................ 18
26 U.S.C. 7482(a)(1) ............................................................... 18
Fed. R. Crim. P.:
Rule 6(e) (1946) .............................................2, 11, 16, 189a
Rule 6(e) (1977) .................................................. 2, 21, 188a
Rule 6(e) ......................................................... passim, 182a
Rule 6(e)(2) ......................................................... 3, 11, 182a
Rule 6(e)(2)(B) ....................................................... 11, 182a
Rule 6(e)(3) .......................................... 3, 4, 12, 13, 15, 183a
Rule 6(e)(3)(A)(i).................................................... 15, 183a
Rule 6(e)(3)(E) ............................................... passim, 185a
Rule 6(e)(3)(E)(i) ........................................... passim, 185a
Rule 6(e)(3)(E)(i)-(v) ............................................. 11, 185a
Rule 6(e)(3)(F) ....................................................... 12, 186a
Rule 6(e)(3)(F)(ii) .................................................. 12, 186a
Rule 6(e)(3)(G) ................................................. 12, 24, 186a
Rule 6(e)(7) ............................................................. 20, 187a
Rule 6(e) advisory committee’s note
(1944 Adoption) .......................................................... 16
Rule 6(e)(3)(E) advisory committee’s note
(1983 Amendments) ................................................... 12
Rule 53 .............................................................................. 13
Sup. Ct. R. 10(c) ..................................................................... 26

VI
Miscellaneous:

Page

Black’s Law Dictionary:
(2d ed. 1910) ..................................................................... 11
(10th ed. 2014) .................................................................. 11
S. Rep. No. 354, 95th Cong., 1st Sess. (1977)...................... 21

In the Supreme Court of the United States
No.
DEPARTMENT OF JUSTICE, PETITIONER
v.
HOUSE COMMITTEE ON THE JUDICIARY
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the United States
Department of Justice, respectfully petitions for a writ
of certiorari to review the judgment of the United
States Court of Appeals for the District of Columbia
Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a81a) is reported at 951 F.3d 589. The opinion of the
district court (App., infra, 82a-179a) is reported at
414 F. Supp. 3d 129.
JURISDICTION

The judgment of the court of appeals was entered on
March 10, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).

(1)

2
STATUTORY PROVISION AND RULES INVOLVED

Three versions of Federal Rule of Criminal Procedure 6(e)—as originally promulgated in 1946, as directly enacted by statute in 1977, and as it exists
today—are reproduced in the appendix to this petition.
App., infra, 182a-190a.
STATEMENT

In July 2019, respondent petitioned the United
States District Court for the District of Columbia for
the disclosure of certain secret grand-jury matters
“preliminarily to or in connection with a judicial proceeding.” Fed. R. Crim. P. 6(e)(3)(E)(i). Respondent
asserted that a potential impeachment trial of the President of the United States conducted by the Senate
would be a “judicial proceeding” under Rule 6(e). The
district court granted the petition in substantial part
and authorized disclosure. App., infra, 180a-181a. The
court of appeals affirmed. Id. at 1a-81a.
1. In May 2017, then-Deputy Attorney General Rod
J. Rosenstein appointed Robert S. Mueller, III as special counsel to investigate possible Russian interference
in the 2016 presidential election. The special counsel
released his report on the investigation in March 2019.
Most of the report is public, but it contains some redactions, including to protect grand-jury materials.
On the day the redacted Mueller report was made
public, the Department of Justice announced that it
would “provide the Chairman and Ranking Members of
the House and Senate Committees on the Judiciary, the
members of the ‘Gang of Eight,’ and one designated
staff person per member” the ability to review an unredacted version of the report, except for the grand-jury
information. C.A. App. 450. Under Federal Rule of
Criminal Procedure 6(e), any “matter occurring before

3
the grand jury” must be kept secret, except for certain
expressly enumerated exceptions in Rule 6(e)(3). Fed.
R. Crim. P. 6(e)(2). The Department explained that under Rule 6(e), the Attorney General lacks “discretion to
disclose grand-jury information to Congress.” C.A.
App. 448.
More than four months later, respondent petitioned
the district court for, among other things, “all portions”
of the report that were redacted under Rule 6(e), including “any underlying [grand jury] transcripts or exhibits,” as part of its impeachment investigation into the
President. App., infra, 103a (citation omitted). As relevant here, respondent argued that the court could authorize disclosure of those grand-jury materials under
an exception in Rule 6(e) providing that a “court may
authorize disclosure—at a time, in a manner, and subject to any other conditions that it directs—of a grandjury matter: (i) preliminarily to or in connection with a
judicial proceeding.” Fed. R. Crim. P. 6(e)(3)(E)(i).
Congress directly enacted the language of the “judicial
proceeding” exception. See Act of July 30, 1977 (1977
Act), Pub. L. No. 95-78, § 2(a), 91 Stat. 319-320. Respondent argued that a Senate impeachment trial is a
“judicial proceeding” within the meaning of the Rule.
In the alternative, respondent argued that the court had
inherent authority to release the requested materials,
even if none of the exceptions to grand-jury secrecy in
Rule 6(e)(3) applied.
2. The district court granted the petition in relevant
part. App., infra, 82a-179a.
a. As relevant here, the district court explained that
under McKeever v. Barr, 920 F.3d 842 (D.C. Cir. 2019),
cert. denied, 140 S. Ct. 597 (2020), it lacked inherent au-

4
thority to release grand-jury materials outside the enumerated exceptions in Rule 6(e)(3). App., infra, 107a
n.14. But the court also observed that in Haldeman v.
Sirica, 501 F.2d 714 (D.C. Cir. 1974) (en banc), the court
of appeals denied a writ of mandamus seeking to prohibit a district court from authorizing disclosure of
grand-jury materials to Congress in connection with the
impeachment of President Nixon. App., infra, 132a135a. Neither the Haldeman district court nor the
court of appeals clearly explained the ground for disclosure there. See id. at 133a-134a. In later holding that
district courts lacked inherent authority to release
grand-jury materials outside the exceptions set forth in
Rule 6(e)(3), McKeever distinguished Haldeman on a
variety of grounds, including by stating in a footnote
that the court “read Haldeman * * * as fitting within
the Rule 6 exception for ‘judicial proceedings.’ ”
McKeever, 920 F.3d at 847 n.3. The district court here
held that under McKeever, Senate impeachment proceedings therefore qualify as “judicial proceeding[s]”
within the meaning of Rule 6(e). App., infra, 134a-135a.
The district court further explained that respondent,
like any other petitioner seeking disclosure of grandjury records under one of the court-authorized exceptions in Rule 6(e)(3)(E), would have to demonstrate a
“particularized need” for the grand-jury materials.
App., infra, 163a-164a. But the court then held that respondent had demonstrated a particularized need for all
of the material in the Mueller report redacted under
Rule 6(e), as well as the grand-jury materials underlying those redactions, on the ground that they were “relevant” to the House’s asserted investigation. Id. at
167a, 174a; see id. at 166a-175a.

5
The district court ordered the government to provide
to respondent “all portions of the Mueller Report that
were redacted pursuant to Rule 6(e) and any underlying
transcripts or exhibits referenced in the portions of the
Mueller Report that were redacted pursuant to Rule
6(e).” App., infra, 178a-179a. The court even authorized disclosure of certain materials that respondent
“conceded it did not need.” Id. at 24a. The court also
invited respondent “to file further requests articulating
its particularized need for additional grand jury information requested in the initial application.” Id. at 179a.
b. The district court ordered disclosure within five
days of its order. See App., infra, 178a-179a. The court
denied the government’s motion for a stay of the order
pending appeal, D. Ct. Doc. 55 (Oct. 29, 2019), but the
court of appeals entered and then extended an administrative stay of the order “pending further order of the
court,” C.A. Doc. 1813216, at 1 (Oct. 29, 2019); C.A. Doc.
1816378, at 2 (Nov. 18, 2019).
3. The court of appeals affirmed. App., infra, 1a81a.
a. As relevant here, the court of appeals held that
impeachment is a “judicial proceeding” under Rule 6(e)
based on its previous decisions in McKeever and Haldeman. See App., infra, 10a-12a. The court explained
that the McKeever footnote “necessarily interpreted
Haldeman to involve an application of Rule 6(e)’s ‘judicial proceeding’ exception,” and the footnote’s “interpretation of Haldeman was essential to this court’s reasoning in McKeever.” Id. at 12a.
Independent of circuit precedent, the court of appeals stated that the “constitutional text confirms that
a Senate impeachment trial is a judicial proceeding” and
that the Framers “understood impeachment to involve

6
the exercise of judicial power.” App., infra, 12a-13a.
The court also relied on a purported “historical practice” of Congress’s having “repeatedly obtained grand
jury material to investigate allegations of election fraud
or misconduct by Members of Congress.” Id. at 14a.
The court recognized that none of those examples involved court-ordered disclosure in connection with an
impeachment, but found them probative of a more general “common-law tradition, starting as early as 1811, of
providing grand jury materials to Congress to assist
with congressional investigations.” Ibid. Finally, the
court stated that “[s]ince Rule 6(e) was enacted, federal
courts have authorized the disclosure of grand jury materials to the House for use in impeachment investigations involving two presidents and three federal judges.”
Ibid.
The court of appeals dismissed the government’s
concerns that “reading Rule 6(e) to encompass impeachment proceedings would create separation-of-powers
problems.” App., infra, 15a. First, the government observed that under Rule 6(e), a district court may authorize disclosure “at a time, in a manner, and subject to any
other conditions that it directs.” Fed. R. Crim. P.
6(e)(3)(E). The government argued that a federal court
likely could not, consistent with the separation of powers and the Speech or Debate Clause, U.S. Const. Art.
I, § 6, Cl. 1, impose such conditions on the House’s use
of grand-jury matters. See Gov’t C.A. Br. 22-23. Second, the government argued that “the particularized
need standard * * * would invite courts to ‘pass judgment on the legal sufficiency of a particular impeachment theory.’ ” App., infra, 15a (brackets and citation
omitted).

7
The court of appeals agreed that the express time
and manner restrictions in Rule 6(e) could not constitutionally be applied to the disclosure of grand-jury matters in connection with an impeachment. See App., infra, 23a. The court likewise acknowledged that the ordinary particularized-need standard would be constitutionally problematic “in the impeachment context,” but
thought those concerns could be “mitigate[d]” by adopting a lower standard requiring “only [that] the requested grand jury materials [be] relevant to the impeachment investigation.” Id. at 15a. The court found
that respondent had satisfied that lower “relevance”
standard for obtaining the requested materials here.
See id. at 16a-28a. The court acknowledged that the
House already had impeached the President and the
Senate already had tried and acquitted him, but said its
conclusion that the materials are relevant to an impeachment inquiry “remains unchanged” because “if
the grand jury materials reveal new evidence of impeachable offenses, the Committee may recommend
new articles of impeachment.” Id. at 17a.
b. Judge Rao dissented. App., infra, 34a-81a. In her
view, Rule 6(e)(3)(E) allows a court only to authorize
disclosure of grand-jury materials; it does not allow a
court to compel disclosure. Id. at 41a-58a. She then
concluded that respondent lacked Article III standing
to obtain an order compelling the Department of Justice, which maintains custody of the grand-jury records,
to turn over the records. Id. at 58a-81a.
Judge Rao agreed with the panel majority, however,
that impeachment is a “judicial proceeding” within the
meaning of Rule 6(e) on the ground that impeachment
“has always been understood as an exercise of judicial
power.” App., infra, 37a; see id. at 58a n.10. She also

8
agreed with the panel majority that respondent could
show a particularized need for the materials here under
a lower and more “flexible” standard applicable to impeachment proceedings. Id. at 38a (citation omitted).
Judge Rao nevertheless stated that the case should be
remanded “for the district court to address whether authorization [of disclosure] is still warranted,” given that
the House already had impeached the President and the
Senate already had tried and acquitted him. Id. at 39a.
c. In a brief concurring opinion, Judge Griffith expressed his disagreement with the dissent’s “distinction
between authorization and compulsion.” App., infra, 31a.
4. On May 20, 2020, this Court stayed the mandate
of the court of appeals pending the filing and disposition
of the government’s petition for a writ of certiorari, as
long as the petition was filed on or before June 1, 2020,
at 5 p.m. Order, No. 19A1035.
REASONS FOR GRANTING THE PETITION

“The grand jury as a public institution serving the
community might suffer if those testifying today knew
that the secrecy of their testimony would be lifted
tomorrow.” United States v. Procter & Gamble Co., 356
U.S. 677, 682 (1958). Accordingly, both Congress and
this Court have made clear that grand-jury secrecy
should not be breached outside the expressly enumerated exceptions in Rule 6(e). One of those exceptions
allows disclosure “preliminarily to or in connection with
a judicial proceeding.” Fed. R. Crim. P. 6(e)(3)(E)(i).
None allows disclosure in connection with a Senate impeachment trial. Nevertheless, the court of appeals authorized disclosure on the ground that a “judicial proceeding” extends beyond litigation before judges in
courts to include an impeachment trial by elected legislators in the Senate. That interpretation contradicts

9
the plain text of Rule 6(e), raises substantial separationof-powers concerns, and is in serious tension with this
Court’s precedents.
First, even respondent does not dispute that the ordinary meaning of “judicial proceeding” is a proceeding
before a judge in a court. The other uses of “judicial
proceeding” in Rule 6(e) itself and elsewhere in the Federal Rules of Criminal Procedure indisputably refer to
court proceedings. And historical practice before the
adoption of Rule 6(e) likewise confirms that the traditional and limited exceptions to grand-jury secrecy,
which the Rule codified, did not extend to disclosure in
connection with an impeachment proceeding.
Second, the court of appeals’ interpretation gives
rise to substantial separation-of-powers concerns with
the ordinary application of Rule 6(e) to impeachment
proceedings. The Rule’s provision allowing courts to set
time, manner, and other conditions on disclosure would,
if applied to impeachment, ostensibly permit federal
courts to regulate a coordinate Branch’s use of grandjury materials, and to enjoin and possibly hold in contempt Members of Congress for violating those conditions. And the requirement that a petitioner seeking a
breach of grand-jury secrecy demonstrate a “particularized need” for the requested materials would, if applied to impeachment, require federal courts to scrutinize specific legal theories of impeachment and to sit as
evidentiary gatekeepers for impeachment proceedings.
None of that would be proper, as the court of
appeals itself correctly recognized. Yet instead of abandoning the interpretation of “judicial proceeding” that
gives rise to those problems, the court fashioned an
impeachment-specific disclosure regime. Specifically,
the court held that the time and manner provision of

10
Rule 6(e) is inapplicable when grand-jury secrecy is
breached in connection with a Senate impeachment
trial, and it lowered the particularized-need standard to
a virtual rubber stamp, under which either House of
Congress may obtain grand-jury materials simply by
asserting that they might be relevant to a hypothetical
future impeachment. Neither of those efforts to ameliorate the separation-of-powers concerns created by
the court’s expansive interpretation of “judicial proceeding” has any basis in the Rule’s text or usual interpretive principles.
Third, the decision below is in serious tension with
this Court’s precedents. This Court has held that exceptions to grand-jury secrecy should be construed narrowly. See United States v. Sells Engineering, Inc.,
463 U.S. 418, 425 (1983). It has described the “judicial
proceeding” exception in Rule 6(e) as referring to litigation. United States v. Baggot, 463 U.S. 476, 480
(1983). And it has rejected a mere “relevance” standard
for the particularized-need inquiry. See Sells Engineering, 463 U.S. at 443-444. The court of appeals’ expansive interpretation of “judicial proceeding” cannot
be reconciled with those precedents.
In light of the national prominence of this grand-jury
investigation, the separation-of-powers concerns raised
by the decision below, and the potential damage that decision could inflict on “the proper functioning of our
grand jury system,” Douglas Oil Co. v. Petrol Stops
Northwest, 441 U.S. 211, 218 (1979), this Court’s review
is warranted.

11
A. The Decision Below Is Incorrect
1. An impeachment trial before a legislative body is not
a “judicial proceeding” under Rule 6(e)

a. “Since the 17th century, grand jury proceedings
have been closed to the public, and records of such proceedings have been kept from the public eye.” Douglas
Oil, 441 U.S. at 218 n.9. Rule 6(e) “codifies” that “traditional rule of grand jury secrecy.” Sells Engineering,
463 U.S. at 425. Rule 6(e)(2) makes clear that nonwitness participants in the grand jury “must not disclose a matter occurring before the grand jury”
“[u]nless these rules provide otherwise.” Fed. R. Crim.
P. 6(e)(2)(B). Rule 6(e)(3)(E) enumerates five limited
and carefully defined exceptions to the general rule of
secrecy under which a court may authorize disclosure of
secret grand-jury matters. See Fed. R. Crim. P.
6(e)(3)(E)(i)-(v). The only one at issue here involves
court-authorized disclosure “preliminarily to or in connection with a judicial proceeding.” Fed. R. Crim. P.
6(e)(3)(E)(i). That exception, which Congress directly
enacted, see 1977 Act § 2(a), 91 Stat. 319-320, echoes an
exception contained in the original Rule, see Fed. R.
Crim. P. 6(e) (1946) (disclosure permissible “only when
so directed by the court preliminarily to or in connection
with a judicial proceeding”).
The term “judicial proceeding” in that exception
means a proceeding taking place before a judge in a
court. That is—and always has been—the ordinary
meaning of the term. See Black’s Law Dictionary 1398
(10th ed. 2014) (“[a]ny court proceeding; any proceeding
initiated to procure an order or decree, whether in law
or in equity”); Black’s Law Dictionary 669 (2d ed. 1910)
(“[a] general term for proceedings relating to, practiced
in, or proceeding from, a court of justice”). Respondent

12
has never disputed that the ordinary meaning of “judicial proceeding” means a court proceeding. Treating a
Senate impeachment trial—a proceeding before elected
legislators—as a “judicial proceeding” departs from
that ordinary meaning.
Other textual indicia in Rule 6(e) confirm that “judicial proceeding” in Rule 6(e)(3)(E)(i) carries its ordinary meaning. The only other uses of “judicial proceeding” in Rule 6(e)(3) unambiguously refer to proceedings
in a court. See Fed. R. Crim. P. 6(e)(3)(F) and (G). Subparagraph (G) states that “[i]f the petition to disclose
arises out of a judicial proceeding in another district,
the petitioned court must transfer the petition to the
other court unless the petitioned court can reasonably
determine whether disclosure is proper.” Fed. R. Crim.
P. 6(e)(3)(G); see Fed. R. Crim. P. 6(e)(3)(E) advisory
committee’s note (1983 Amendments) (referring to “the
federal district court where the judicial proceeding
giving rise to the petition is pending” and to “the
grand jury court and judicial proceeding court”). And
subparagraph (F) states that when a court receives a
petition to disclose a grand-jury matter in connection
with a judicial proceeding, “the court must afford a reasonable opportunity to appear and be heard to * * * the
parties to the judicial proceeding.” Fed. R. Crim. P.
6(e)(3)(F)(ii).
As even the court of appeals recognized (App., infra,
13a), those other provisions in Rule 6(e)(3) plainly refer
to court proceedings. Indeed, subparagraphs (F) and
(G) would make little sense if “judicial proceeding” in
those provisions applied to a Senate impeachment trial.
It follows that “judicial proceeding” also refers only to
a court proceeding in subparagraph (E) as well. See
Environmental Defense v. Duke Energy Corp., 549 U.S.

13
561, 574 (2007) (describing the “natural presumption
that identical words used in different parts of the same
act are intended to have the same meaning”) (citation
omitted). To be sure, as the court of appeals observed
(App., infra, 13a), the presumption that a term carries
the same meaning throughout a single statute may
“break[] down where Congress uses the same [term] in
a statute in multiple conflicting ways.” Return Mail,
Inc. v. United States Postal Service, 139 S. Ct. 1853,
1865 (2019). But giving “judicial proceeding” its ordinary meaning throughout Rule 6(e) does not create any
such “conflict[].” Ibid. To the contrary, it is the court
of appeals’ insistence that “judicial proceeding” carry
different meanings within Rule 6(e)(3) that “needlessly
produces a contradiction in the statutory text.” Shapiro
v. McManus, 136 S. Ct. 450, 454 (2015).
Other aspects of the Criminal Rules reinforce the ordinary meaning of the term “judicial proceeding.” The
only other instance in which that term appears in the
Rules of Criminal Procedure indisputably refers to
courts: “Except as otherwise provided by a statute or
these rules, the court must not permit the taking of photographs in the courtroom during judicial proceedings
or the broadcasting of judicial proceedings from the
courtroom.” Fed. R. Crim. P. 53. And, of course, that
the dispute here involves an interpretation of a term in
the Federal Rules of Criminal Procedure—a body of
rules that exists solely to govern the conduct of criminal
proceedings in federal courts—lends further support to
the interpretation of “judicial proceeding” as referring
to a proceeding before a court.
Consistent with the term’s ordinary meaning, this
Court likewise has described “judicial proceeding” in
Rule 6(e)(3) as referring to litigation. In Baggot, supra,

14
the Court held that disclosure of grand-jury materials
was “not appropriate for use in an IRS audit of civil tax
liability” under the judicial-proceeding exception in
Rule 6(e)(3)(E)(i), in part “because the purpose of the
audit is not to prepare for or conduct litigation.” 463 U.S.
at 480; see ibid. (“[T]he Rule contemplates only uses related fairly directly to some identifiable litigation, pending or anticipated.”). Although Baggot did not expressly
address the question whether a “judicial proceeding”
could include a Senate impeachment trial, see id. at 479
n.2, the Court’s reasoning in that case is inconsistent
with the court of appeals’ decision here. An impeachment trial is not aimed at preparing for or conducting
litigation. To the contrary, the Senate’s exercise of its
“sole Power to try all Impeachments,” U.S. Const. Art.
I, § 3, Cl. 6, generally is not subject to judicial review at
all. Cf. Nixon v. United States, 506 U.S. 224, 235 (1993).
The court of appeals reasoned that “[t]he constitutional text confirms that a Senate impeachment trial is
a judicial proceeding” because the Framers “understood impeachment to involve the exercise of judicial
power.” App., infra, 12a-13a. There is good reason to
doubt that view. Cf. U.S. Const. Art. III, § 1 (vesting
all of “[t]he judicial Power of the United States” in the
courts); Nixon, 506 U.S. at 229 (rejecting the contention
that a Senate impeachment trial “must be in the nature
of a judicial trial”). Regardless, the question here is not
whether a Senate impeachment trial can in some general sense be described as “judicial” because it shares
some features with the exercise of judicial power. Rather, the question is whether a Senate impeachment
trial is a “judicial proceeding” in the specific sense of
that term as it appears in the Federal Rules of Criminal

15
Procedure, and in Rule 6(e)(3)(E)(i) in particular. The
court thus asked and answered the wrong question.
The court of appeals also thought that “judicial proceeding” in Rule 6(e)(3) should be “interpreted broadly.”
App., infra, 13a. But this Court has made clear that exceptions to grand-jury secrecy must be interpreted narrowly. In Sells Engineering, for example, this Court
held that the authorization in Rule 6(e)(3)(A)(i) for disclosure of grand-jury materials to an “attorney for the
Government” does not authorize disclosure to an attorney in the Department of Justice’s Civil Division, but
instead is limited to “those attorneys who conduct
the criminal matters to which the materials pertain.”
463 U.S. at 427. The Court explained that its narrow
interpretation of the term “attorney for the Government” in the Rule was warranted because “[i]n the absence of a clear indication in a statute or Rule, we must
always be reluctant to conclude that a breach of [grandjury] secrecy has been authorized.” Id. at 425. Here,
the court of appeals upheld disclosure without identifying any statute or rule related to grand-jury practice
that even refers to impeachments, much less one that
“clear[ly] indicat[es]” that a court may authorize a
breach of grand-jury secrecy in connection with an impeachment. Ibid.
b. Historical practice confirms that the term “judicial proceeding” in Rule 6(e) carries its ordinary meaning. Before the advent of Rule 6(e), courts authorized
the disclosure of secret grand-jury materials only in relatively limited circumstances, all of which related to ordinary court proceedings. This Court, for example, approved the disclosure of grand-jury testimony to refresh the recollection of witnesses at trial, see United
States v. Socony-Vacuum Oil Co., 310 U.S. 150, 233-234

16
(1940), and courts of appeals asserted the authority to
pierce grand-jury secrecy where there was a basis to set
aside an indictment because of misconduct before the
grand jury, see, e.g., Schmidt v. United States, 115 F.2d
394, 395-396 (6th Cir. 1940); Murdick v. United States,
15 F.2d 965, 968 (8th Cir. 1926), cert. denied, 274 U.S.
752 (1927); Atwell v. United States, 162 F. 97, 100-101
(4th Cir. 1908). When Rule 6(e) “codifie[d] the traditional rule of grand jury secrecy” in 1946, Sells Engineering, 463 U.S. at 425, it codified those limited exceptions, creating an express authorization for district
courts to disclose grand-jury matters “preliminarily to
or in connection with a judicial proceeding or * * * at
the request of the defendant upon a showing that
grounds may exist for a motion to dismiss the indictment because of matters occurring before the grand
jury.” Fed. R. Crim. P. 6(e) (1946).
The Advisory Committee notes accompanying the
Rule accordingly explained that Rule 6(e) “continues
the traditional practice of secrecy on the part of members of the grand jury, except when the court permits a
disclosure.” Fed. R. Crim. P. 6(e) advisory committee’s
note (1944 Adoption). The only cases those notes cite as
examples involved attempts to lift grand-jury secrecy in
connection with proceedings occurring before judges in
courts. See ibid. (citing Schmidt, supra; Atwell, supra;
and United States v. American Medical Association,
26 F. Supp. 429 (D.D.C. 1939)). The historical practice
predating Rule 6(e)’s adoption on which the Advisory
Committee expressly relied thus confirms that the term
“judicial proceeding” does not extend to an impeachment trial before elected legislators.

17
The court of appeals’ reliance (App., infra, 14a) on a
history of Congress’s having “obtained grand jury material to investigate allegations of election fraud or misconduct by Members of Congress” was misplaced. As
the court itself acknowledged (ibid.), nearly all of the
examples that predate the adoption of Rule 6(e) did not
involve impeachment proceedings. Accordingly, they
do not suggest that the “judicial proceeding” exception
to grand-jury secrecy extends to impeachments. And
the only pre-Rule example the court of appeals identified as involving an impeachment investigation—in
which the House Judiciary Committee obtained certain
grand-jury materials in connection with the possible impeachment of two federal judges in 1945—did not involve a “court-ordered disclosure” at all. Id. at 56a
(Rao, J., dissenting) (citation omitted). Likewise, the
court’s oblique reference (id. at 14a) to an 1811 incident
“did not involve compulsory process, judicial involvement of any sort, or even secret grand jury materials.”
Id. at 57a n.9 (Rao, J., dissenting).
The court of appeals’ reliance (App., infra, 14a-15a)
on historical examples postdating the adoption of Rule
6(e) was similarly misplaced. To the extent the court of
appeals relied on lower court decisions authorizing disclosure of grand-jury matters under the “judicial proceeding” exception in contexts “outside of Article III
court proceedings,” Id. at 13a, this Court has not endorsed those rulings, see Baggot, 463 U.S. at 479 n.2,
and in any event they do not support the decision below.
For example, the court of appeals referred to authorization of disclosure in “administrative proceedings before the United States Tax Court.” App., infra, 13a.
But a tax court proceeding is a proceeding in an entity
that Congress—which enacted the relevant text of Rule

18
6(e)—expressly designated a “court,” 26 U.S.C. 7441;
that is constitutionally treated as a court for some purposes, see Freytag v. Commissioner, 501 U.S. 868, 890
(1991); and whose decisions are subject to judicial review by an Article III court, 26 U.S.C. 7482(a)(1). None
of those is true of the Senate or an impeachment trial in
that chamber.
Likewise, lower-court decisions involving administrative proceedings other than those in tax court, cf.
App., infra, 13a, authorized disclosure of grand-jury
matters on the ground that such proceedings are preliminary to an eventual judicial proceeding because
they are subject to judicial review—not on the ground
that they are judicial proceedings in their own right.
See In re Special February 1971 Grand Jury, 490 F.2d
894, 897 (7th Cir. 1973) (“The statutory scheme involved
here plainly contemplates judicial review of the board’s
findings, and we must therefore conclude * * * that the
police board hearing is ‘preliminary’ to judicial review.”); see also Bradley v. Fairfax, 634 F.2d 1126, 1129
(8th Cir. 1980) (observing that “revocation hearings are
not judicial proceedings” and so “disclosure under Rule
6(e)(3)[] can only rest on the attenuated reasoning that
a parole revocation hearing is ‘preliminary to’ a judicial
proceeding”) (citation omitted). A Senate impeachment
proceeding obviously is not preliminary to an eventual
court proceeding. See Nixon, 506 U.S. at 235.
Finally, to the extent the court of appeals relied on
post-Rule cases involving impeachment, those lowercourt cases are of questionable probative value because
in each instance the Department of Justice supported
disclosure of the requested materials. The government
has reconsidered its position on that question, however,
in light of the plain text of Rule 6(e) and the serious

19
separation-of-powers concerns implicated by the court
of appeals’ contrary interpretation, as described below.
And in any event, because Congress has not authorized
courts to disclose grand-jury materials in connection
with impeachment proceedings, no amount of prior mistaken Executive Branch acquiescence in such disclosure
can overcome that lack of authorization.
2. The court of appeals’ interpretation would create
substantial constitutional difficulties with the ordinary application of Rule 6(e)

Interpreting the “judicial proceeding” exception to
grand-jury secrecy in Rule 6(e)(3)(E)(i) as including a
Senate impeachment trial also would create substantial
constitutional difficulties. The court of appeals improperly attempted to avoid those difficulties by adopting an
impeachment-specific disclosure regime that departs
from how the Rule ordinarily applies.
a. Rule 6(e) recognizes the importance of grand-jury
secrecy, and reflects Congress’s “judgment that not
every beneficial purpose, or even every valid governmental purpose, is an appropriate reason for breaching
grand jury secrecy.” Baggot, 463 U.S. at 480. To that
end, a critical feature of Rule 6(e) is that when a district
court authorizes disclosure of grand-jury matters, it
generally does so “at a time, in a manner, and subject to
any other conditions that it directs.” Fed. R. Crim. P.
6(e)(3)(E). In Douglas Oil, for example, the district
court authorized a disclosure of grand-jury materials
subject to multiple conditions: that they be available
“ ‘only to counsel’ ”; that they be used “ ‘solely for the
purpose of impeaching’ ” or “ ‘refreshing the recollection’ ” of witnesses; that counsel must not “further reproduc[e]” the materials; and that counsel must return
the materials to the government “ ‘upon completion of

20
the purposes authorized’ ” by the district court’s order.
441 U.S. at 217. This Court endorsed that approach,
emphasizing that “if disclosure is ordered, the court
may include protective limitations on the use of the disclosed material.” Id. at 223. The authority to impose
such conditions—enforceable by contempt, see Fed. R.
Crim. P. 6(e)(7)—is essential for a district court to ensure that grand-jury secrecy is lifted only “discretely
and limitedly,” Procter & Gamble, 356 U.S. at 683.
A federal court is likely powerless, however, to impose such conditions on Members of Congress—much
less to enforce them by contempt. As the D.C. Circuit
has explained, “the separation of powers, including the
Speech or Debate Clause, bars [a] court from ordering
a congressional committee to return, destroy, or refrain
from publishing” information that has come into its possession. Senate Permanent Subcommittee on Investigations v. Ferrer, 856 F.3d 1080, 1086 (D.C. Cir. 2017).
Accordingly, although this Court has never decided the
question, it is, at a minimum, constitutionally doubtful
whether a federal court could impose on the Representatives or Senators involved in an impeachment proceeding any of the “protective limitations on the use of the
disclosed material” that this Court contemplated in
Douglas Oil. 441 U.S. at 223. Notably, respondent has
never claimed otherwise.
That one of the express tools for protecting grandjury secrecy in Rule 6(e)(3)(E) likely would be unconstitutional as applied to impeachment proceedings is, by
itself, a strong reason to doubt that such a congressional
proceeding is a “judicial proceeding” as that term is
used in the Rule. Cf. Jennings v. Rodriguez, 138 S. Ct.
830, 842 (2018) (“When ‘a serious doubt’ is raised about

21
the constitutionality of an act of Congress, ‘it is a cardinal principle that this Court will first ascertain whether
a construction of the statute is fairly possible by which
the question may be avoided.’ ”) (citation omitted). The
court of appeals itself acknowledged (App., infra, 23a)
that “courts lack authority to restrict the House’s use of
the materials or withdraw them if improvidently issued
or disseminated,” but ignored that its interpretation
created rather than avoided that serious constitutional
problem.
b. The court of appeals’ interpretation of “judicial
proceeding” as including a Senate impeachment trial
creates yet another threat to the separation of powers:
applying Rule 6(e) in the ordinary manner would require federal courts to scrutinize particular theories of
impeachment and weigh the significance of particular
evidence under those theories. But doing so would be
in considerable tension with the House’s “sole Power of
Impeachment” and the Senate’s “sole Power to try all
Impeachments.” U.S. Const. Art. I, § 2, Cl. 5 and § 3,
Cl. 6; see Nixon, 506 U.S. at 235.
As this Court has explained in Procter & Gamble and
other cases, even when Rule 6(e) permits a court to authorize disclosure of grand-jury matters, only those
matters for which the petitioner has demonstrated a
“particularized need” may be disclosed. 356 U.S. at 683;
see Illinois v. Abbott & Associates, Inc., 460 U.S. 557,
567 & n.14 (1983). In drafting the relevant text of Rule
6(e) in 1977, see 1977 Act § 2(a), 91 Stat. 319-320, the
Senate Judiciary Committee expressly identified
Procter & Gamble as one of the “prevailing court decisions” setting forth the requirements for disclosure that
it wished to codify. S. Rep. No. 354, 95th Cong., 1st

22
Sess. 8 & n.13 (1977). The particularized-need requirement applies to all petitions for disclosure under Rule
6(e)(3)(E), including requests for disclosure in connection with a judicial proceeding under Rule 6(e)(3)(E)(i).
See, e.g., Douglas Oil, 441 U.S. at 222.
To demonstrate a particularized need, parties seeking disclosure “must show that the material they seek is
needed to avoid a possible injustice in another judicial
proceeding, that the need for disclosure is greater than
the need for continued secrecy, and that their request
is structured to cover only material so needed.” Douglas Oil, 441 U.S. at 222; see Procter & Gamble, 356 U.S.
at 682 (petitioning party must show with “particularity”
that “there is a compelling necessity” for the requested
grand-jury records). This Court has explained that the
inquiry required by the particularized-need analysis
“cannot even be made without consideration of the particulars of the judicial proceeding with respect to which
disclosure is sought.” Baggot, 463 U.S. at 480 n.4. Accordingly, district courts facing requests for disclosure
must carefully scrutinize the relationship between the
legal claims in the “judicial proceeding” and the grandjury materials sought. In Douglas Oil, for example, the
Court explained that the district court, in assessing particularized need, was required to assess the “contours
of the conspiracy respondents sought to prove in their
civil actions” to weigh the claimed need for the grandjury information against the strong public interest in
grand-jury secrecy. 441 U.S. at 229.
By insisting that a Senate impeachment trial qualifies as a “judicial proceeding” under Rule 6(e), the court
of appeals’ interpretation would require federal courts
to tread on perilous ground. Nothing in Rule 6(e) distinguishes between types of judicial proceedings; a

23
House committee seeking disclosure of grand-jury materials in connection with a Senate impeachment trial
should therefore have to demonstrate a particularized
need for the materials no less than would other petitioners seeking disclosure in connection with “gardenvariety civil actions or criminal prosecutions.” Baggot,
463 U.S. at 479 n.2. Accordingly, the petitioned court
presumably would need to examine the “contours” of
the particular theories of impeachment being considered by the House or one of its committees, and then
make a determination about the degree of materiality of
the grand-jury records—granting access to what the
House truly needs, but withholding portions that would
be useful only as “general discovery.” Douglas Oil, 441
U.S. at 229. The court would need to undertake the
same analysis if the Senate or one of its committees
sought disclosure of grand-jury records in connection
with an ongoing impeachment trial as well.
It is unclear on what proper basis a federal court
could make those assessments in the context of a proceeding that the Constitution commits exclusively to the
Legislative Branch. Cf. Nixon, 506 U.S. at 235. Indeed,
such assessments would appear to require courts to
pass judgment on the legal sufficiency of a particular
impeachment theory or to second-guess the House or
Senate’s respective assessments of materiality—just as
courts do when assessing petitions for disclosure of
grand-jury matters in connection with garden-variety
civil and criminal proceedings. The constitutional hazards inherent in such an approach are obvious—and are
a necessary consequence of the court of appeals’ insistence that “judicial proceeding” in Rule 6(e)(3)(E)(i)
must include a Senate impeachment trial, contrary to

24
that term’s ordinary meaning. Nor could that consequence be avoided by transferring the petition to the
Senate to decide for itself—as Rule 6(e)(3)(G) contemplates when the judicial proceeding occurs in some
“other court”—precisely because that provision is inapplicable to congressional impeachment trials.
Rather than reconsidering its interpretation of “judicial proceeding” in the face of the serious constitutional difficulties its interpretation would create, the
court of appeals crafted a lower particularized-need
standard under Rule 6(e) specific to impeachment. See
App., infra, 19a-20a. Under that standard, as long as a
congressional committee represents that it is engaged
in an impeachment inquiry, a district court should
“hand off all relevant materials” without significant further consideration. Id. at 19a. That approach, the court
of appeals concluded, would “avoid[] the potentially
problematic second-guessing of Congress’s need for evidence that is relevant to its impeachment inquiry.” Id.
at 20a.
The court of appeals’ attempt to avoid those constitutional problems comes at the expense of this Court’s
precedents. Although this Court stated in Sells Engineering that the particularized-need standard is “flexible” and “adaptable to different circumstances,” that
statement was in the context of explaining that a court
may properly consider the “risk of further leakage or
improper use” in determining whether to authorize disclosure. 463 U.S. at 445; see ibid. (observing that “disclosure to Justice Department attorneys poses less risk
of further leakage or improper use than would disclosure to private parties or the general public”). This
Court was not suggesting that a lower court may water

25
down the particularized-need standard to one requiring
merely a showing of “relevance.”
To the contrary, this Court repeatedly has rejected
a mere “relevance” standard for disclosure of grandjury records—including when governmental parties
seek disclosure for law-enforcement purposes. E.g.,
Sells Engineering, 463 U.S. at 443-444 (stating that the
Executive Branch’s “ ‘responsibility to protect the public weal’ ” does not justify a rule making disclosure “permissible if the grand jury materials are ‘relevant,’ ” as
that would be “a virtual rubber stamp for the Government’s assertion that it desires disclosure”) (citations
omitted); Abbott & Associates, 460 U.S. at 568 (holding
that a State could not demonstrate a particularized need
for material “merely by alleging that the materials were
relevant to an actual or potential” action). The court of
appeals neither explained how its diluted “relevance”
standard is consistent with this Court’s precedents nor
provided a textual basis in the Rule for crafting that impeachment-specific standard. Cf. Clark v. Martinez,
543 U.S. 371, 382 (2005) (observing that a statute must
be interpreted consistently across all applications, and
cannot be “a chameleon, its meaning subject to change
depending on the presence or absence of constitutional
concerns in each individual case”).
Finally, the court of appeals’ conclusion that the requested materials were relevant to an ongoing House
impeachment inquiry—despite the House’s already
having impeached the President and the Senate’s already having tried and acquitted him—was particularly
misguided. See App., infra, 17a. Although the court
correctly observed that “the Committee may recommend new articles of impeachment,” it did not explain

26
how respondent had met its burden to show a particularized need for the requested materials in connection
with any potential second impeachment, save for the
circular observation that “if the grand jury materials
reveal new evidence of impeachable offenses,” they
would be relevant to those “new articles of impeachment.” Ibid.
That rationale would allow a district court to authorize breaching grand-jury secrecy “preliminarily to” a
future impeachment proceeding whose probability of
occurring is, as here, far too attenuated to satisfy Rule
6(e)(3)(E). Indeed, as a practical matter, it would
amount to “a virtual rubber stamp.” Sells Engineering,
463 U.S. at 444. As this Court explained in Baggot, “the
Rule contemplates only uses [of grand-jury records] related fairly directly to some identifiable litigation, pending or anticipated. Thus, it is not enough to show that
some litigation may emerge from the matter in which
the material is to be used, or even that litigation is factually likely to emerge.” 463 U.S. at 480. That is yet
another reason the court of appeals erred in affirming
the district court’s disclosure order here.
B. The Decision Below Warrants This Court’s Review

The court of appeals’ decision involves an “important
question of federal law that has not been, but should be,
settled by this Court.” Sup. Ct. R. 10(c). This Court has
explained that “the indispensable secrecy of grand jury
proceedings [is] as important for the protection of the
innocent as for the pursuit of the guilty.” United States
v. Johnson, 319 U.S. 503, 513 (1943). Absent assurances
of secrecy, “many prospective witnesses would be hesitant to come forward voluntarily,” and those who do
come forward “would be less likely to testify fully and
frankly.” Douglas Oil, 441 U.S. at 219. Targets of the

27
proceeding might “try to influence individual grand jurors.” Ibid. And “persons who are accused but exonerated by the grand jury” could be “held up to public ridicule.” Ibid. “The grand jury as a public institution
serving the community might suffer if those testifying
today knew that the secrecy of their testimony would be
lifted tomorrow.” Procter & Gamble, 356 U.S. at 682.
“For all of these reasons, courts have been reluctant to
lift unnecessarily the veil of secrecy from the grand
jury.” Douglas Oil, 441 U.S. at 219. Allowing that secrecy to be breached too easily would be “destructive of
the workings of our grand jury system” and “hostile to
its historic status.” Johnson, 319 U.S. at 513. By authorizing a breach of grand-jury secrecy under a lowered “relevance” standard and without any time, manner, or other conditions on subsequent use of the materials, the decision below thus threatens to undermine
“the proper functioning of our grand jury system.”
Douglas Oil, 441 U.S. at 218. Moreover, as explained
above, it does so in contravention of the text of Rule
6(e), historical practice before the Rule’s adoption, and
important separation-of-powers principles.
The decision below is also in significant tension with
this Court’s precedents. Although neither this Court
nor another court of appeals has directly addressed
whether a court may authorize a breach of grand-jury
secrecy in connection with an impeachment trial under
the “judicial proceeding” exception in Rule 6(e), cf. Baggot, 463 U.S. at 479 n.2, this Court has described “judicial proceeding” in the Rule as referring to “some identifiable litigation,” id. at 480 (emphasis added), and has
emphasized that “[i]n the absence of a clear indication
in a statute or Rule, we must always be reluctant to con-

28
clude that a breach of [grand-jury] secrecy has been authorized,” Sells Engineering, 463 U.S. at 425. The court
of appeals’ expansive definition of “judicial proceeding”
is difficult to reconcile with those statements. And that
court’s attempts to ameliorate the serious separationof-powers concerns created by its definition not only
lack a basis in the Rule’s text, but contravene this
Court’s repeated holdings that reject a lower “relevan[ce]” standard under the particularized-need inquiry. Id. at 444; Abbott & Associates, 460 U.S. at 568.
To be sure, impeachments occur somewhat infrequently. But given the visibility and importance of impeachment to the Nation and our constitutional scheme,
neither the relative rarity of impeachment nor the lack
of a circuit conflict on the question presented lessens
the need for this Court’s review, especially given the
substantial separation-of-powers concerns that the
court of appeals’ decision raises. See, e.g., Trump v.
Mazars USA, LLP, 140 S. Ct. 660 (2019) (No. 19-715)
(granting certiorari). Indeed, protecting grand-jury secrecy is all the more important in high-profile investigations like impeachments, when the need for “prospective witnesses * * * to come forward voluntarily” and
“testify fully and frankly” is at its greatest, and which
serve as the most visible reminders to the public that
the government and the courts will “safeguard[] the
confidentiality of grand jury proceedings” in all cases.
Douglas Oil, 441 U.S. at 219. And it would be prudent
for the Court to resolve this important question now, so
that the issue need not be litigated on an emergency basis in the midst of some future impeachment proceeding.
Finally, this Court should resolve the question itself
rather than relying on the Criminal Rules Committee.

29
Although determining the permissible exceptions to
grand-jury secrecy under Rule 6(e) ordinarily would be
best left to the committee, that course is not warranted
when, as here, a court reads the text of the Rule in a
way that either raises substantial separation-of-powers
concerns or, in an attempt to avoid those concerns, requires rewriting or disregarding other aspects of the
Rule’s text and operation. Under those circumstances,
resolution of the issue is more appropriately undertaken by this Court.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
HASHIM M. MOOPPAN
Deputy Assistant Attorney
General
SOPAN JOSHI
Assistant to the Solicitor
General
MARK R. FREEMAN
MICHAEL S. RAAB
BRAD HINSHELWOOD
Attorneys

JUNE 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5288
IN RE: APPLICATION OF THE COMMITTEE ON THE
JUDICIARY, U.S. HOUSE OF REPRESENTATIVES,
FOR AN ORDER AUTHORIZING THE RELEASE
OF CERTAIN GRAND JURY MATERIALS,
COMMITTEE ON THE JUDICIARY, UNITED STATES
HOUSE OF REPRESENTATIVES, APPELLEE
v.
UNITED STATES DEPARTMENT OF JUSTICE,
APPELLANT

Argued: Jan. 3, 2020
Decided: Mar. 10, 2020
Appeal from the United States District Court
for the District of Columbia
(No. 1:19-gj-00048)
Before:
Judges.

ROGERS, GRIFFITH, and RAO, Circuit

Opinion for the Court by Circuit Judge ROGERS.
Concurring opinion by Circuit Judge GRIFFITH.
Dissenting opinion by Circuit Judge RAO.
ROGERS, Circuit Judge:
(1a)

2a
Article I of the United States Constitution provides
that the House of Representatives “shall have the
sole Power of Impeachment.” U.S. CONST. art. I,
§ 2, cl. 5. Further, the Senate “shall have the sole
Power to try all Impeachments.” Id. § 3, cl. 6.
The Committee on the Judiciary of the U.S. House of
Representatives seeks to obtain the redacted grand jury
materials referenced in the Special Counsel’s Report in
connection with its impeachment investigation of President Donald J. Trump. The district court authorized
the disclosure of these grand jury materials pursuant to
the “judicial proceeding” exception in Federal Rule of
Criminal Procedure 6(e)(3)(E)(i). For the following
reasons, because that exception encompasses impeachment proceedings and the Committee has established a
“particularized need” for the grand jury materials, the
Order of the district court is affirmed.
I.

In May 2017, Deputy U.S. Attorney General Rod
Rosenstein appointed Robert S. Mueller, III, as Special
Counsel to investigate Russian interference in the 2016
presidential election, including any links or coordination
between the Russian government and individuals associated with President Trump’s election campaign. As
part of this investigation, a grand jury sitting in the District of Columbia “issued more than 2,800 subpoenas”
and almost 80 witnesses testified before the grand jury.
Special Counsel Robert S. Mueller, III, Report on the
Investigation into Russian Interference in the 2016
Presidential Election, Vol. I at 13 (March 2019) (“The
Mueller Report”). In addition, the Special Counsel’s
Office interviewed “approximately 500 witnesses” under
oath, id., including members of the Administration.

3a
On March 22, 2019, the Special Counsel submitted his
confidential two-volume report to the Attorney General
pursuant to 28 C.F.R. § 600.8(c). Volume I summarizes
Russian interference in the 2016 presidential election
and describes the “numerous links between the Russian
government and the Trump Campaign.” Vol. I at 1-3.
Nevertheless, the Special Counsel concluded that “the
investigation did not establish that members of the
Trump Campaign conspired or coordinated with the
Russian government in its election interference activities.” Id. at 2. Volume II outlines the Special Counsel’s examination of whether the President obstructed
justice in connection with the Russia-related investigations. The Special Counsel declined to exonerate the
President. Citing to an opinion issued by the Office of
Legal Counsel, the Special Counsel stated that indicting
or criminally prosecuting a sitting President would violate the separation of powers. Notably, for purposes of
the Committee’s need for the redacted grand jury materials, the Special Counsel stated that a federal indictment would “potentially preempt constitutional processes for addressing presidential misconduct.” Vol.
II at 1 (citing U.S. CONST. art. I, § 2, cl. 5; § 3, cl. 6).
The Attorney General released a public version of the
Mueller Report in April 2019, with redactions for grand
jury materials, and other information that he determined could compromise ongoing intelligence or law enforcement activities, harm ongoing criminal matters, or
unduly infringe upon the personal privacy interests of
peripheral third parties. Letter from Attorney General Barr to Senate Judiciary Chairman Graham and
Ranking Member Feinstein, and House Judiciary
Chairman Nadler and Ranking Member Collins (Apr.
18, 2019). The Assistant Attorney General wrote the

4a
Committee that certain members of Congress, including
the Chairman and Ranking Members of the House Judiciary Committee, could review an unredacted version
of the Report, except for redactions relating to grand
jury information, which the Attorney General claimed
he was prohibited from disclosing to Congress by law
citing Rule 6(e). Letter from Assistant Attorney General Boyd to Senate Judiciary Chairman Graham and
House Judiciary Chairman Nadler (Apr. 18, 2019).
In October 2019, the House of Representatives
passed House Resolution 660, which directed six committees, including the House Judiciary Committee and
the House Intelligence Committee, to continue their ongoing impeachment investigations. H. Res. 660, 116th
Cong. (2019). On December 18, 2019, the full House
adopted two Articles of Impeachment against President
Trump. H. Res. 755, 116th Cong. (2019). The first
Article of Impeachment, “Abuse of Power,” alleges that
President Trump “solicited the interference of a foreign
government, Ukraine, in the [upcoming] 2020 United
States Presidential election.” Id. at 1. The second
Article, “Obstruction of Congress,” alleges that President Trump “directed the unprecedented, categorical,
and indiscriminate defiance of subpoenas issued by the
House of Representatives.” Id. at 2.
The House Judiciary Committee’s Report on the Impeachment of President Trump asserts that the conduct
described by these Articles is consistent with the President’s “inviting and welcoming Russian interference in
the 2016 United States Presidential election,” H. Rep.
No. 116-346, at 127 (2019), and the President’s “endeavor to impede the Special Counsel’s investigation

5a
into Russian interference . . . as well as [his] sustained efforts to obstruct the Special Counsel after
learning that he was under investigation for obstruction
of justice,” id. at 159-60. The Committee Report also
makes clear that although two Articles of Impeachment
have been approved, the Committee’s impeachment investigation related to the Mueller Report is ongoing.
Id. at 159 n.928; see also Appellee’s Supp. Br. 17 (Dec.
23, 2019); Oral Arg. Tr. at 59-60 (Jan. 3, 2020).
On July 26, 2019, the House Judiciary Committee
filed an application for an order authorizing the release
of certain grand jury materials related to the Mueller
Report pursuant to Rule 6(e)(3)(E)(i). The Committee
requested three categories of grand jury materials: (1)
all portions of the Mueller Report that were redacted
pursuant to Rule 6(e); (2) any portions of grand jury
transcripts or exhibits referenced in those redactions;
and (3) any underlying grand jury testimony and exhibits that relate directly to certain individuals and events
described in the Mueller Report. The Committee proposed a “focused and staged disclosure” of the first two
categories of material, to be followed as necessary by
disclosure of the third category. In re App. of Comm.
on Judiciary, U.S. House of Representatives, for an Order Authorizing Release of Certain Grand Jury Materials (“App. for Mueller Report Grand Jury Materials”), 2019 WL 5485221, at *33 (D.D.C. Oct. 25, 2019)
(internal quotation marks and citation omitted). The
Department of Justice, which is the custodian of the
grand jury records, see Rule 6(e)(1), opposed the application and submitted an ex parte declaration disclosing
the contents of the Rule 6(e) redactions in Volume II and
Appendix C of the Mueller Report for the district court

6a
to review in camera. The record indicates that the district court reviewed this declaration but that the district
court did not receive or review any of the grand jury materials redacted in Volume I of the Report, nor any of
the grand jury transcripts or exhibits referenced in
these redactions.
On October 25, 2019, the district court granted the
Committee’s application. The district court concluded
that a Senate impeachment trial is a “judicial proceeding” under Rule 6(e). App. for Mueller Report Grand
Jury Materials, 2019 WL 5485221, at *11. The court
noted that “historical practice, the Federalist Papers,
the text of the Constitution, and Supreme Court precedent all make clear” that “impeachment trials are judicial in nature and constitute judicial proceedings.” Id.
at *14; see also id. at *14-19. The court further explained that, in any event, it was bound by circuit precedent to conclude that an impeachment trial is a “judicial proceeding,” citing Haldeman v. Sirica, 501 F.2d
714 (D.C. Cir. 1974) (en banc) and McKeever v. Barr, 920
F.3d 842 (D.C. Cir. 2019). App. for Mueller Report
Grand Jury Materials, 2019 WL 5485221, at *19. The
district court also found that the Committee established
a “particularized need” because the Committee’s compelling need for the requested material to “investigate
fully” and “to reach a final determination about conduct
by the President described in the Mueller Report,” id.
at *35, outweighs any remaining grand jury secrecy interests, id. at *37-38, and the requested disclosure was
tailored to this need, id. at *38.
The district court therefore authorized the disclosure
of the first two categories of requested grand jury information: all portions of the Mueller Report redacted

7a
pursuant to Rule 6(e) and any portions of grand jury
transcripts or exhibits referenced in those redactions.
Id. The court ordered the Department to provide these
materials to the Committee by October 30, 2019. Id.
The court also stated that the Committee could file additional requests articulating its particularized need for
the third category of grand jury materials requested in
its initial application. Id.
The Department appealed and sought a stay pending
appeal from the district court and from this court. The
district court denied a stay pending appeal. This court
entered an administrative stay on October 29, 2019, held
oral argument on the stay motion on November 18, 2019,
and then extended the administrative stay setting the
case for expedited briefing and oral argument on the
merits on January 3, 2020.
II.

The Committee asks this court to interpret and apply
Rule 6(e)—which is “a familiar judicial exercise.” Zivotofsky ex rel. Zivotofsky v. Clinton, 566 U.S. 189, 196
(2012). Rule 6(e) codifies the “long-established policy”
of maintaining grand jury secrecy. United States v.
Procter & Gamble Co., 356 U.S. 677, 681 (1958). Rule
6(e)(2)(B) provides that “a matter occurring before the
grand jury” must not be disclosed by grand jurors, interpreters, court reporters, government attorneys, or
other persons specifically listed in the Rule. Although
Rule 6(e) “makes quite clear that disclosure of matters
occurring before the grand jury is the exception and not
the rule,” the Rule “sets forth in precise terms to whom,
under what circumstances and on what conditions grand
jury information may be disclosed.” McKeever, 920
F.3d at 844 (quoting Fund for Constitutional Gov’t v.

8a
Nat’l Archives & Records Serv., 656 F.2d 856, 868 (D.C.
Cir. 1981)), cert. denied, 2020 WL 283746 (Jan. 21, 2020).
Rule 6(e)(3)(E) provides a list of “exceptions” to grand
jury secrecy, including five circumstances in which a
“court may authorize disclosure . . . of a grand-jury
matter.” As relevant here, Rule 6(e)(3)(E)(i) permits a
court to authorize disclosure “preliminarily to or in connection with a judicial proceeding,” where the person
seeking disclosure has shown a “particularized need” for
the requested grand jury materials, United States v.
Sells Engineering, Inc., 463 U.S. 418, 443 (1983).
The grand jury functions to a large degree at “arm’s
length” from the judicial branch, United States v. Williams, 504 U.S. 36, 47 (1992), but it operates under the
auspices of the district court in which it is convened, see
Rule 6(a); 28 U.S.C. § 1861 et seq., and “depend[s] on the
judiciary in its role as an investigative body,” United
States v. Seals, 130 F.3d 451, 457 (D.C. Cir. 1997). The
district court has supervisory jurisdiction over the
grand jury. Morrison v. Olson, 487 U.S. 654, 681 n.20
(1988). Although the district court’s authority over the
grand jury is limited, Williams, 504 U.S. at 47-50, courts
may exercise control over the grand jury in several significant respects, including the power to summon and
empanel the grand jury and the power to discharge the
grand jury, Rule 6(a), (g). Courts also may control access to the records of a grand jury investigation conducted under the court’s auspices. As noted, Rule 6(e)
codifies and defines that authority and prescribes the
procedures for its exercise. The Committee’s Rule
6(e)(3)(E)(i) application asks the district court to exercise its continuing supervisory jurisdiction concerning
the grand jury to authorize and order the release of
grand jury records.

9a
Numerous courts have recognized that grand jury
records are court records. Carlson v. United States,
837 F.3d 753, 758-59 (7th Cir. 2016); Standley v. Dep’t of
Justice, 835 F.2d 216, 218 (9th Cir. 1987); In re Grand
Jury Investigation of Cuisinarts, Inc., 665 F.2d 24, 31
(2d Cir. 1981); United States v. Penrod, 609 F.2d 1092,
1097 (4th Cir. 1979). “The grand jury minutes and
transcripts are not the property of the Government’s attorneys, agents or investigators. . . . Instead those
documents are records of the court.” Procter & Gamble Co., 356 U.S. at 684-85 (Whittaker, J., concurring).
But even where doubt is expressed whether grand jury
records are judicial records, Rule 6(e)(3)(E) vests courts
with control over the disclosure of these records and
courts exercise this control “by ordering ‘an attorney for
the government’ who holds the records to disclose the
materials,” McKeever, 920 F.3d at 848 and id. (quoting
Rule 6(e)(1)).
Although the grand jury “has not been textually assigned . . . to any of the branches,” Williams, 504
U.S. at 47, it “remains an appendage of the court,” Seals,
130 F.3d at 457 (quoting Brown v. United States, 359
U.S. 41, 49 (1959), overruled on other grounds by Harris
v. United States, 382 U.S. 162 (1965)). Grand jury records do not become Executive Branch documents simply
because they are housed with the Department of Justice. For instance, in the Freedom of Information Act
context, where “documents remain within the control of
the court and the grand jury,” those documents are not
“agency records” and are not subject to FOIA’s disclosure requirements that otherwise apply to agency documents even if they are in the possession of the Department of Justice. Tigar & Buffone v. Dep’t of Justice,
590 F. Supp. 1012, 1014-15 (D.D.C. 1984). As the Ninth

10a
Circuit has explained, “were court documents deemed
‘agency records’ for purposes of the FOIA when held by
the [Department], the Act would encroach upon the authority of the courts to control the dissemination of its
documents to the public.” Warth v. Dep’t of Justice,
595 F.2d 521, 523 (9th Cir. 1979). This court has applied similar reasoning to congressional documents
transmitted from Congress to the Executive. Am.
Civil Liberties Union v. CIA, 823 F.3d 655, 667-68 (D.C.
Cir. 2016).
In short, it is the district court, not the Executive or
the Department, that controls access to the grand jury
materials at issue here. The Department has objected
to disclosure of the redacted grand jury materials, but
the Department has no interest in objecting to the release of these materials outside of the general purposes
and policies of grand jury secrecy, which as discussed,
do not outweigh the Committee’s compelling need for
disclosure. Even if the Department had not objected
to disclosure, the district court would still need to authorize disclosure pursuant to Rule 6(e)’s “judicial proceeding” exception. See, e.g., In re Report & Recommendation of June 5, 1972 Grand Jury Concerning
Transmission of Evidence to House of Representatives
(“In re 1972 Grand Jury Report”), 370 F. Supp. 1219,
1227 (D.D.C. 1974). Requests for grand jury materials
pursuant to Rule 6(e)(3)(E)(i) necessarily require resolution by the courts.
III.

On the merits, the Department maintains that the
district court erred in concluding that Haldeman and
McKeever establish binding precedent on the correct
meaning of the term “judicial proceeding” in Rule 6(e).

11a
Appellant’s Br. 13. Reviewing de novo the district
court’s interpretation of Rule 6(e), see United States v.
McIlwain, 931 F.3d 1176, 1181 (D.C. Cir. 2019), these
precedents establish that a Senate impeachment trial
qualifies as a “judicial proceeding” under the Rule.
In In re 1972 Grand Jury Report, Chief Judge Sirica
ordered the disclosure of the grand jury report and accompanying materials to be delivered to the House Judiciary Committee, which was then engaged in an impeachment investigation of President Richard M. Nixon.
370 F. Supp. at 1230-31. This court denied mandamus
relief in Haldeman, holding that Chief Judge Sirica had
not abused his discretion in ordering the release of these
materials. 501 F.2d at 715-16. Significantly, this court
expressed “general agreement with his handling of
these matters,” observing that Chief Judge Sirica “dealt
at length” with the contention that Rule 6(e) limits the
disclosure of grand jury materials “to circumstances incidental to judicial proceedings and that impeachment
does not fall into that category.” Id. at 715. Judge
MacKinnon’s partial concurrence concluded that the
disclosure fit within the Rule 6(e) exception for judicial
proceedings. Id. at 717.
Even assuming that the court’s opinion in Haldeman
was “ambiguous” as to whether the disclosure of grand
jury materials to Congress was permitted under the “judicial proceeding” exception or the court’s inherent authority, see McKeever, 920 F.3d at 847 n.3, this court’s
decision in McKeever clarified that district courts lack
inherent authority outside of the exceptions listed in
Rule 6(e) to order disclosure of grand jury material, id.
at 844, and understood Haldeman to conclude that impeachment “fit[] within the Rule 6 exception for ‘judicial

12a
proceedings,’ ” id. at 847 n.3 (quoting Haldeman, 501 F.2d
at 717 (MacKinnon, J., concurring in part and dissenting
in part)). The Department now maintains that this interpretation of Haldeman is not “precedential,” Appellant’s Br. 33-34, but the court’s interpretation of Haldeman was essential to this court’s reasoning in McKeever.
The dissenting opinion in McKeever rested principally
on the view Haldeman held “that a district court retains
discretion to release grand jury materials outside the
Rule 6(e) exceptions.” McKeever, 920 F.3d at 855 (Srinivasan, J., dissenting). In reaching the contrary conclusion, the majority in McKeever necessarily interpreted
Haldeman to involve an application of Rule 6(e)’s “judicial proceeding” exception rather than an exercise of inherent authority.
Neither in Haldeman nor McKeever did this court
explain in detail why impeachment qualifies as a judicial
proceeding, although the en banc court in Haldeman
embraced Chief Judge Sirica’s analysis, 501 F.2d at 715,
and the term “judicial proceeding” in Rule 6(e) “has been
given a broad interpretation by the courts,” In re Sealed
Motion, 880 F.2d 1367, 1379-80 (D.C. Cir. 1989) (collecting cases). The district court’s interpretation in the instant case is further supported by traditional tools of
statutory construction.
The constitutional text confirms that a Senate impeachment trial is a judicial proceeding. Article I provides that “[t]he Senate shall have the sole Power to try
all Impeachments” and further states that when the
President “is tried, the Chief Justice shall preside.”
U.S. CONST. art. I, § 3, cl. 6. The Framers of the Constitution also understood impeachment to involve the ex-

13a
ercise of judicial power. For instance, Alexander Hamilton referred to the Senate’s “judicial character as a
court for the trial of impeachments.” THE FEDERALIST NO. 65, at 396 (Clinton Rossiter ed., 1961). The district court here properly concluded that “the Federalist
Papers, the text of the Constitution, and Supreme Court
precedent all make clear” that “impeachment trials are
judicial in nature and constitute judicial proceedings.”
App. for Mueller Report Grand Jury Materials, 2019
WL 5485221, at *14; see id. at *14-18.
The Department objects that the term “judicial proceeding” in Rule 6(e) is limited to judicial court proceedings because the ordinary meaning of the term “judicial
proceeding” does not include a proceeding conducted
before a legislative body and the two other provisions of
Rule 6(e) that use the term “judicial proceeding,” Rule
6(e)(3)(F), (G), unambiguously refer to a court proceeding. Appellant’s Br. 18-19. These arguments are
foreclosed by our precedent and are unpersuasive in any
event. The term “judicial proceeding” has long and repeatedly been interpreted broadly, and courts have authorized the disclosure of grand jury materials “in an array of judicial and quasi-judicial contexts” outside of Article III court proceedings—such as administrative proceedings before the United States Tax Court, App. for
Mueller Report Grand Jury Materials, 2019 WL 5485221,
at *12-13 (collecting cases). So understood, the term
“judicial proceeding” encompasses a Senate impeachment trial over which the Chief Justice of the Supreme
Court presides and the Senators constitute the jury.
That Rule 6(e)’s other references may contemplate a judicial court proceeding is of little significance because
“the presumption of consistent usage ‘readily yields’ to
context,” Util. Air Regulatory Grp. v. EPA, 573 U.S.

14a
302, 320 (2014) (quoting Envtl. Def. v. Duke Energy
Corp., 549 U.S. 561, 574 (2007)).
Additionally, the historical practice supports interpreting Rule 6(e) to encompass impeachment. Rule
6(e) was adopted in 1946 to “codif[y] the traditional rule
of grand jury secrecy” that was applied at common law.
Sells Eng’g, 463 U.S. at 425. As summarized by the district court, Congress has repeatedly obtained grand jury
material to investigate allegations of election fraud or
misconduct by Members of Congress. App. for Mueller
Report Grand Jury Materials, 2019 WL 5485221, at
*18-19. The Department dismisses this practice because no example involved impeachment proceedings.
Appellant’s Br. 29-32. But these examples evince a
common-law tradition, starting as early as 1811, of providing grand jury materials to Congress to assist with
congressional investigations. See In re 1972 Grand
Jury Report, 370 F. Supp. at 1230. And historical practice reflects at least one example of a court-ordered disclosure of grand jury materials to the Committee—
prior to the Rule’s enactment—for use in its impeachment investigation of two federal judges. Conduct of
Albert W. Johnson and Albert L. Watson, U.S. District
Judges, Middle District of Pennsylvania: Hearing before Subcomm. of the H. Comm. on the Judiciary, 79th
Cong., at 63 (1945).
Since Rule 6(e) was enacted, federal courts have authorized the disclosure of grand jury materials to the
House for use in impeachment investigations involving
two presidents and three federal judges. See generally
In re 1972 Grand Jury Report, 370 F. Supp. 1219 (President Nixon); Order, In re Madison Guar. Sav. & Loan
Ass’n, Div. No. 94-1 (D.C. Cir. Spec. Div. July 7, 1998)

15a
(per curiam) (President Clinton); In re Request for Access to Grand Jury Materials Grand Jury No. 81-1, Miami (“Hastings”), 833 F.2d 1438 (11th Cir. 1987) (Judge
Alcee Hastings); Order, Nixon v. United States, Civ.
No. H88-0052(G) (S.D. Miss. 1988) (Judge Walter
Nixon), referenced in H.R. Rep. No. 101-36, at 15 (1989);
and Order, In re Grand Jury Investigation of U.S. District Judge G. Thomas Porteous, Jr., No. 2:09-mc-04346CVSG (E.D. La. Aug. 6, 2009). It is only the President’s categorical resistance and the Department’s objection that are unprecedented. Oral. Arg. Tr. at 1112; McGahn, No. 19-5331, Oral Arg. Tr. at 21 (Jan. 3,
2020). In interpreting the Rule, this established practice deserves “significant weight.” Cf. NLRB v. Noel
Canning, 573 U.S. 513, 524-26 (2014) (emphasis omitted).
The Department worries that reading Rule 6(e)
to encompass impeachment proceedings would create
separation-of-powers problems. It maintains that the
particularized need standard for all applicants under
Rule 6(e)(3)(E) is “in considerable tension with the
House’s sole power of impeachment,” Appellant’s Br. 49,
and would invite courts to “pass[] judgment on the legal
sufficiency of a particular impeachment theory,” id. at
50. Courts, however, regularly apply the particularized need standard to mitigate such concerns in the impeachment context because the district court need only
decide if the requested grand jury materials are relevant to the impeachment investigation and authorize
disclosure of such materials without commenting on
the propriety of that investigation. See, e.g., Hastings,
833 F.2d at 1446.

16a
In any event, the Department’s contrary interpretation of Rule 6(e) would raise as many separation-ofpowers problems as it might solve. The Department
implies its interpretation of the Rule strengthens the
House by insulating its “sole power of impeachment”
from judicial interference. But it ignores that courts
have historically provided grand jury records to the
House pursuant to Rule 6(e) and that its interpretation
of the Rule would deprive the House of its ability to access such records in future impeachment investigations.
Where the Department is legally barred from handing
over grand jury materials without court authorization,
judicial restraint does not empower Congress; it impedes it.
IV.

The Committee has established a particularized need
for the redacted grand jury materials it seeks. The
party requesting the grand jury information must show
(1) the material “is needed to avoid a possible injustice
in another judicial proceeding,” (2) “the need for disclosure is greater than the need for continued secrecy,” and
(3) the “request is structured to cover only material so
needed.” Douglas Oil Co. of Cal. v. Petrol Stops Nw.,
441 U.S. 211, 222 (1979). The Supreme Court characterizes “[t]he Douglas Oil standard [as] a highly flexible
one, adaptable to different circumstances and sensitive
to the fact that the requirements of secrecy are greater
in some situations than in others.” Sells Eng’g, 463 U.S.
at 445. The Supreme Court has “repeatedly stressed
that wide discretion must be afforded to district court
judges in evaluating whether disclosure is appropriate.”
United States v. John Doe, Inc. I, 481 U.S. 102, 116
(1987). The district court’s determination “is subject

17a
to reversal only if that discretion has been abused.” In
re Sealed Case, 801 F.2d 1379, 1381 (D.C. Cir. 1986).
The district court did not abuse its discretion. Special Counsel Mueller prepared his Report with the expectation that Congress would review it. See Vol. II at
1. The district court released only those materials that
the Special Counsel found sufficiently relevant to discuss or cite in his Report. Moreover, the Department
has already released information in the Report that was
redacted to avoid harm to peripheral third parties and
to ongoing investigations, thereby reducing the need for
continued secrecy. Finally, the Committee’s particularized need for the grand jury materials remains unchanged. The Committee has repeatedly stated that if
the grand jury materials reveal new evidence of impeachable offenses, the Committee may recommend new
articles of impeachment. Appellee’s Supp. Br. 17 (Dec.
23, 2019); Oral Arg. Tr. at 59-60 (Jan. 3, 2020).
A.

The district court concluded that the Committee
needed the redacted grand jury materials to “investigate fully,” to “evaluate the bases for the conclusions
reached by the Special Counsel,” and to “reach a final
determination” about “whether the President committed an impeachable offense” a question “that the Special
Counsel simply left unanswered.” App. for Mueller
Report Grand Jury Materials, 2019 WL 5485221, at *35.
The district court noted several features of the impeachment investigation that made the Committee’s need especially compelling. First, because several individuals
were convicted of making false statements either to
Congress or in connection with the Special Counsel’s investigation, the court found that the grand jury material

18a
at issue “may be helpful in shedding light on inconsistencies or even falsities in the testimony of witnesses
called in the House’s impeachment inquiry.” Id. at *34.
Second, the district court found that other sources of
information—“such as the public version of the Mueller
Report, the other categories of material redacted from
the Mueller Report, congressional testimony and FBI
Form 302 interview reports”—“cannot substitute for
the requested grand jury materials.”
Id. at *36.
Third, of striking significance, it was undisputed that
“the White House has flatly stated that the Administration will not cooperate with congressional requests for
information.” Id. (citing Letter from Pat A. Cipollone,
White House Counsel, to Representative Nancy Pelosi,
Speaker of the House, et al. (Oct. 8, 2019)).
On appeal, the Department contends that a “generalized need” for grand jury materials “to ‘complete the
story’ or ‘investigate fully,’ or simply to double-check
that witnesses are not lying, has never been sufficient.”
Appellant’s Br. 3. The Department asserts that the
district court’s analysis amounts to no more than an observation that the grand jury materials may be relevant
to the Committee’s inquiry, id. at 15, and that the district
court should have conducted a redaction-by-redaction review to determine if the Committee actually needed the
material, Oral Arg. Tr. at 26 (Jan. 3, 2020). Not only
does this ignore the district court’s detailed consideration of the evidentiary obstacles confronting the Special
Counsel’s investigation, App. for Mueller Report Grand
Jury Materials, 2019 WL 5485221, at *37, the showing
of particularized need required in the impeachment context is different. The Douglas Oil standard is “highly
flexible” and “adaptable to different circumstances,”

19a
Sells Engineering, 463 U.S. at 445, and courts have required a line-by-line or witness-by-witness determination only in cases where grand jury materials are needed
in a future trial to impeach or refresh the recollection of
a specific witness. See, e.g., In re Special Grand Jury
89-2, 143 F.3d 565, 568, 571 (10th Cir. 1998); United
States v. Fischbach & Moore, Inc., 776 F.2d 839, 845-46
(9th Cir. 1985).
In the impeachment context, both this court sitting
en banc in Haldeman and the Eleventh Circuit in Hastings concluded that when Congress seeks access to
grand jury materials to assist in an impeachment investigation, district courts hand off all relevant materials to
Congress without micromanaging the evidence. For
example, in In re 1972 Grand Jury Report, Chief Judge
Sirica ordered that the “Grand Jury Report and Recommendation” and accompanying grand jury materials be
delivered to the Committee for use in an impeachment
investigation involving the President. 370 F. Supp. at
1230-31. The Chief Judge reasoned that “[i]t would be
difficult to conceive of a more compelling need than that
of this country for an unswervingly fair inquiry based on
all the pertinent information.” Id. at 1230 (emphasis
added). In making this determination, Chief Judge
Sirica “carefully examined the contents of the Grand
Jury Report” and stated that he was “satisfied that
there can be no question regarding their materiality to
the House Judiciary Committee’s investigation,” without parsing through the materials to determine which
specific witnesses or lines of testimony were relevant to
the Committee’s investigation. Id. at 1221. This court,
in turn, expressed its “general agreement with his handling of these matters.” Haldeman, 501 F.2d at 715.
Similarly, in Hastings, the Eleventh Circuit authorized

20a
the disclosure of all grand jury materials to the Committee to assist in its impeachment investigation of Judge
Hastings because “without full access to the grand jury
materials, the public may not have confidence that the
Congress considered all relevant evidence.” 833 F.2d
at 1445 (emphasis added).
Applying the particularized need standard in this
way in the impeachment context avoids the potentially
problematic second-guessing of Congress’s need for evidence that is relevant to its impeachment inquiry. The
Constitution grants to the House of Representatives the
“sole Power of Impeachment.” U.S. CONST. art. I, § 2,
cl. 5. In an impeachment, the House serves as both the
grand jury and prosecutor; it appoints managers to
prosecute in the Senate the Articles of Impeachment
that were approved by the House of Representatives.
See H. Res. 798, 116th Cong. (2020) (appointing managers for the impeachment trial of President Donald J.
Trump). The courts cannot tell the House how to conduct its impeachment investigation or what lines of inquiry to pursue, or how to prosecute its case before the
Senate, cf. Old Chief v. United States, 519 U.S. 172, 186
(1997), much less dictate how the Senate conducts an impeachment trial, Walter Nixon v. United States, 506
U.S. 224, 230-33 (1993).
B.

Here, the context makes readily apparent that the
need for disclosure is not only greater than the need for
continued secrecy but that the district court findings
confirmed the particularity of the need. The need for
grand jury secrecy is reduced after the grand jury has
concluded its work, but courts still “must consider . . .
the possible effect upon the functioning of future grand

21a
juries” such as the need to encourage “frank and full testimony,” Douglas Oil, 441 U.S. at 222, and the risk that
“persons who are accused but exonerated by the grand
jury” will face “public ridicule,” id. at 219. The district
court concluded upon reviewing in detail the findings in
the Mueller Report that any remaining secrecy interests
in the redacted grand jury materials were readily outweighed by the Committee’s compelling need for the
materials in order to determine whether, or to what extent, links existed between the Russian government’s efforts to interfere in the 2016 United States presidential
election proceedings and individuals associated with
President Trump’s election campaign. App. for Mueller
Report Grand Jury Materials, 2019 WL 5485221, at
*37-38.
Although the need for continued secrecy remains, the
district court reasonably concluded that this need is reduced by the Committee’s adoption of special protocols
to restrict access to the grand jury materials in order to
maintain their secrecy. Id. at *37; see Memorandum
from Chairman Nadler to Members of the Committee on
the Judiciary re Procedures for Handling Grand Jury
Information (July 26, 2019). The Department objects
that the Committee has the discretion to make the grand
jury material public at any time. Appellant’s Br. 45.
But the district court, relying on Chief Judge Sirica’s
analysis, followed a tradition of satisfaction with these
protocols. App. for Mueller Report Grand Jury Materials, 2019 WL 5485221, at *37. As Chief Judge Sirica
explained, such protocols “insure against unnecessary
and inappropriate disclosure,” dismissing concerns about
leaks as “speculation.” In re 1972 Grand Jury Report,
370 F. Supp. at 1230. Here, too, the Department offers
“no basis on which to assume that the Committee’s use

22a
of the [material] will be injudicious.” Id. In fact, history supports the conclusion that such protocols are not
an empty gesture. As the district court noted, “Congress has still not publicly disclosed the entirety of the
Watergate grand jury report that Chief Judge Sirica ordered be given to [the Committee] forty-five years ago,
in 1974.” In re App. of Comm. on Judiciary U.S.
House of Representatives for an Order Authorizing Release of Certain Grand Jury Materials, No. 19-48, 2019
WL 5608827, at *3 (D.D.C. Oct. 29, 2019) (denying stay
pending appeal).
Additionally, the risk of “public ridicule” decreases
where, as here, there is already “widespread public
knowledge about the details of the Special Counsel’s investigation, which paralleled that of the grand jury’s,
and about the charging and declination decisions outlined in the Mueller Report.” App. for Mueller Report
Grand Jury Materials, 2019 WL 5485221, at *37. Cf.
In re Grand Jury Subpoena, Judith Miller, 438 F.3d
1138, 1140 (D.C. Cir. 2006); In re North, 16 F.3d 1234,
1245 (D.C. Cir. 1994). The Report was made available
to the public and the Special Counsel testified about it
in congressional hearings. See, e.g., Former Special
Counsel Robert S. Mueller, III on the Investigation into
Russian Interference in the 2016 Presidential Election:
Hearing Before the H. Perm. Select Comm. on Intelligence, 116th Cong. 49 (July 24, 2019).
Moreover,
the Department recently introduced the grand jury testimony of senior Trump advisor, Steven Bannon, at
Roger Stone’s criminal trial, United States v. Stone, No.
19-cr-00018 (D.D.C. Nov. 8, 2019), publicly disclosing
grand jury materials concerning a player who was interviewed in connection with the Special Counsel’s investigation but not indicted.

23a
It is true that “courts have been reluctant to lift unnecessarily the veil of secrecy.” Douglas Oil, 441 U.S.
at 219. In the impeachment context, courts need to be
especially careful in balancing the House’s needs against
various ongoing secrecy interests inasmuch as courts
lack authority to restrict the House’s use of the materials or withdraw them if improvidently issued or disseminated. In Senate Permanent Subcomm. on Investigations v. Ferrer, 856 F.3d 1080 (D.C. Cir. 2017), this court
suggested that the Speech or Debate Clause bars “ordering a congressional committee to return, destroy, or
refrain from publishing” information already in its possession. Id. at 1086. But a compelling need for the
material and the public interest may necessitate disclosure. See Illinois v. Abbott & Assocs., Inc., 460 U.S.
557, 567 n.15 (1983). Special Counsel Mueller spoke directly to Congress in his Report, see Vol. II at 1, and
stopped short of making any “ultimate conclusions about
the President’s conduct,” id. at 8. The Department has
failed to show in these circumstances that the district
court abused its discretion in agreeing that the Committee had a compelling need to be able to reach a final determination about the President’s conduct described in
the Mueller Report. Along with the “public’s interest
in a diligent and thorough [impeachment] investigation,” these considerations tip the balance toward disclosure. App. for Mueller Report Grand Jury Materials,
2019 WL 5485221, at *38; see In re 1972 Grand Jury Report, 370 F. Supp. at 1227. “Public confidence in a procedure as political and public as impeachment is an important consideration justifying disclosure.”
Hastings, 833 F.2d at 1445.

24a
C.

Furthermore, the Committee’s request was tailored
to its need. Douglas Oil, 441 U.S. at 222. The Committee requested three categories of grand jury materials: (1) all portions of the Mueller Report that were redacted pursuant to Rule 6(e); (2) any portions of grand
jury transcripts or exhibits referenced in those redactions; and (3) any underlying grand jury testimony and
exhibits that relate directly to certain individuals and
events described in the Mueller Report. Additionally,
the Committee proposed a staged disclosure, starting
with the first two categories of materials. App. for
Mueller Report Grand Jury Materials, 2019 WL
5485221, at *33. The district court reasonably granted
this request given the Committee’s compelling need to
be able to make a final determination about the President’s conduct described in the Mueller Report, id. at
*33, 35, 38, and stated that the Committee could file further requests articulating its need for the grand jury
materials in the third category, id. at *33.
The Department’s objections to this limited and
structured disclosure are unpersuasive. First, the Department maintains that the disclosure includes a redaction in Volume II that the Committee conceded it did not
need. Appellant’s Br. 38; District Ct. Hearing Tr. at
37-38 (Oct. 8, 2019). The Committee made this concession without knowing what was underlying the redactions. The district court later reviewed in camera the
grand jury material in Volume II, before authorizing the
release of all grand jury material redacted from and referenced in both volumes of the Mueller Report. As to
the Committee’s need for the material, the court found
that “[t]he grand jury material relied on in Volume II is

25a
indispensable to interpreting the Special Counsel’s evaluation of this evidence and to assessing the implications
of any ‘difficult issues’ for [the Committee’s] inquiry into
obstruction of justice.” App. for Mueller Report Grand
Jury Materials, 2019 WL 5485221, at *35. Given the
nature of the two volumes, the Department offered no
persuasive reasons to conclude that the Committee’s
need for the redacted materials in Volume I was less
compelling than the need demonstrated for Volume II.
The court’s determination, of course, is properly “infused with substantial discretion.” Douglas Oil, 441
U.S. at 223.
Second, the Department maintains that the district
court could not have evaluated whether the requested
material was limited to material relevant to the Committee’s need without conducting an in camera review of
Volume I. Appellant’s Br. 38. The district court reviewed the grand jury material redacted from Volume
II of the Mueller Report but not from Volume I. As a
result, the Department notes that the district court only
examined five of the over 240 redactions in the Mueller
Report. Reply Br. 23-24. Here, it was unnecessary
for the district court to conduct an in camera review of
the Volume I redactions. The Committee’s request for
the grand jury materials in the Mueller Report is directly linked to its need to evaluate the conclusions
reached and not reached by the Special Counsel. In
the Special Counsel Mueller’s own estimation, his Report “contains . . . that information necessary to account for the Special Counsel’s prosecution and declination decisions and to describe the investigation’s main
factual results.” Vol. I at 13. The Committee states
that it needs the unredacted material to review these
findings and make its own independent determination

26a
about the President’s conduct. The district court had
no reason to question the Committee’s representation
because the Mueller Report itself made clear why the
grand jury materials in Volume I were necessary for the
Committee to review and evaluate in exercise of its constitutional duty. Courts must take care not to secondguess the manner in which the House plans to proceed
with its impeachment investigation or interfere with the
House’s sole power of impeachment.
Cf. Walter
Nixon, 506 U.S. at 230-31.
Of course, courts must not simply rubber stamp congressional requests for grand jury materials. In cases
where the connection between the grand jury materials
and the Committee’s impeachment investigation is not
obvious, further inquiry by the district court may be
needed. For instance, Committee counsel could be permitted to review the unredacted grand jury materials in
camera to enable a more detailed explanation of the relevance of particular witnesses, portions of transcripts,
or records. See Oral Arg. Tr. 62-64 (Nov. 18, 2019).
Or the district court, in the exercise of its discretion,
might decide it should review the unredacted materials
in camera, as occurred here at the Department’s suggestion, with respect to Volume II of the Mueller
Report. See Redacted Decl. of Bradley Weinsheimer
¶¶ 5-10 (Sept. 13, 2019).
But here, where the Special Counsel stopped short of
making any “ultimate conclusions about the President’s
conduct,” Mueller Report, Vol. II at 8, in part to avoid
preempting the House’s sole power of impeachment, see
id. at 1, the Committee has established that it cannot
“fairly and diligently” make a final determination about
the conduct described in both volumes of the Mueller

27a
Report “without the grand jury material referenced”
therein. App. for Mueller Report Grand Jury Materials, 2019 WL 5485221, at *35. In affirming the disclosure of “the entire grand jury record” to the Committee,
the Eleventh Circuit similarly observed: “The recommendation of the judicial branch concerning impeachment of Judge Hastings was based on access to the
whole grand jury record, and that same access should
not be denied Congress.” Hastings, 833 F.2d at 1445.
Given the Committee’s tailored request in the instant
case, this court has no occasion to decide whether granting a request for “all” of the redacted grand jury materials would have been an abuse of discretion; that question remains for another day. Here, for reasons explained, the district court did not abuse its discretion by
ordering the disclosure of all portions of the Mueller Report redacted pursuant to Rule 6(e) and any grand jury
transcripts or exhibits referenced in those redactions
without scrutinizing the Committee’s need as to each redaction.
Accordingly, because a Senate impeachment trial
qualifies as a “judicial proceeding” pursuant to Rule 6(e)
and the Committee has established a particularized
need for the requested portions of grand jury materials,
the district court’s Order is affirmed. The distinction
that our dissenting colleague reads into the district
court’s Order between authorizing and ordering release
is not raised by either party and rests on a flawed premise. See Dissenting Op. at 1-3 (Rao, J.). Our colleague
assumes that the House of Representatives is seeking
compulsory judicial action against the Executive Branch.
Because the Department of Justice is simply the custodian of the grand jury materials at issue however, the

28a
instant case is unlike inter-branch disputes where Congress issued subpoenas and directed Executive Branch
officials to testify and produce their relevant documents.
See generally Comm. on the Judiciary v. McGahn, 2019
WL 6312011 (D.D.C. Nov. 25, 2019); Comm. on the Judiciary v. Miers, 558 F. Supp. 2d 53 (D.D.C. 2008).

29a
GRIFFITH, Circuit Judge, concurring: I join the
opinion for the court, but I write separately to address
the dissent’s argument that the district court lacked jurisdiction to compel disclosure of grand jury materials
under Committee on the Judiciary v. McGahn, No.
19-5331 (D.C. Cir. Feb. 28, 2020). Unlike McGahn, this
case does not involve a suit between the political branches
over executive-branch documents or testimony. Instead,
it involves an application for access to records of the
grand jury, whose disclosure the district court has traditionally controlled.
As the dissent acknowledges, grand jury records do
not belong to the Executive Branch. See Dissent at 28;
see also Majority at 9-10; In re Grand Jury Investigation of Cuisinarts, Inc., 665 F.2d 24, 31 & n.10 (2d Cir.
1981). Regardless of whether grand jury materials are
“judicial records,” see Dissent at 27-28, they do not become executive records simply because the Department
of Justice stores them in file cabinets after the grand
jury completes its investigation.
The Department
holds these records subject to the ongoing supervision
of the district court. Accordingly, Rule 6(e) bars the
Department from disclosing these records to Congress
without court approval. See FED. R. CRIM. P. 6(e)(2)(B)(vi);
see also J.A. 448 (letter from the Attorney General stating that he “d[id] not believe that [he] ha[d] discretion
to disclose grand-jury information to Congress”). Federal courts, including courts in our own circuit, have approved the disclosure of grand jury materials to the
House of Representatives in seven prior impeachment
proceedings. See Majority at 13-14. Congressional applications for access to grand jury materials have thus

30a
traditionally been thought capable of (and indeed to require) judicial resolution. Cf. Raines v. Byrd, 521 U.S.
811, 819 (1997).
The dissent insists that “possession” is the “dispositive factor” in our jurisdictional analysis: When the
court holds the grand jury materials, it may hand them
over; when it does not, it may not compel the Department to do so. Dissent at 20-23. This argument elevates form over substance. I do not take the dissent to
dispute that the district court could have ordered the
Department to deliver the grand jury materials for in
camera review. Indeed, to assess particularized need,
“[d]istrict courts are often required to conduct an in
camera review of grand jury material requested under
[Rule 6(e)’s judicial-proceeding exception].”
In re
Sealed Case No. 98-3077, 151 F.3d 1059, 1074 (D.C. Cir.
1998). Had the court done so, it would have taken possession of the requested materials and could have provided them directly to the Committee, instead of ordering the Department to hand them over. See Haldeman
v. Sirica, 501 F.2d 714, 715 (D.C. Cir. 1974) (en banc)
(approving such a direct transfer); Dissent at 20-23 (recognizing that courts have provided grand jury materials
to Congress when they possessed them). If the district
court may do that, why can’t it cut itself out as the intermediary?
I understand the dissent’s concern that ordering the
Executive Branch to provide grand jury records to Congress could make us a tool of the House in the exercise
of its “sole power of impeachment.” Dissent at 34-39.
The Judiciary’s proper place in an impeachment fight is
typically on the sidelines. See Nixon v. United States,
506 U.S. 224, 228-36 (1993). But, as gatekeepers of

31a
grand jury information, we cannot sit this one out. The
House isn’t seeking our help in eliciting executivebranch testimony or documents. Instead, it’s seeking
access to grand jury records whose disclosure the district court, by both tradition and law, controls.
In an effort to bring this dispute under McGahn, the
dissent creates a novel distinction between authorization and compulsion on which its analysis turns. But
that distinction is difficult to square with our precedent
and the district court’s longstanding supervisory power
over the grand jury. Our circuit has never distinguished
between authorization and compulsion under Rule 6(e).
To the contrary, we’ve said that “[w]hen the court authorizes . . . disclosure [of grand jury records], it does
so by ordering an attorney for the government who
holds the records to disclose the materials.” McKeever
v. Barr, 920 F.3d 842, 848 (D.C. Cir. 2019) (emphases
added) (internal quotation marks omitted); see also In
re Grand Jury, 490 F.3d 978, 986 (D.C. Cir. 2007) (“The
federal courts have the authority under Rule 6(e)(3)(E)(i)
to order disclosure to grand jury witnesses of their own
transcripts.” (emphasis added)). The text of Rule
6(e) also suggests that courts may order the Department to transfer certain grand jury materials to another
entity. Rule 6(e)(1) provides that “[u]nless the court
orders otherwise, an attorney for the government will
retain control of . . . any transcript [of the grand
jury].” As the Department explained at oral argument, “it just doesn’t seem like a plausible reading of
Rule 6(e) that the District Court could authorize [disclosure] but that the Department of Justice would then say
well, we don’t want to turn over [the] information.”
Oral Arg. Tr. 7:20-23.

32a
All that aside, the dissent’s distinction between authorization and compulsion strikes me as untenable on
its own terms. In the dissent’s view, although “[a]uthorization of disclosure is part of the district court’s supervisory power” over the grand jury, compulsion is not.
Dissent at 1-2. The dissent explains this distinction by
arguing that the court’s “supervisory power is strictly
limited to actions taken . . . in aid of the grand jury”
and that compelling disclosure aids third parties rather
than the grand jury. Id. at 2. But merely authorizing
disclosure also aids third parties rather than the grand
jury. The dissent therefore cannot explain why the
district court has power to permit disclosure in the first
place. Taken to its logical conclusion, the dissent’s theory would seem to require outright dismissal of this
case—a result that the dissent agrees is contrary to history and precedent. See id. at 3-5; see also Majority at
10-14.
More broadly, I’m skeptical of the claim that the district court’s supervisory authority never extends to aiding third parties. As the dissent concedes, the district
court may issue compulsory process in the form of contempt orders and grand jury subpoenas. Dissent at 1617. But when the court holds someone in contempt for
breaching the grand jury’s secrecy, it often aids not only
the grand jury but also a third party whose private papers or statements have been unveiled. Moreover, the
district court’s local rules allow the court “on its own motion” to “ma[ke] public” grand jury materials “upon a
finding that continued secrecy is not necessary to prevent disclosure of matters occurring before the grand
jury.” D.D.C. LOCAL CRIM. R. 6.1; see also In re Motions of Dow Jones & Co., 142 F.3d 496, 504 (D.C. Cir.

33a
1998). Under this rule, the district court could presumably compel the Department to make such materials
available to the public. All this suggests that compulsory process—even for the benefit of third parties—falls
within the district court’s traditional supervisory power.
Finally, although I agree with the dissent that we
have an independent obligation to assure ourselves of
our jurisdiction, we need not chase jurisdictional phantoms. The relationship between the grand jury and Article III courts is, to put it mildly, “very under-theorized,”
Oral Arg. Tr. 5:21 (counsel for the Department); see also
id. 62:24-63:17 (counsel for the Committee), and neither
party has advanced the dissent’s novel theory of that relationship. Given the district court’s traditional supervisory power over the grand jury and the fact that grand
jury records do not belong to the Executive Branch, I am
satisfied that the court had jurisdiction to compel disclosure.

34a
RAO, Circuit Judge, dissenting: The district court in
this case took two distinct actions: first, it authorized
disclosure of grand jury materials to the House Committee on the Judiciary, and second, it ordered the Department of Justice to release those materials to the Committee. The majority affirms both orders and treats
them essentially as a single action pursuant to the district court’s supervisory power over grand juries, and
therefore outside the boundaries of Article III. Yet
there are important distinctions between these two actions. While I agree that the court may authorize release under Federal Rule of Criminal Procedure 6(e), a
judicial order compelling action by the executive branch
has always been treated as an exercise of the Article III
power.
The majority dismisses the Article III inquiry because grand jury records are different and outside the
traditional constitutional boundaries. It is true that
the grand jury exists separate from the three departments of the federal government and that in aiding the
grand jury the courts may exercise limited non-Article
III powers. Yet the ancient institution of the grand
jury does not eviscerate the constitutional limits between the coordinate branches of the federal government. While the courts and the executive branch each
have a distinct relationship to the grand jury and Rule
6(e) gives both branches shared responsibility for maintaining grand jury secrecy, the grand jury context does
not change the powers of the judiciary in relation to the
executive branch or to Congress. Thus, a court may
compel action by the executive branch to release grand
jury records only when a proper litigant meets the requirements of Article III.

35a
As an initial matter, I agree with the majority that at
the time of its order, the district court did not abuse its
discretion in authorizing disclosure of the grand jury
materials. An impeachment investigation is “preliminar[y] to or in connection with a judicial proceeding.”
FED. R. CRIM. P. 6(e)(3)(E)(i). Authorization of disclosure is part of the district court’s supervisory power and
does not require Article III jurisdiction. Yet in the
months following the Committee’s initial petition, the
House passed two articles of impeachment and the Senate conducted an impeachment trial and voted to acquit
President Donald J. Trump. In light of these circumstances, I would remand to the district court to consider
in the first instance whether the Committee can continue to demonstrate that its inquiry is preliminary to
an impeachment proceeding and that it has a “particularized need” for disclosure of the grand jury records.
Separate from authorization, ordering DOJ to turn
over the grand jury documents is an exercise of the Article III judicial power for which the Committee must
have standing. The majority and the concurrence fail
to identify a single case in which a court has compelled
disclosure of grand jury materials to a party without
standing. Waving the banner of grand jury tradition is
not enough to overcome the fundamental principle of
separation of powers that a court may order action by
the executive branch only at the behest of a party with
standing. The constitutional requirements of Article
III standing do not disappear when a party seeks grand
jury materials. The district court’s non-Article III supervisory power is strictly limited to actions taken by
courts in aid of the grand jury. Nothing in Rule 6(e)
nor the district court’s supervisory power changes the

36a
constitutional limits on the court’s authority with respect to third parties who are not part of the grand jury
process. Therefore, the Committee must have standing to obtain a judicial order compelling the Department
to produce grand jury materials.
The Committee, however, lacks standing in this case.
Under Article III, as confirmed by Raines v. Byrd,
521 U.S. 811 (1997), and our recent decision in Committee on the Judiciary of the U.S. House of Representatives v. McGahn, 2020 WL 1125837 (D.C. Cir. Feb. 28,
2020), the Committee has no standing to enforce directly
its subpoena to DOJ for grand jury materials. 1 The
reasoning of McGahn means that the Committee also
lacks standing to seek a compulsory order in a Rule 6(e)
proceeding—such relief presents an interbranch dispute not traditionally cognizable by the judiciary. Although McGahn leaves open the possibility that a statute may create legislative standing, Rule 6(e) does not
do so here. The Rule merely permits courts to authorize disclosure. It vests no right in third parties to obtain such authorization, much less a right to compulsory
process to receive grand jury materials. Rule 6(e) thus
provides no basis for the informational injury claimed by
the Committee and cannot provide the prerequisites to
the exercise of the Article III judicial power. Because

The House Judiciary Committee’s subpoena to Attorney General
William P. Barr, dated April 18, 2019, seeks “[t]he complete and unredacted version” of Special Counsel Robert S. Mueller III’s Report
On The Investigation Into Russian Interference In The 2016 Presidential Election (“Mueller Report”), “[a]ll documents referenced in
the Report,” and “[a]ll documents obtained and investigative materials created by the Special Counsel’s Office.” See J.A. 190-97.
1

37a
the Committee lacks standing, I would vacate the district court’s order compelling DOJ to disclose the grand
jury materials. I respectfully dissent.
I.
The primary question addressed by the majority concerns whether the district court could authorize disclosure to the Committee. On this point, I agree with the
majority that the Committee’s petition could fit within
Rule 6(e)’s “judicial proceeding” exception because it
sought the grand jury materials preliminary to a possible Senate impeachment trial, which has always been
understood as an exercise of judicial power. The Constitution vests the Senate with the “sole Power to try all
Impeachments.” U.S. CONST. art. I, § 3, cl. 6. The
Framers understood this clause to vest in the Senate a
“distinct” non-legislative power to act in a “judicial character as a court for the trial of impeachments.” The
Federalist No. 65, at 337 (Alexander Hamilton) (George
W. Carey & James McClellan eds., 2001); see also Hayburn’s Case, 2 U.S. (2 Dall.) 408, 410 (1792) (“[N]o judicial power of any kind appears to be vested [in Congress], but the important one relative to impeachments.”);
Trump v. Mazars USA, LLP, 940 F.3d 710, 755 (D.C.
Cir. 2019) (Rao, J., dissenting) (“[T]he Constitution confers upon the House and Senate limited judicial powers
over impeachable officials.”), cert. granted, 140 S. Ct.
660 (2019).
The Supreme Court has consistently recognized the
Senate as a court of impeachment parallel to the federal
courts. For example, in Mississippi v. Johnson, the
Court noted that it was without authority to restrain the
Senate in the conduct of an impeachment trial because
the Senate was sitting “as a court of impeachment” and

38a
“this court [cannot] arrest proceedings in that court.”
71 U.S. 475, 500-01 (1866); see also Kilbourn v. Thompson, 103 U.S. 168, 191 (1880) (“The Senate also exercises
the judicial power of trying impeachments.”). Similarly, we have stated that doctrines ordering the relations between “state or coordinate federal court[s]” apply to the Senate when it “sits as the constitutionallydesignated court of impeachment.” Hastings v. United
States Senate, 887 F.2d 332, 1989 WL 122685, at *1 (D.C.
Cir. Oct. 18, 1989) (unpublished). The text of the Impeachment Trial Clause and its consistent interpretation confirm that when sitting for an impeachment trial,
the Senate is a court and the trial a “judicial proceeding.”
At the time of its decision, the district court did not
abuse its discretion in concluding that the Committee
had shown a “particularized need” for the grand jury
materials. As the majority notes, the particularized
need inquiry is a “highly flexible one” that is “adaptable
to different circumstances.” Maj. Op. 16 (quoting United
States v. Sells Eng’g, Inc., 463 U.S. 418, 445 (1983)). Impeachment is one such circumstance to which the standards for particularized need must be uniquely adapted.
Cf. In re Request for Access to Grand Jury Materials
Grand Jury No. 81-1, Miami, 833 F.2d 1438, 1444 (11th
Cir. 1987) (“Hastings”) (“[A]pplying the requirements
of rule 6(e) in this context, we hold, taking into account
the doctrine of separation of powers, that a merely generalized assertion of secrecy in grand jury materials
must yield to a demonstrated, specific need for evidence
in a pending impeachment investigation.”).
Although I agree that the authorization of disclosure
was within the district court’s discretion at the time it

39a
issued its decision, the district court’s analysis was
highly fact-bound. Rule 6(e)’s “preliminarily to or in
connection with a judicial proceeding” exception to grand
jury secrecy required the district court to find that the
“primary purpose” of the Committee’s inquiry was impeachment. See United States v. Baggot, 463 U.S. 476,
480 (1983). In analyzing that issue, the district court considered various actions and statements by legislators
and legislative committees and concluded that the purpose of the Committee’s investigation and its request for
the grand jury materials was to “determine whether to
recommend articles of impeachment.” See In re Application of Comm. on Judiciary, U.S. House of Representatives, for an Order Authorizing Release of Certain
Grand Jury Materials, 414 F. Supp. 3d 129, 149 (D.D.C.
2019).
Much has happened since the district court authorized disclosure in October. The House Judiciary Committee conducted an impeachment investigation, subpoenaed materials, and heard from witnesses. The
House voted in favor of two articles of impeachment
against President Trump. The Senate then conducted
an impeachment trial in which it considered the House’s
evidence, determined that no further evidence was
needed, and entered a judgment of acquittal.
In light of these developments, remand is necessary
for the district court to address whether authorization is
still warranted. A similar analysis of the Committee’s
application today requires ascertaining whether such investigations are ongoing and, if so, whether their “primary purpose” is to obtain the grand jury materials for
impeachment. The Committee’s request must fit within one of the Rule 6(e) exceptions and the only exception

40a
claimed by the Committee is that impeachment is a “judicial proceeding.” Legislative oversight, for example,
would not fit within this exception. If impeachment is
no longer the primary purpose of the Committee’s application, the court could not authorize disclosure because
the grand jury records would not be sought “preliminarily to or in connection with” an impeachment trial or inquiry. FED. R. CRIM. P. 6(e)(3)(E)(i).
Similarly, remand is necessary for the district court
to consider whether the Committee continues to have a
particularized need for the requested grand jury materials, or whether the intervening developments have abrogated or lessened the Committee’s need for these records. Once again, this requires a fact-intensive inquiry.
In re Sealed Case, 801 F.2d 1379, 1381 (D.C. Cir. 1986)
(“[A] district court [considering a Rule 6(e) application]
must ‘weigh carefully the competing interests in light of
the relevant circumstances and standards.’ ” (quoting
Sells Eng’g, 463 U.S. at 443)). In order to assess the
Committee’s ongoing need for these materials, additional factual information is needed regarding the status
of the Committee’s investigations. The majority relies
on assertions made in briefs filed by the Committee before the impeachment trial. Maj. Op. 16-18. This generalized interest standing alone does not speak to the
fact-bound inquiry regarding the ongoing purpose and
need for the materials. Remand is thus necessary for
the district court to weigh the public interest in disclosure against the need to preserve grand jury secrecy in
these changed circumstances. See In re Sealed Case,
801 F.2d at 1381. Because authorization of disclosure
rests with the sound discretion of the district court, we
should not exercise such discretion in the first instance.

41a
* * *
A reasonable observer might wonder why we are deciding this case at this time. After all, the Committee
sought these materials preliminary to an impeachment
proceeding and the Senate impeachment trial has concluded. Why is this controversy not moot? The majority simply turns a blind eye to these very public
events and the parties have not submitted any additional
briefs; however, a few observations are worth noting.
Mootness is a constitutional doctrine following from the
Article III requirement that courts decide only live
cases and controversies. See Conservation Force, Inc.
v. Jewell, 733 F.3d 1200, 1204 (D.C. Cir. 2013). Mootness, however, does not impact the district court’s authorization of disclosure because authorization is a discretionary action under Rule 6(e)—it is part of the nonArticle III supervisory power of the court over the grand
jury. With that said, while mootness per se does not
apply, the changed circumstances require remand for
the reasons already stated. As to the order compelling
DOJ to release the records, Article III limitations apply,
as explained below. Yet because I conclude that the Committee lacks standing for compulsory process, mootness
is irrelevant: The district court lacked jurisdiction at
the outset to compel DOJ to release the grand jury materials.
II.
The constitutional problem presented by this case
pertains not to authorization of disclosure, but to the
separate question of whether the district court had jurisdiction to compel DOJ to release the grand jury materials to the Committee. In the months leading up to
the House’s formal initiation of an impeachment inquiry,

42a
the Judiciary Committee issued a subpoena to the Department of Justice for the grand jury materials relating to Special Counsel Robert S. Mueller III’s investigation. U.S. Dep’t of Justice, Order No. 3915-2017, Appointment of Special Counsel to Investigate Russian Interference with the 2016 Presidential Election and Related Matters (May 17, 2017); see also J.A. 190-97 (House
Judiciary Committee Subpoena to Attorney General
William P. Barr (Apr. 18, 2019)). When the Department refused to comply and cited Rule 6(e) as an impediment to any release, the Committee sought authorization from the district court for the release of the materials. Notably, in its petition to the district court, the
Committee sought only authorization of disclosure; it
did not ask the court to compel DOJ to release the documents. J.A. 139-40. The district court authorized
disclosure, but then went beyond the relief requested by
the Committee and ordered the Department to turn over
the materials. The Committee seeks to defend that order on appeal.
The Committee’s Rule 6(e) application thus replaced
legislative process (the Committee’s subpoena) with judicial process (the district court’s order compelling the
Department to turn over the grand jury materials to the
House). We have already held that the Committee
lacks standing to use the courts to enforce its subpoenas
against the executive branch. See McGahn, 2020 WL
1125837, at *16. Both the Department and the Committee maintain, however, that Rule 6(e) fundamentally
changes the analysis in this case. They assert that the
district court’s order was an exercise of the supervisory
power over the grand jury, such that the traditional Article III requirements of justiciability do not apply.
That position, however, reads too much into Rule 6(e)

43a
and the district court’s traditional supervisory authority.
The crux of my analysis turns on fundamental principles of separation of powers. First, the mere fact that
this case involves a request for grand jury materials
does not alter the basic constitutional requirement that
a court order directing the executive branch to produce
documents to a third party is an exercise of the Article
III power. Here, DOJ has possession of the grand jury
records under the terms of Rule 6(e)(1). 2 If DOJ declines to disclose the documents, a court may not grant
a judicial order to disclose unless the Committee has
standing. Second, nothing in Rule 6(e) changes this
basic requirement and permits the district court to order disclosure of grand jury materials to a third party
that fails to meet the requirements of standing. Finally, although district courts exercise some supervisory authority to aid the grand jury with its core functions, such authority traditionally has not extended to
ordering the executive branch to release grand jury materials to third parties in general, nor to Congress in
particular.
The majority’s entire jurisdictional argument rests
on the fact that the question “[was] not raised by either
Both the Committee and DOJ characterize the requested documents as grand jury materials or papers. See, e.g., DOJ Br. 1;
Comm. Br. 1. It might fairly be questioned, however, whether the
Mueller Report is in fact a grand jury document, as it was prepared
by Robert Mueller in his role as the Special Counsel, serving within
the Department of Justice. Thus, the Report might be considered
executive branch papers, to which additional protections might attach. DOJ has not raised this argument, however, so I consider
all the papers as being encompassed within the umbrella request
for grand jury materials.
2

44a
party.” Maj. Op. 26; see also Concurring Op. 4 (“[N]either party has advanced the dissent’s novel theory of
that relationship.”). Yet DOJ in fact distinguishes between authorizing and ordering disclosure when it asserts that ordering disclosure is an exercise of Article
III power, but authorization of disclosure is not. See
DOJ Supp. Br. 3-6. In any event, we have an independent obligation to ensure jurisdiction before exercising
the judicial power. Here, the district court’s order to
DOJ for disclosure of the grand jury materials required
an exercise of Article III power, because nothing in the
grand jury context alters the court’s power in relation to
the executive branch. Suspending the standing requirements of Article III in this context would constitute an exception to justiciability not supported by the
Constitution, Rule 6(e), or the general supervisory
power over grand juries.
A.
The Committee and the Department argue that the
district court’s order does not implicate Article III because it was entered pursuant to the court’s supervisory
power over grand juries. It is true as a general matter
that the supervisory power does not implicate “the essential attributes of the judicial power.” United States
v. Seals, 130 F.3d 451, 457 (D.C. Cir. 1997) (citation and
quotation marks omitted). But the supervisory power
“is a circumscribed one,” id., that cannot be extended by
federal courts in a manner that transgresses constitutional or statutory limits, see Bank of Nova Scotia v.
United States, 487 U.S. 250, 254-55 (1988) (“[E]ven a
sensible and efficient use of the supervisory power
. . . is invalid if it conflicts with constitutional or statutory provisions.” (quotation marks omitted)). In

45a
United States v. Williams, the Court distinguished the
limited supervisory power over the grand jury from the
Article III power, and held that district courts cannot
invoke the supervisory authority to take major actions
“on their own initiative,” or to “alter[] the traditional relationships between the prosecutor, the constituting
court, and the grand jury itself.” 504 U.S. 36, 50 (1992).
The district court’s supervisory power cannot override constitutional requirements with respect to parties
outside the grand jury process. 3 A judicial order compelling a party to take an action, be it a mandatory injunction, writ of mandamus, or other similar form of
compulsory relief has always been understood as an exercise of the Article III judicial power. See, e.g., Georgia v. Stanton, 73 U.S. 50, 75-76 (1867) (“[I]n order to
entitle the party to the [injunctive] remedy, a case must
be presented appropriate for the exercise of judicial
power.”). A court may therefore issue compulsory orders only at the behest of a party with Article III standing. See Summers v. Earth Island Inst., 555 U.S. 488,
493 (2009) (“To seek injunctive relief, a plaintiff must
show that he is under threat of suffering ‘injury in fact’
that is concrete and particularized.”).
The judicial power is particularly implicated when a
court issues a compulsory order to the executive branch.
See Kendall v. United States ex rel. Stokes, 37 U.S. 524,

As discussed in greater depth below, the courts have a limited
ability to issue compulsory process to aid and protect grand jury investigations as part of their traditional supervisory capacity. This
limited non-Article III power has never extended to issuing compulsory orders for the benefit of third parties, such as the Committee,
who are external to the grand jury process. See infra 13-19.
3

46a
618 (1838) (“[T]he authority to issue the writ of mandamus to an officer of the United States, commanding him
to perform a specific act, required by a law of the United
States, is within the scope of the judicial powers of the
United States.”). A court may direct the executive
branch only when exercising its Article III powers. As
the Court held in Schlesinger v. Reservists Committee
to Stop the War, a plaintiff must present more than
“generalized grievances” to “seek to have the Judicial
Branch compel the Executive Branch to act in conformity” with constitutional provisions. 418 U.S. 208, 217
(1974). The Court emphasized the interrelation of
standing and separation of powers and explained that
ruling on constitutional issues “in the abstract” would
“open the Judiciary to an arguable charge of providing
‘government by injunction.’ ” Id. at 222.
The courts may interfere with the actions of a coequal branch only when deciding a justiciable case or
controversy. Consistent with these basic principles,
during the course of these impeachment investigations,
House Committees have not disputed that standing is
required to enforce legislative subpoenas directed to the
executive branch. Indeed, standing has been the key
issue in recent congressional attempts to seek judicial
enforcement of congressional subpoenas. 4
B.
Despite these fundamental constitutional requirements, the Committee maintains it is “counterintuitive”
See McGahn, 2020 WL 1125837; Blumenthal v. Trump, 949 F.3d
14 (D.C. Cir. 2020); Maloney v. Murphy, No. 18-5305 (D.C. Cir. filed
Aug. 14, 2019); U.S. House of Reps. v. Mnuchin, et. al., No. 19-5176
(D.C. Cir. filed June 14, 2019).
4

47a
to consider the requirements of Article III in the context
of an application for grand jury materials because the
district court may authorize disclosure under Rule 6(e)
and the court’s supervisory power over the grand jury
exists separate and apart from Article III. Comm.
Supp. Br. 8-9. Intuitions aside, nothing in the text or
structure of Rule 6(e) permits district courts to order
disclosure of grand jury materials when a party does not
otherwise have standing for such relief. Nor does the
district court’s residual supervisory authority extend to
issuing compulsory process to the executive branch on
behalf of third parties, rather than on behalf of the
grand jury. While courts exercise some limited nonArticle III powers when supervising the grand jury, the
grand jury context does not allow the courts to suspend
Article III when compelling action by the executive
branch.
1.
Rule 6(e) does not alter the separation of powers by
permitting a court to order disclosure by the executive
branch absent standing by a third party. The Federal
Rules of Criminal Procedure have the force and effect of
law, and as the Court has explained, we interpret Rule
6(e) the same way we would a statute: by looking first
to “the Rule’s plain language.” United States v. John
Doe, Inc. I, 481 U.S. 102, 109 (1987); see also United
States v. Petri, 731 F.3d 833, 839 (9th Cir. 2013). As in
all cases of statutory interpretation, we must “accept
[Rule 6(e)] as meaning what it says.” John Doe, Inc.,
481 U.S. at 109 (quotation marks omitted). Under the
plain text of Rule 6(e), a supervising court “may authorize disclosure” of grand jury materials under limited circumstances. FED. R. CRIM. P. 6(e)(3)(E).

48a
Rule 6(e) codifies and reinforces the requirements of
grand jury secrecy, subject only to certain enumerated
exceptions. We have recently explained that the list of
exceptions is exclusive and that the district court has no
“inherent authority” to order disclosure outside of the
circumstances provided for in the Rule. See McKeever
v. Barr, 920 F.3d 842, 846 (D.C. Cir. 2019), cert. denied,
No. 19-307, 2020 WL 283746 (Jan. 21, 2020). Very few
third parties will fit within these circumscribed exemptions, which do not include, for example, any provisions
for Congress, members of the public, historians, or the
media. As we have explained, “[t]he rule makes quite
clear that disclosure of matters occurring before the
grand jury is the exception and not the rule.” Fund for
Constitutional Gov’t v. Nat’l Archives & Records Serv.,
656 F.2d 856, 868 (D.C. Cir. 1981); see also United States
v. Rutherford, 509 F.3d 791, 795 (6th Cir. 2007) (explaining that Rule 6(e)(2)(B) is a powerful “prohibitory rule
that prevents the government from disclosing grand
jury matters except in limited circumstances”). The
Supreme Court has explained the Rule “ensure[s] the
integrity of the grand jury’s functions” by “placing strict
controls on disclosure.” Williams, 504 U.S. at 46 & n.6.
The text of the Rule’s “judicial proceeding” exception,
which specifies a precise “kind of need that must be
shown” to justify disclosure, “reflects a judgment that
not every beneficial purpose, or even every valid governmental purpose, is an appropriate reason for breaching
grand jury secrecy.” Baggot, 463 U.S. at 480.
The text and structure of Rule 6(e) demonstrate that
it does not create any distinct authority for compulsory
process against the executive branch. The fact that the
court “may authorize disclosure” suggests that the court

49a
cannot release the materials itself. It may only authorize others to do so, presumably the government attorneys who by default “retain control” of the grand jury
materials. FED. R. CRIM. P. 6(e)(1). The plain meaning of “authorize” is to “give official permission for” or
to “approve” or “sanction,” not to compel or require.
Authorize, Oxford English Dictionary (3d ed. 2014); see
also Authorize, Webster’s New International Dictionary of the English Language (2d ed. 1941) (“To give authoritative permission to or for; to empower; warrant.”).
Notably, the Rule does not confer any right to disclosure, but rather leaves disclosure to the discretion of the
district court. See infra 31-34. Thus, under Rule 6(e),
authorizing disclosure does not include compulsion, but
rather refers to lifting grand jury secrecy so that the
executive branch attorney may disclose the materials.
Moreover, the Rule confers substantial authority on
the government attorneys, not only in serving as custodian over grand jury materials, but in many instances
allowing government attorneys to disclose without court
permission. See FED. R. CRIM. P. 6(e)(3)(A), (C), (D).
Even for those disclosures that must be authorized by
the court, three of the five circumstances require the request for disclosure to be made by the government.
FED. R. CRIM. P. 6(e)(3)(E)(iii)-(v). When a person petitions for disclosure of a grand jury matter, notice must
be given to an attorney for the government. FED. R.
CRIM. P. 6(e)(3)(F).
The government attorneys and the district court together play a gatekeeping and supervisory role over
grand jury materials. Both the prosecutor and the district court have an institutional relationship to the grand
jury; yet the Rule does not change other constitutional

50a
arrangements between the courts and the Executive.
Nothing in Rule 6(e) suggests that the court may compel
government attorneys to disclose grand jury materials
to third parties who do not meet Article III requirements. To the contrary, Rule 6(e) establishes a balance,
requiring the agreement of both the courts and the government lawyers for disclosure in most instances.
The majority’s position, however, entrusts grand
jury secrecy exclusively to the courts—allowing the district court not only to authorize, but to compel release.
Maj. Op. 26. By contrast, DOJ’s position that impeachment does not fit within the “judicial proceeding” exception would leave grand jury secrecy solely to the Executive in this political context. The grand jury, however,
is not an appendage of any one branch. Rule 6(e) should
not be read to upend longstanding principles of separation of powers, nor to create supremacy of either the
courts or the executive branch over the grand jury.
See United States v. Chanen, 549 F.2d 1306, 1313 (9th
Cir. 1977) (“[G]iven the constitutionally-based independence of each of the three actors—court, prosecutor and
grand jury—we believe a court may not exercise its ‘supervisory power’ in a way which encroaches on the prerogatives of the other two unless there is a clear basis in
fact and law for doing so. If the district courts were
not required to meet such a standard, their ‘supervisory
power’ could readily prove subversive of the doctrine of
separation of powers.”).
2.
Rule 6(e) codifies some aspects of grand jury practice
and secrecy but does not cover every aspect of the district court’s supervisory power. Thus, whether a district court’s non-Article III power extends to issuing a

51a
compulsory order to the executive branch for the benefit
of third parties must also be considered against the historical background of the supervisory power. Even
though our circuit does not recognize any “inherent”
power in the district court over grand jury disclosure,
see McKeever, 920 F.3d at 849, some supervisory powers
exist alongside Rule 6(e). For example, because a
grand jury does not have the power to compel witness
testimony, it may rely on the supervising court to issue
and enforce compulsory process to aid the grand jury’s
investigative function. Seals, 130 F.3d at 457. Additionally, a court has the power to protect the integrity of
grand jury proceedings by issuing contempt sanctions
to attorneys who violate grand jury secrecy. See In re
Sealed Case No. 98-3077, 151 F.3d 1059, 1070 (D.C. Cir.
1998). Even though such exercises of power by the district court go beyond the strictly administrative, they
are closely connected to aiding the grand jury in the exercise of its core functions. Compulsory process ordered on behalf of and at the request of the grand jury
is not an exercise of the Article III power, but instead
part of the court’s supervisory function over the grand
jury. Judicial assistance in these limited circumstances
requires no jurisdiction or standing by the grand jury—
because the authority for such process inheres in the
limited relationship between the grand jury and judiciary.
By contrast, third parties who seek grand jury information stand outside of the historic relationship between the grand jury and the court. As discussed below, there is no longstanding tradition of courts ordering
disclosure of grand jury materials to third parties. See
infra 33-35. When third parties seek the disclosure of
such presumptively secret information, they cannot rely

52a
on the court’s supervisory authority because such authority extends only to aiding the grand jury. For instance, we have drawn a sharp distinction between grand
jury witnesses, who are part of the grand jury process,
and third parties, who are not. See In re Grand Jury,
490 F.3d 978, 988 (D.C. Cir. 2007) (“Preventing a third
party from reviewing a witness’s grand jury testimony
is essential to guarantee secrecy to witnesses; preventing the witness from reviewing the witness’s own testimony is entirely unnecessary to guarantee secrecy to
witnesses.”); United States v. Moussaoui, 483 F.3d 220,
237 (4th Cir. 2007) (“We are certainly unaware of any
long unquestioned power of federal district courts to order the Government to disclose non-public materials
given to the defense in a criminal trial to third-party civil
plaintiffs involved in litigation in another jurisdiction.”
(internal citation and quotation marks omitted)). Even
the prosecutor, who may issue subpoenas on behalf of
the grand jury, must ground his authority in the “grand
jury investigation, not the prosecutor’s own inquiry” because “[f]ederal prosecutors have no authority to issue
grand jury subpoenas independent of the grand jury.”
Lopez v. Dep’t of Justice, 393 F.3d 1345, 1349-50 (D.C.
Cir. 2005).
Only the grand jury and those who are part of the
grand jury process—not a third party—may petition a
court for compulsory process pursuant to the court’s
limited supervisory power. 5 The supervisory power of
The concurring opinion suggests this argument somehow prevents authorization of disclosure, Concurring Op. 3; however, Rule
6(e) specifically allows district courts to authorize disclosure by government attorneys. See supra Part I. By contrast, neither the Rule
nor the traditional supervisory power suggest the court may compel
5

53a
the district court exists to serve the functions of the
grand jury, but the district court cannot use that power
to evade the requirements of Article III or to expand
judicial authority over the executive branch. 6 See Chanen,
549 F.2d at 1313 n.5 (admonishing against adopting a
view of “judicial supervisory powers [over the grand
jury] so broad in scope as to risk serious impairment of
the constitutionally-based independence of the Executive, i. e., the prosecutor, when acting within his own
sphere”).
C.
This is not the first time Congress has sought grand
jury information in connection with an impeachment proceeding. The handful of historical examples demonstrate
that Congress has received grand jury materials; however, courts have not compelled disclosure of materials
from the executive branch. Since the enactment of Rule
6(e), courts analyzing congressional requests for grand
jury materials have been careful to authorize rather
than compel disclosure and have recognized the separation of powers concerns present in such cases.

disclosure by the executive branch, and the concurrence offers not a
single case or example to support the principle that district courts
may compel disclosure to a party that lacks standing.
6
Furthermore, the available evidence suggests that the scope of
the supervisory power prior to the adoption of Rule 6(e) was similarly limited. Courts allowed grand jury secrecy to be breached
only in very limited circumstances, and there is no evidence of a tradition of third parties resorting to the courts to compel disclosure.
See generally Mark Kadish, Behind the Locked Door of an American Grand Jury: Its History, Its Secrecy, and Its Process, 24 FLA.
ST. U. L. REV. 1, 16-22 (1996).

54a
For example, the Eleventh Circuit upheld an order
authorizing disclosure to the House Judiciary Committee pursuant to the judicial proceeding exception during
the impeachment of Judge Alcee Hastings. See generally Hastings, 833 F.2d 1438. Authorization was all
that was necessary because DOJ “stated that it ha[d] ‘no
objection’ to this disclosure to the Committee.” Id. at
1441-42. Similarly, in 2007, the House Judiciary Committee petitioned for disclosure of grand jury materials
relevant to its impeachment inquiry into the conduct of
Judge Thomas Porteous. See In re Grand Jury Investigation of U.S. Dist. Judge G. Thomas Porteous, Jr.,
No. 09-mc-04346 (E.D. La. Aug. 6, 2009). The district
court held that the Committee demonstrated a particularized need and authorized the Department to disclose
the materials. Id. at *6. DOJ did not oppose the request, id. at *2, so no compulsory process was necessary.
Other courts have recognized that Congress should
rely on legislative process to secure grand jury papers,
even after authorization of disclosure. In In re Grand
Jury Investigation of Ven-Fuel, a House Subcommittee
Chairman moved for disclosure under Rule 6(e).
441 F. Supp. 1299 (M.D. Fla. 1977). Only after concluding the Chairman had standing, 7 the court determined
that it would enforce the authorization of disclosure, but
nonetheless “request[ed] that the Subcommittee issue
its own subpoena duces tecum to the United States Attorney for the specific documents desired.” Id. at 1307
The district court relied on United States v. AT&T, 551 F.2d 384,
391 (D.C. Cir. 1976), to support its determination regarding congressional standing. As we recognized in McGahn, AT&T ’s standing
holding is no longer tenable after Raines. See 2020 WL 1125837, at
*11-12.
7

55a
(emphasis added) (internal citation omitted). The court
stressed that the House should utilize the legislative process to enforce its legislative demand for documents
from the executive branch. Id. at 1307-08. Respect
for the political process counseled in favor of withdrawing the judiciary from such clashes to allow the political
branches to rely upon their own processes to resolve disputes over grand jury materials.
Courts also considered congressional requests for
grand jury records in impeachment proceedings prior to
the adoption of Rule 6(e). Rule 6(e) gives possession of
grand jury materials to government attorneys, but before Rule 6(e) possession of grand jury materials was
not uniform—sometimes the records would be held by
the district court and sometimes by the prosecutor. In
the few recorded instances of congressional attempts to
obtain grand jury materials prior to Rule 6(e), possession appears to have been the dispositive factor. 8 For
The concurring opinion suggests, incorrectly, that the linchpin of
my position is possession. Concurring Op. 1-2. Yet while the happenstance of physical possession appears to have been a critical factor prior to Rule 6(e)’s adoption, Rule 6(e)(1) now establishes the Executive as the designated custodian of grand jury materials. See
supra 15-16. A court’s power to utilize in camera review in connection with a Rule 6(e) application does not alter DOJ’s duty to maintain grand jury documents. Neither of the cases cited by the concurrence supports the claim that the mere availability of in camera
review can be used as a backdoor for a court to compel disclosure
over the objection of the Executive to a party that lacks standing.
To the contrary, both cases involved voluntary compliance by the
Executive. See In re Report & Recommendation of June 5, 1972
Grand Jury Concerning Transmission of Evidence to House of Representatives, 370 F. Supp. 1219, 1221 (D.D.C. 1974), aff ’d, Haldeman
v. Sirica, 501 F.2d 714 (D.C. Cir. 1974); In re Sealed Case No.
98-3077, 151 F.3d at 1068.
8

56a
example, during a 1945 impeachment inquiry into two
judges, the House Judiciary Committee requested grand
jury materials. The supervising district court directed
its deputy clerk to testify before the Committee regarding the materials. See, e.g., Conduct of Albert W. Johnson and Albert L. Watson, U.S. Dist. Judges, Middle
District of Pennsylvania: Hearing Before Subcomm.
of the H. Comm. on the Judiciary, 79th Cong. 62-65
(1946). While the majority classifies this as an example
of “court-ordered disclosure,” Maj. Op. 14, it fails to note
that the direction was not to another branch, but simply
to the court’s deputy clerk. Because the district court
possessed the grand jury records, disclosure did not require an exercise of Article III power, but merely an exercise of discretion to release papers within the court’s
control. By contrast, in a 1924 inquiry into two congressmen, the House failed to obtain grand jury materials that were in the possession of the Attorney General.
6 Cannon’s Precedents of the House of Representatives
of the United States § 402 (“Cannon’s”); see also H.R.
Rep. No. 68-282 (1924) (grand jury investigation of John
W. Langley and Frederick N. Zihlman). The House
does not appear to have considered petitioning the supervising court for an order compelling the Attorney
General to turn over the materials.
Both before and after Rule 6(e), the federal courts
have not utilized their limited supervisory authority to
compel the production of grand jury materials to Congress. The historical precedents cited by the Constitutional Accountability Center in its amicus brief are not
to the contrary. Not one of the cited examples involved
a court issuing an order to compel disclosure of grand
jury materials to Congress. Rather, these precedents
all involved, at most, only authorization to release grand

57a
jury materials. 9 Thus, whenever Congress has received
grand jury materials in the past, it was with the cooperation of the entity that possessed the materials—either
the supervising court, if the materials were within its
custody, or the executive branch, which turned over the

The 1811 Toulmin precedent cited by CAC and the majority did
not involve compulsory process, judicial involvement of any sort, or
even secret grand jury materials. See 3 Asher C. Hinds, Hinds’
Precedents of the House of Representatives § 2488 (“Hinds’ ”). The
other historical instances CAC cites similarly did not involve compulsory judicial process. See 2 Hinds’ § 1123; H.R. Rep. No.
57-1423 (1902) (contested election in which the House received a
grand jury report without evidence of judicial involvement); 6 Cannon’s § 74 (1921 contested election in which grand jury materials
were made available to the Senate with no evidence of judicial involvement); id. § 399 (1924 Senate conduct inquiry in which a district
judge disclosed “some of the[] names” of grand jury witnesses known
to the judge but does not appear to have produced “minutes of the
grand jury proceeding” or the “documentary evidence which had gone
before the grand jury” in response to a subpoena); Haldeman,
501 F.2d at 715 (“We think it of significance that the President of the
United States, who is described by all parties as the focus of the report and who presumably would have the greatest interest in its disposition, has interposed no objection to the District Court’s action”
in disclosing a grand jury report the district judge possessed); Hastings, 833 F.2d at 1441-42 (“[T]he Department of Justice has stated
that it has ‘no objection’ to this disclosure to the Committee.”); In re
Cisneros, 426 F.3d 409, 412 (D.C. Cir. 2005) (noting the Independent
Counsel is “not under the aegis of either the court or a grand jury”
and granting his petition to disclose materials to Congress); In re
Grand Jury Investigation of Judge Porteous, No. 09-mc-04346, at
*6-7 (“[T]he Department of Justice is authorized to disclose to authorized personnel of the House of Representatives” grand jury materials related to the Porteous investigation and “Department of Justice personnel may discuss” with the Committee “matters occurring
before the grand jury.”).
9

58a
materials without being ordered by a court to do so. 10
The foregoing examples demonstrate that although
courts have sometimes authorized disclosure to third
parties pursuant to their supervisory authority or under
the judicial proceeding exception of Rule 6(e), courts
have not compelled disclosure to third parties over the
objection of the executive branch.
* **
Even in the grand jury context, we are obliged to ensure that a dispute is within our Article III authority.
Nothing in Rule 6(e), the traditional supervisory power,
or historical practice changes the relationship between
the coordinate branches or the general rule that a court
exercises the Article III judicial power when it issues
compulsory process to the executive branch.
III.
Because a compulsory order to the executive branch
in aid of Congress is an essential attribute of the Article
III judicial power, the Committee must establish standing in order to obtain judicial relief. This Part explains
why the Committee lacks standing to seek compulsory
process against the executive branch for the grand jury
materials. First, in light of Raines and our court’s recent decision in McGahn, the Committee would not have
standing to seek judicial enforcement of its subpoena to
The historical practice also casts doubt on DOJ’s position that
an impeachment cannot be a judicial proceeding. DOJ has previously consented to the release of materials for impeachment proceedings and specifically agreed that a “Senate impeachment trial
qualifies as a ‘judicial proceeding,’ and that a House impeachment
inquiry is ‘preliminary to’ the Senate trial.” Hastings, 833 F.2d
at 1440-41.
10

59a
DOJ. Because this case similarly presents a purely interbranch conflict, the Committee has no standing to
seek a judicial order compelling DOJ to produce the
same papers in the context of a Rule 6(e) proceeding.
Second, although McGahn leaves open the possibility
that legislative standing could be created by statute,
Rule 6(e) creates no informational right to grand jury
materials and the denial of such materials is not a judicially cognizable injury. Therefore, irrespective of whether
a statute could establish congressional standing, Rule
6(e) does not. Finally, allowing standing in this context
would run against historical practice and the limited role
of the federal judiciary in our system of separated powers. Raines, 521 U.S. at 819 (standing requires the dispute to be “traditionally thought to be capable of resolution through the judicial process” (quotation marks
omitted)).
A.
“[T]he law of [Article] III standing is built on a single
basic idea—the idea of separation of powers.” Raines,
521 U.S. at 820 (quoting Allen v. Wright, 468 U.S. 737,
752 (1984)). The Article III judicial power extends only
to cases and controversies, disputes that present concrete and particularized injuries to the rights of individuals. A rigorous standing analysis restricts courts to disputes traditionally within the judicial power. “The statutory and (especially) constitutional elements of jurisdiction are an essential ingredient of separation and equilibration of powers, restraining the courts from acting at
certain times, and even restraining them from acting
permanently regarding certain subjects.” Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 94 (1998). The
Court often decides interbranch conflicts, but only when

60a
such conflicts implicate the rights of private parties.
See Raines, 521 U.S. at 820. Conflicts between the executive branch and Congress are generally settled in the
political back and forth, because each branch has the
constitutional motives and means to defend its own powers and “resist encroachments of the others.” The
Federalist No. 51, at 268-69 (James Madison).
When Congress brings suit against the executive
branch, we must be especially careful to ensure that the
suit is properly within our jurisdiction. As we recently
explained, “we lack authority to resolve disputes between
the Legislative and Executive Branches until their actions harm an entity ‘beyond the [Federal] Government.’
Without such a harm, any dispute remains an intramural
disagreement about the ‘operations of government’ that
we lack power to resolve.” McGahn, 2020 WL 1125837,
at *3 (quoting Raines, 521 U.S. at 834 (Souter, J., concurring in the judgment)). In McGahn, we held that
the Committee lacks standing to “invoke the jurisdiction
of the federal courts to enforce its subpoena” for the testimony of former Counsel to the President Donald
McGahn. Id. at *7. McGahn made clear that generalized disputes between Congress and the Executive are
not justiciable because standing in interbranch disputes
is at odds with the constitutional separation of powers,
the nature of the judicial power, and historical practice.
Id. 11

As McGahn recognized, “we may adjudicate cases concerning
congressional subpoenas that implicate the rights of private parties.” 2020 WL 1125837, at *16 (citing Mazars, 940 F.3d at 723).
In Trump v. Mazars, the House Oversight Committee’s subpoena
was directed to the President’s private accounting firm. Although
11

61a
The framework in McGahn governs the standing inquiry in the case before us. To begin with, the Committee would not have standing to enforce its April subpoena for the grand jury materials—a legislative subpoena against the executive branch must be enforced
through legislative process. The fact that the Committee here seeks to use the courts to compel production of
the same materials under the aegis of Rule 6(e) does not
alter the standing analysis. The Committee asserts
that its “continued lack of access to the material is a
quintessential informational injury sufficient to confer
standing.” Comm. Supp. Br. 5. The nature of the interbranch dispute and the relevant constitutional bar in this
case is indistinguishable from McGahn: In both cases
the Committee seeks to invoke the compulsory powers
of the federal judiciary in an informational dispute with
the executive branch; however, the Committee’s alleged
the subpoena raised separation of powers concerns and was intertwined with the “official actions of the Chief Executive,” Mazars,
940 F.3d at 752 (Rao, J., dissenting), it nonetheless involved private
parties. When determining standing, we focus on the identity of
the parties rather than the issues they seek to adjudicate. Valley
Forge Christian Coll. v. Americans United for Separation of Church
& State, Inc., 454 U.S. 464, 485 (1982). Unlike Mazars, this case presents a purely interbranch dispute between the House and the Executive, over which this court lacks jurisdiction. Moreover, this
case arises in relation to a formal impeachment inquiry and trial,
which raises concerns regarding justiciability. See Raines, 521 U.S.
at 829 (no standing for suits that are “contrary to historical experience”); (Walter) Nixon, 506 U.S. 224, 234 (1993) (“[T]he Judiciary
. . . were not chosen to have any role in impeachments.”). These
concerns were not present in Mazars. See 940 F.3d at 779 n.20
(Rao, J., dissenting) (“[T]he Committee has not relied on the impeachment power for this subpoena. . . . Congress, the Executive, and the courts have maintained that requests under the legislative and impeachment powers may be treated differently.”).

62a
“informational injury” is insufficient to confer standing
because federal courts lack constitutional power to issue
an injunction in a dispute between Congress and the Executive when no individual rights are at stake. See
McGahn, 2020 WL 1125837, at *3 (“[T]he Committee’s
dispute with the Executive Branch is unfit for judicial
resolution because it has no bearing on the ‘rights of
individuals.’ ” (quoting Marbury v. Madison, 5 U.S. (1
Cranch) 137, 170 (1803))).
The majority insists that this case “is unlike other interbranch disputes” and distinguishable from McGahn because the grand jury is an “appendage of the court” and
the Department of Justice is “simply the custodian of
the grand jury materials.” Maj. Op. 9, 26. The majority further maintains that “it is the district court, not the
Executive or the Department, that controls access to
. . . grand jury materials.” Id. at 10. These sweeping
claims cannot be squared with Rule 6(e), our cases, and
the history of the grand jury.
The text and structure of Rule 6 make clear that the
district court and the executive branch share responsibility for maintaining grand jury secrecy and for overseeing appropriate disclosures. As discussed above,
government attorneys have authority to disclose in some
circumstances without court approval; in other circumstances, the government attorney must approve the disclosure. See, e.g., FED. R. CRIM P. 6(e)(3)(A)-(D),
(E)(iii)-(v). In McKeever, we explained that the district court cannot release grand jury records on its own
initiative because “Rule 6 assumes the records are in the
custody of the Government, not that of the court” and
the district court may authorize disclosure by an “attorney for the government.” 920 F.3d at 848 (citing FED.

63a
R. CRIM. P. 6(e)(1)). The majority’s contrary position
relies in part on the reasoning of other circuits that have
concluded grand jury records are “court records” over
which the district court can exercise “inherent authority” because the grand jury is part of the judicial process. Maj. Op. 9 (citing cases). Yet we have recently
stated it is “not at all clear” that grand jury records are
“judicial records” and noted that this court has rejected
that conclusion in other contexts. McKeever, 920 F.3d
at 848. Grand jury documents, like the grand jury itself, belong neither to the executive branch nor to the
courts.
Contrary to the majority’s classification of the grand
jury as part of the judiciary, the Supreme Court has explained that the grand jury’s “institutional relationship
with the Judicial Branch has traditionally been, so to
speak, at arm’s length.” Williams, 504 U.S. at 47.
The Court has also recognized the important relationship between the prosecutor and the grand jury. See,
e.g., Sells Eng’g, 463 U.S. at 430 (“[A] modern grand jury
would be much less effective without the assistance of
the prosecutor’s office. . . . [The grand jury] depends
largely on the prosecutor’s office to secure the evidence
or witnesses it requires.”). Government attorneys have
strong institutional reasons for protecting grand jury
secrecy in relation to ongoing and future prosecutions.
Thus, although the grand jury relies on both court
and prosecutor for the exercise of its functions, it is an
“appendage” of neither. The grand jury exists apart
from all three branches. See Williams, 504 U.S. at 47
(“[The grand jury] has not been textually assigned,
therefore, to any of the branches described in the first
three Articles. It ‘is a constitutional fixture in its own

64a
right.’ ” (quoting Nixon v. Sirica, 487 F.2d 700, 712
n.54 (D.C. Cir. 1973))); Chanen, 549 F.2d at 1312 (“[T]he
functions of the grand jury are intimately related to the
functions of court and prosecutor. . . . But . . .
the grand jury is not and should not be captive to any of
the three branches.” (internal citations omitted)). A
district court may supervise the grand jury, but such supervision does not change the division of power between
the court and the political branches.
Because this case is fundamentally an interbranch
dispute, the House may seek judicial process against the
executive branch only if it can demonstrate Article III
standing. The Committee’s claim must fit within the
increasingly narrow exceptions for congressional standing. Here, the Committee asserts no individual harm to
a lawmaker’s personal interests. Cf. Powell v. McCormack, 395 U.S. 486 (1969) (finding a justiciable case or
controversy for elected Member of Congress to sue for
wrongful exclusion from Congress, which deprived him
of salary and seat). The Committee here is “an institutional plaintiff ” representing the House of Representatives. Comm. Supp. Br. 11 (quoting Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n, 135 S. Ct.
2652, 2664 (2015)); see also H.R. Res. 430, 116th Cong.
(2019) (authorizing House Judiciary Committee “to petition for disclosure of ” the grand jury materials at issue
“pursuant to Federal Rule of Criminal Procedure 6(e)”).
Although the Court has suggested some limited standing for state legislatures raising institutional interests,
McGahn forecloses institutional standing for Congress
in suits against the executive branch. See 2020 WL
1125837, at *3-8. McGahn, however, leaves open the
question of whether a “statute authorizing a suit like the
Committee’s would be constitutional.” Id. at *15. It

65a
is doubtful whether this question in fact remains open
after Raines, where the Court noted “[i]t is settled that
Congress cannot erase Article III’s standing requirements by statutorily granting the right to sue to a plaintiff who would not otherwise have standing.” 521 U.S.
at 820 n.3. Nonetheless, this remains the only possible
path for the Committee’s standing in this case. Assuming a statute might be able to create standing in an interbranch dispute, I analyze whether Rule 6(e) creates
a legally cognizable injury sufficient to sustain the Committee’s standing.
B.
Congress may “elevat[e] to the status of legally cognizable injuries concrete, de facto injuries that were previously inadequate in law.” Lujan v. Defenders of Wildlife, 504 U.S. 555, 578 (1992). Yet as the Court recently
explained, a plaintiff must always demonstrate that it
has suffered a sufficiently “concrete injury even in the
context of a statutory violation.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1549 (2016). Thus, the mere fact
that “a statute grants a person a statutory right and purports to authorize that person to sue to vindicate that
right,” “does not mean that a plaintiff automatically satisfies the injury-in-fact requirement.” Id. We have
since elaborated on the Court’s holding in Spokeo, explaining that “[f]or a statutory violation to constitute an
injury in fact, then, the statute must protect the plaintiff ’s concrete interest—i.e., afford the putative plaintiff
a right to be free of a harm capable of satisfying Article
III.” Jeffries v. Volume Servs. Am., Inc., 928 F.3d 1059,
1064 (D.C. Cir. 2019).
The Committee maintains that it has standing because Rule 6(e) “authorizes court-ordered disclosures”

66a
when grand jury material is sought preliminary to a judicial proceeding, and the House is therefore “entitled
to the material under the Rule.” Comm. Supp. Br. 5.
Contrary to the House’s assertions, however, Rule 6(e)
does not create an entitlement to invoke the courts’ aid
in compelling production of grand jury information.
See Pittsburgh Plate Glass Co. v. United States, 360 U.S.
395, 399 (1959) (Rule 6(e) does not confer upon an applicant “a ‘right’ to the delivery to it of the witness’ grand
jury testimony”); see also In re Fed. Grand Jury Proceedings, 760 F.2d 436, 439 (2d Cir. 1985) (explaining
that there “is no ‘absolute right’ to . . . grand jury
testimony” under the judicial proceeding exception).
Rather, Rule 6(e) starts from the premise that “disclosure of matters occurring before the grand jury is the
exception and not the rule,” and then proceeds to “set[]
forth in precise terms to whom, under what circumstances and on what conditions grand jury information
may be disclosed.” McKeever, 920 F.3d at 844 (emphasis added) (citation and quotation marks omitted).
The decision to authorize the release of grand jury
materials in connection with a judicial proceeding is thus
committed to the sound discretion of the supervising
court, which “may” authorize disclosure “at a time, in a
manner, and subject to any other conditions that it directs.” FED. R. CRIM. P. 6(e)(3)(E). Even then, disclosure is appropriate only if the court first concludes
that “the party seeking material covered by the exception ha[s] made a sufficiently strong showing of need to
warrant disclosure.” McKeever, 920 F.3d at 846.
Rule 6(e) is thus unlike other statutes and regulations that require the disclosure of certain categories of
information, such as the Freedom of Information Act.

67a
See 5 U.S.C. § 552 (providing that agencies “shall make
available” to the public various categories of records and
information); Zivotofsky ex rel. Ari Z. v. Sec’y of State,
444 F.3d 614, 617-18 (D.C. Cir. 2006) (noting that under
FOIA “[t]he requester is injured-in-fact for standing
purposes because he did not get what the statute entitled him to receive”). The Committee’s attempt to
analogize Rule 6(e) to such statutes is misguided.
Each of the cases cited by the Committee to support its
theory of informational injury-in-fact involved claims
that a plaintiff was denied access to information in violation of an express statutory or regulatory mandate to
disclose the information at issue. For example, the
Federal Election Campaign Act of 1971 required that
political committees make certain information public,
and so an alleged failure to disclose such information
would constitute a judicially cognizable injury. See
FEC v. Akins, 524 U.S. 11, 21 (1998). Similarly, the
Federal Advisory Committee Act, 5 U.S.C. App. 2 § 10,
requires release of information pertaining to certain
committees advising the executive branch. The Court
held that a deprivation of such information constituted
an injury sufficient to confer standing. See Pub. Citizen v. U.S. Dep’t of Justice, 491 U.S. 440, 449-50 (1989).
Because these statutes created affirmative disclosure
obligations, a plaintiff could establish an Article III injury by alleging a refusal to provide the required information. 12

The Committee’s attempt to analogize Rule 6(e) to statutes
like FOIA fails for an additional reason. Although Rule 6(e) “ha[s]
the force of law,” Comm. Supp. Br. 6-7 (quoting Deaver v. Seymour,
822 F.2d 66, 70 n.9 (D.C. Cir. 1987)), under the Rules Enabling Act,
a federal rule of criminal procedure cannot vest any substantive right
12

68a
By contrast, Rule 6(e)(3) creates no such injury because it does not afford any concrete right. Rather,
the Rule is purely permissive, providing that the district
court “may authorize disclosure” of grand jury materials. The existence of an enumerated exception to grand
jury secrecy under Rule 6(e)(3) is only the starting
point. After determining an exception applies, a supervising court must determine, in its discretion, whether disclosure of the grand jury materials may be warranted
under the circumstances and whether the applicant has
demonstrated a “particularized need” for the materials.
See, e.g., Sells Eng’g, 463 U.S. at 442-43. Even this permissive standard refers only to authorization of disclosure, not to disclosure itself. Moreover, the Court has
never held that Rule 6(e)(3) creates a private right of
action for a third party to obtain injunctive relief. See
Pittsburgh Plate Glass, 360 U.S. at 399. Although
Rule 6(e)(3) allows the court to remove the shield of
grand jury secrecy through authorization, a third party
must look elsewhere for a right of action to compel disclosure. See Rutherford, 509 F.3d at 793 (“[Rule]
6(e)(3)(E)(i), pertaining to the disclosure of grand jury
documents, cannot be used to mandate such release.”).
It is instructive that we have held other parts of Rule
6(e) can be enforced by third parties through a private
right of action. For example, a third party has a “very
limited” private right of action to enforce Rule 6(e)(2)’s
secrecy requirement by seeking “injunctive relief or
to information. 28 U.S.C. § 2072(b) (“Such rules shall not abridge, enlarge or modify any substantive right.”); see also Kontrick v. Ryan,
540 U.S. 443, 453 (2004) (“[I]t is axiomatic” that rules promulgated
pursuant to the Rules Enabling Act “do not create or withdraw federal jurisdiction.”).

69a
civil contempt of court through the district court supervising the grand jury.” In re Sealed Case No. 98-3077,
151 F.3d at 1070 (quotation marks omitted). Rule 6(e)(2)
uses the mandatory language “must not disclose,” which
courts have interpreted as vesting a private right that
may be judicially redressable. Rule 6(e)(3), unlike
Rule 6(e)(2), does not provide a legal entitlement to compel production of grand jury materials. 13 Thus, a third
party such as the Committee that seeks a court order to
compel production must demonstrate an independent legal right to such materials 14 or possess a judicial device
for compelling the materials, such as a subpoena. See
13
Other statutes demonstrate that Congress knows how to vest
district courts with the power to compel production of grand jury
materials. For example, the Jencks Act provides that the government may be ordered to produce grand jury witness statements.
18 U.S.C. § 3500(b). The Act also provides remedies if the government fails to comply with a court’s disclosure order. 18 U.S.C.
§ 3500(d).
14
Legal rights to grand jury materials have been found in different
contexts. See, e.g., Gibson v. United States, 403 F.2d 166 (D.C. Cir.
1968) (criminal defendant asserting constitutional rights, such as the
need to obtain potentially exculpatory evidence in a pending criminal
trial); Dennis v. United States, 384 U.S. 855, 869-70 (1966) (criminal
discovery); Illinois v. Abbott & Assocs., Inc., 460 U.S. 557 (1983) (Section 4F(b) of the Clayton Act, 15 U.S.C. § 15f(b)); United States v.
Procter & Gamble, 356 U.S. 677 (1958) (civil plaintiff ’s discovery
rights). Our sister circuits have prevented parties from using Rule
6(e)(3) to compel disclosure absent a legal right. For example, in
Moussaoui, the Fourth Circuit rejected an attempt to use Rule 6(e)
to “compel the Government to disclose non-public documents to
crime victims involved in a civil action in a different jurisdiction.”
483 F.3d at 230; see also California v. B.F. Goodrich Co., 619 F.2d
798, 801 (9th Cir. 1980) (after authorizing disclosure, adding that “[t]he
Attorney General need not disclose the materials if he objects to
their disclosure”).

70a
Rutherford, 509 F.3d. at 795 (“[Rule 6(e)] does not authorize third parties to obtain grand jury materials from
the government against the government’s objections
without a proper device for compelling the documents,
such as a subpoena duces tecum.”).
In sum, Rule 6(e) fails to create a legally cognizable
informational right, the denial of which might constitute
an injury sufficient to support congressional standing.
I therefore need not opine on the broader question left
open by McGahn regarding whether a statute can confer such standing in the first place.
C.
In addition to conflicting with McGahn and the text
of Rule 6(e)(3), the Committee’s “attempt to litigate this
dispute at this time and in this form is contrary to historical experience.” Raines, 521 U.S. at 829. This type
of interbranch dispute is not one “traditionally thought
to be capable of resolution through the judicial process.”
Allen, 468 U.S. at 752 (quoting Flast v. Cohen, 392 U.S.
83, 97 (1968)). The fact that Congress seeks grand jury
materials does not erase the constitutional boundaries
between the judiciary and Congress with respect to impeachment, nor does it displace the separate legislative
processes that Congress has for obtaining information.
The Committee initially sought authorization of disclosure for the Mueller grand jury materials preliminary
to an impeachment proceeding. Yet impeachment is a
separate process that occurs in the House and the Senate, without the interference or involvement of the courts.
Parallel to the ordinary criminal process, the Constitution vests the power of impeachment and power to try

71a
all impeachments solely in the House and Senate respectively. U.S. CONST. art. I, § 2, cl. 2, § 3, cl. 6. The Constitution carefully separates the criminal process in the
courts from the impeachment process in Congress.
See U.S. CONST. art. I, § 3, cl. 7 (“[T]he Party convicted
shall nevertheless be liable and subject to Indictment,
Trial, Judgment and Punishment, according to Law.”);
The Federalist No. 65, at 340 (Alexander Hamilton).
As the Supreme Court has explained, “the Judiciary,
and the Supreme Court in particular, were not chosen to
have any role in impeachments.” (Walter) Nixon, 506
U.S. at 234.
The text and structure of the Constitution’s provisions regarding the impeachment power confirm the
separation of the courts from this process. The “risks
from overlapping powers reach their apogee in a presidential impeachment trial.” (Walter) Nixon v. United
States, 938 F.2d 239, 242-43 (D.C. Cir. 1991), aff ’d, 506 U.S.
224. Thus, courts should not interfere with the exercise of the impeachment powers, and the House does not
have a positive constitutional right to assistance from
the other branches in the exercise of its sole power of
impeachment. See (Walter) Nixon, 506 U.S. at 231 (interpreting the word “sole” to exclude any judicial “assistance or interference” in an impeachment proceeding (citation omitted)). The House must look to its own powers
or those of the court of impeachments, the Senate, for
compulsory aid in an impeachment investigation.
History confirms that both Congress and the courts
have maintained the separation between impeachment
and the judicial process. In the only three previous presidential impeachment investigations, as well as other impeachments, the House has never resorted to the courts

72a
to compel materials from the executive branch. As in
Raines, “[i]t is evident from several episodes in our history that in analogous confrontations between one or
both Houses of Congress and the Executive Branch, no
suit was brought on the basis of claimed injury to official
authority or power.” 521 U.S. at 826; see also McGahn,
2020 WL 1125837, at *6 (“Neither interbranch disputes
(in general) nor interbranch information disputes (in particular) have traditionally been resolved by federal
courts.”).
During the impeachment investigation of President
Nixon, the House Judiciary Committee recognized that
seeking judicial assistance would likely weaken the authority of the House as well as exceed the judicial power
of the courts. In its impeachment report, the Committee held that “it would be inappropriate to seek the aid
of the courts to enforce its subpoenas against the President” because it would undermine “the constitutional
provision vesting the power of impeachment solely in the
House of Representatives.” H.R. Rep. No. 93-1305, at
210 (1974) (noting also the “express denial by the Framers
of the Constitution of any role for the courts in the impeachment process”). The Committee was concerned
that judicial involvement would undermine its powers
because “the court would necessarily have to determine
whether the subpoenaed material was reasonably relevant to the inquiry.” Id. at 212. The Committee also
raised concerns that the courts would not have “adequate means” to enforce a congressional subpoena because the only viable remedy for the President’s noncompliance would be impeachment, which “would ultimately be adjudicated in the Senate.” Id. The House
agreed and, in line with this position, did not seek court

73a
orders to obtain grand jury materials. Instead, it received most Watergate grand jury materials by order of
the President and on the petition of the Watergate
grand jury, without objection from the executive branch.
See Letter from Peter W. Rodino, Jr., Chairman, House
Judiciary Committee, to John J. Sirica, U.S. District
Judge (Mar. 8, 1974); In re Report & Recommendation
of June 5, 1972 Grand Jury Concerning Transmission
of Evidence to House of Representatives, 370 F. Supp.
at 1221.
Similarly, during the impeachment of President Clinton, the House Judiciary Committee never resorted to
the courts to compel production from the executive
branch and instead relied on the addition of an article of
impeachment alleging insufficient responses from the
President to numerous interrogatories issued by the
Committee. See generally H.R. Rep. No. 105-830 (1998).
Moreover, neither the Judiciary Committee in the impeachment inquiry nor the Senate Whitewater Committee resorted to the courts to receive grand jury materials. See S. Rep. No. 104-191, at 9 (1995) (“[G]rand jury
secrecy restrictions forbid the Committee’s participation in discussions over subpoenas to the White House.”).
To the extent the Judiciary Committee received grand
jury materials, it was not through a Rule 6(e)(3) application filed by the Committee. Rather, a member of the
executive branch, the Independent Counsel, disclosed
the materials to Congress pursuant to the Ethics in Government Act, 28 U.S.C. § 595(c), after receiving Rule
6(e) authorization from the Special Division of this court.
See H.R. Rep. No. 105-795, at 32 (1998).

74a
The impeachment of Andrew Johnson also conforms
to this understanding. The “tedious job of taking testimony and searching through documents” was conducted solely by the House, with no mention of judicial
involvement. Michael Les Benedict, “The Impeachment
of President Andrew Johnson, 1867-68” in Congress Investigates at 263-64; cf. Mississippi, 71 U.S. at 501 (noting it would be a “strange spectacle” for the Court to
attempt to “restrain by injunction the Senate of the United
States from sitting as a court of impeachment”).
These historical precedents further reinforce the
availability and effectiveness of legislative process to enforce informational requests. “Congress (or one of its
chambers) may hold officers in contempt, withhold appropriations, refuse to confirm the President’s nominees,
harness public opinion, delay or derail the President’s
legislative agenda, or impeach recalcitrant officers.”
McGahn, 2020 WL 1125837, at *5. The ultimate form
of accountability for the President is an article of impeachment. Impeachment is a power the House must exercise pursuant to its own processes and standards, and
self-help is always available.
Moreover, when sitting as a court of impeachment,
the Senate may issue the same compulsory process and
orders as any other court. It may issue warrants, summons, and subpoenas, and even arrest and hold individuals who fail to comply. Indeed, the Senate Rules provide that the Senate, not the courts, makes determinations regarding relevancy and compulsory process.

75a
See S. Res. 479, 99th Cong. (1986), reprinted in Senate
Manual § 176, 113th Cong. (2014). 15
Although the Committee now seeks to reassign the
Senate’s authority to the judiciary, this court has observed that the Article III courts must apply the same
principles of comity and abstention to the Senate sitting
as “the constitutionally-designated court of impeachment” as it would to any other “coordinate federal
court.” Hastings, 887 F.2d 332, 1989 WL 122685, at *1;
see also id. (“[W]e have not found any case in which
the judiciary has issued injunctive or declaratory relief
intercepting ongoing proceedings of the legislative
branch.”). We should decline to issue compulsory process in an impeachment trial committed to the “sole” discretion of the Senate.
* * *
Congress has historically relied upon its own constitutional powers to enforce subpoenas and informational
requests against the executive branch. See McGahn,
2020 WL 1125837, at *7 (“Principles and practice thus
agree: The Committee may not invoke the jurisdiction
of the federal courts to enforce its subpoena.”). “[P]olitical struggle and compromise” is the Constitution’s
chosen method to resolve interbranch disputes.
Barnes v. Kline, 759 F.2d 21, 55 (D.C. Cir. 1984) (Bork,
J., dissenting). With respect to grand jury records in
During the impeachment trial of President Clinton, Chief Justice Rehnquist noted that a deposition could be taken only under the
Senate’s authority because “a deposition is an adjunct to a court proceeding, and it is only from the court that the authority to compel
attendance of witnesses and administer oaths is derived.” Letter
from William Rehnquist, Chief Justice of the United States, to Tom
Harkin, United States Senator (Jan. 25, 1999).
15

76a
the possession of the executive branch, no less than
other disputes, the Committee must demonstrate Article III standing. Here, the Committee can point to no
statutory entitlement to this information and the judicial relief it seeks is contrary to historical practice and
the separation of powers. Accordingly, the Committee
lacks standing to request a court order compelling DOJ
to disclose the grand jury materials.
IV.
Fundamental principles of separation of powers and
the relation of the grand jury to the three branches necessarily lead to the conclusion that the Committee cannot fight this interbranch dispute through the courts.
Although it is well established that a court exercises the
Article III judicial power when issuing a compulsory order to the executive branch, the fact that the Committee
here seeks grand jury materials has obscured the ordinary justiciability requirements. When pursuing an
impeachment investigation, the Committee may petition
for authorization of disclosure under the “judicial proceeding” exception in Rule 6(e)(3). Nothing in the Rule,
however, allows the district court to compel the executive branch to disclose grand jury materials to a party
that lacks standing. The district court’s supervisory
power over the grand jury cannot expand judicial authority over the executive branch.
The majority refuses to consider the first and most
fundamental question presented in every case—namely
whether we have the power to decide it. Although the
majority and concurrence refer in the abstract to the supervisory power, they cite not a single case in which a
court has ordered the executive branch to release grand
jury materials to a party without standing. Our duty

77a
to ensure that we have jurisdiction cannot be brushed
aside by the expedient agreement of the executive branch
and the House to support the Committee’s standing.
“[E]very federal appellate court has a special obligation
to satisfy itself not only of its own jurisdiction, but also
that of the lower courts in a cause under review, even
though the parties are prepared to concede it.” Steel
Co., 523 U.S. at 94 (quotation marks omitted). Acquiescence by the political branches cannot erase constitutional boundaries. See, e.g., Free Enter. Fund. v. Pub.
Co. Accounting Oversight Bd., 561 U.S. 477, 497 (2010)
(“[T]he separation of powers does not depend on . . .
whether ‘the encroached-upon branch approves the encroachment.’ ” (quoting New York v. United States,
505 U.S. 144, 182 (1992))); Clinton v. New York, 524 U.S.
417, 447 (1998) (support from both political branches for
the Line Item Veto Act could not override the “finely
wrought procedure commanded by the Constitution”
(quotation marks omitted)); INS v. Chadha, 462 U.S.
919, 942 n.13 (1983) (“The assent of the Executive to a
bill which contains a provision contrary to the Constitution does not shield it from judicial review.”).
In a similar vein, the courts should not defer to the
political branches with respect to protecting the integrity of the Article III judicial power. Inevitably, there
will be times when institutional interests lead Congress
or the Executive to seek out the courts to resolve messy
political matters. In this case, the House repeatedly
asserted that it should be treated as would “every other
litigant” seeking grand jury materials under Rule 6(e).
Comm. Br. 51-52; see also Comm. Supp. Br. 12. The
House chose to press its standing in the third branch,
rather than rely on the full and awesome powers of the

78a
first. 16 Similarly, the Department of Justice here only
selectively invokes Article III to press for its institutional self-interest. See DOJ Supp. Br. 3-6. The Constitution gives the Executive and Congress the constitutional means and motives to pursue the interests of their
respective departments. In purely interbranch disputes, however, those constitutional means do not include judicial review.
Moreover, the grand jury context does not alter the
justiciability requirements of Article III. The role of
the courts in our system of separated powers is to preserve individual rather than institutional rights. See
Marbury, 5 U.S. (1 Cranch) at 170 (“The province of the
court is, solely, to decide on the rights of individuals, not
to enquire how the executive, or executive officers, perform duties in which they have a discretion.”); McGahn,
2020 WL 1125837, at *3 (“[T]he Committee’s dispute
with the Executive Branch is unfit for judicial resolution
because it has no bearing on the ‘rights of individuals.’ ”
(quoting Marbury, 5 U.S. (1 Cranch) at 170)); see also
Antonin Scalia, The Doctrine of Standing as an Essential Element of the Separation of Powers, 17 SUFFOLK
By contrast, during the Nixon impeachment, the House Judiciary Committee resisted resort to the courts to enforce impeachment
related process because judicial involvement in impeachment matters would be inappropriate, and moreover, would weaken Congress
as an institution. See H.R. Rep. No. 93-1305, at 210-12 (1974); see
also Raoul Berger, Congressional Subpoenas to Executive Officials,
75 COLUM. L. REV. 865, 893 (1975) (“[P]ossibly the Committee was
reluctant to surrender a jot of its paramountcy in conducting an impeachment investigation; and it did have an ultimate sanction—to
add an article for contempt of the House by refusal to comply with
its subpoena. Presidential infringements on the prerogatives of the
House are impeachable.”).
16

79a
U. L. REV. 881, 884 (1983). The Article III judicial
power does not include the “amorphous general supervision of the operations of government.” Raines, 521 U.S.
at 829 (citation and quotation marks omitted). Our Article III courts are confined to the less flashy but nonetheless vital “species of contest which is termed a lawsuit.” Barnes, 759 F.2d at 52 (Bork, J., dissenting) (quoting 1 A. De Tocqueville, Democracy in America 106-07
(T. Bradley ed. 1945)); cf. Spokeo, 136 S. Ct. at 1551
(Thomas, J., concurring) (“These limitations [on standing] preserve separation of powers by preventing the judiciary’s entanglement in disputes that are primarily political in nature. This concern is generally absent when
a private plaintiff seeks to enforce only his personal
rights against another private party.”).
In our constitutional democracy, most decisions are
left to the people and their representatives. The courts
play an essential role in saying what the law is, but they
are not all-purpose umpires, available to referee any dispute between the other branches. Unless presented
with a proper case or controversy, the courts do not advise or review the acts of the coordinate branches or the
disputes that may arise between them. As discussed
above, these separation of powers concerns are at their
height in the impeachment context. The courts should
have no part of assisting or interfering with impeachment proceedings. See (Walter) Nixon, 506 U.S. at
233-34. Institutional disputes between the executive
branch and Congress often pertain to political arrangements and are fought under political standards, wholly
outside the purview of the courts.
Furthermore, maintaining careful control over jurisdictional boundaries is one of the primary mechanisms

80a
of self-defense for the judiciary, because it avoids entangling unelected judges in the political sparring of the
day. See McGahn, 2020 WL 1125837, at *4 (“Interbranch disputes are deeply political and often quite partisan. . . . By restricting the role of the judiciary,
Article III preserves the ‘public confidence’ in the federal courts.” (quoting Valley Forge Christian Coll.,
454 U.S. at 474)). The political branches seek judicial
resolution of their interbranch dispute today, yet may
tomorrow find the courts an inconvenient interference.
If courts enter the business of resolving interbranch disputes, the branch losing the judicial contest has every
incentive to discredit the motive and means employed by
the judiciary—charges against which the judiciary has
few protections when it has decided a case outside the
boundaries of the judicial power. Moreover, a judicial
decision in these disputes may allow the political branches
to escape accountability for making their case to the
American people and instead deflect responsibility to
the courts. That was not the system designed by our
Framers. If the court picks sides in a political dispute,
we not only compromise the boundaries of our own power,
but also weaken the political accountability of the other
branches.
Any doubt regarding the unsuitability of the courts
for this interbranch dispute should be put to rest in the
circumstances of this case. The Senate trial of President Trump concluded more than a month before publication of this opinion. Even when acting on an expedited basis, courts cannot move with the alacrity and
speed of the political process. And indeed, that process
has moved on without our decisions. The flurry of supplemental filings recounting the litigating positions of
the President and the House in the impeachment trial,

81a
and arguing that such positions should affect our decisionmaking, demonstrates the practical impediments to
judicial resolution of these issues. 17 In addition to the
constitutional limits of the judicial power, the very structure of the judiciary reinforces that impeachments and
related interbranch information disputes are not the
business of the courts.
* * *
The grand jury context does not eliminate the limits
on the judicial power essential to the Constitution’s separation of powers. Because I conclude that the House
lacks standing to seek compulsory process against the
executive branch in this context, I would vacate the part
of the district court’s order directing DOJ to disclose the
grand jury materials. On the question of authorization, in light of changed circumstances, I would remand
to the district court to evaluate in the first instance
whether the Committee can demonstrate that it continues to have a “particularized need” for these grand jury
materials “preliminarily to” impeachment proceedings.
For the foregoing reasons, I respectfully dissent.

See, e.g., Letter from Douglas N. Letter, General Counsel, U.S.
House of Representatives, to Mark Langer, Clerk of the Court, U.S.
Court of Appeals for the D.C. Circuit (Jan. 23, 2020) (“[O]ne of President Trump’s defenses in the impeachment is that the House should
have gone to court to obtain the information he withheld.”); Letter
from Mark R. Freeman, Department of Justice, to Mark Langer,
Clerk of the Court, U.S. Court of Appeals for the D.C. Circuit (Jan.
28, 2020) (“The extensive, ongoing debate in the Senate over what
evidence the Senate should or should not consider in the trial underscores the oddity of the Committee’s view.”).
17

82a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Grand Jury Action No. 19-48 (BAH)
Chief Judge Beryl A. Howell
IN RE: APPLICATION OF THE COMMITTEE ON THE
JUDICIARY, U.S. HOUSE OF REPRESENTATIVES,
FOR AN ORDER AUTHORIZING THE RELEASE
OF CERTAIN GRAND JURY MATERIALS
Filed:

Oct. 25, 2019

MEMORANDUM OPINION GRANTING THE
APPLICATION OF THE COMMITTEE ON THE
JUDICIARY, U.S. HOUSE OF REPRESENTATIVES
Table of Contents

I.

BACKGROUND ............................................. [86a]
A. The Special Counsel’s Investigation ....... [86a]
B. Release of the Mueller Report ................ [98a]
C. The Instant Proceeding ......................... [103a]
II. LEGAL STANDARD ................................... [105a]
III. DISCUSSION ............................................... [108a]
A. Rule 6(e)’s “Judicial Proceeding”
Requirement is Satisfied Because
an Impeachment Trial is Such a
Proceeding .............................................. [110a]

83a
1. The Term “Judicial Proceeding” in
Rule 6(e) Has a Broad Meaning ...... [111a]
2. An Impeachment Trial is Judicial in
Nature ............................................... [117a]
3. Historical Practice Before Enactment of Rule 6(e) Informs Interpretation of that Rule ............................ [127a]
4. Binding D.C. Circuit Precedent
Forecloses Any Conclusion Other
Than That an Impeachment Trial is
a “Judicial Proceeding” .................... [131a]
B. HJC’s Consideration of Articles of
Impeachment is “Preliminarily To”
an Impeachment Trial ........................... [140a]
1. Governing Legal Principles Demonstrate That House Proceedings Can
be “Preliminarily To” a Senate
Impeachment Trial ........................... [140a]
2. HJC’s Primary Purpose is to Determine Whether to Recommend Articles of Impeachment ......................... [144a]
a. DOJ’s Proposed “Preliminarily
To” Test is Contrary to Baggot .... [144a]
b. No House “Impeachment Inquiry” Resolution is Required .... [147a]
c. The Record of House and HJC
Impeachment Activities Here
Meets the “Preliminarily To”
Test .............................................. [154a]

84a
3. Requiring More Than the Current
Showing by HJC, as DOJ Demands,
Would Improperly Intrude on
Article I Powers Granted to
House of Representatives ................ [159a]
4. DOJ’s Remaining Objections are
Unpersuasive .................................... [161a]
C. HJC Has a “Particularized Need” for
the Requested Materials ....................... [163a]
1. Disclosure is Necessary to Avoid
Possible Injustice ............................. [166a]
2. The Need for Disclosure Outweighs
the Need for Continued Secrecy ..... [175a]
3. Scope of Disclosure Authorized ....... [178a]
IV. CONCLUSION ............................................. [178a]
In March 2019, Special Counsel Robert S. Mueller
III ended his 22-month investigation and issued a twovolume report summarizing his investigative findings
and declining either to exonerate the President from
having committed a crime or to decide that he did. See
generally Special Counsel Robert S. Mueller, III, U.S.
Dep’t of Justice, Report On The Investigation Into Russian Interference In The 2016 Presidential Election
(“Mueller Report”) (Mar. 2019), ECF Nos. 20-8, 20-9.
The Special Counsel explained that bringing federal
criminal charges against the President would “potentially preempt constitutional processes for addressing
presidential misconduct.” Id. at II-1. With this statement, the Special Counsel signaled his view that Congress, as the federal branch of government tasked with

85a
presidential impeachment duty under the U.S. Constitution, was the appropriate body to resume where the
Special Counsel left off.
The Speaker of the House of Representatives has announced an official impeachment inquiry, and the House
Judiciary Committee (“HJC”), in exercising Congress’s
“sole Power of Impeachment,” U.S. CONST. art. I, § 2, cl.
5, is reviewing the evidence set out in the Mueller Report. As part of this due diligence, HJC is gathering
and assessing all relevant evidence, but one critical subset of information is currently off limits to HJC: information in and underlying the Mueller Report that was
presented to a grand jury and withheld from Congress
by the Attorney General.
The Department of Justice (“DOJ”) claims that existing law bars disclosure to the Congress of grand jury
information. See DOJ’s Resp. to App. of HJC for an
Order Authorizing Release of Certain Grand Jury Materials (“DOJ Resp.”), ECF No. 20. DOJ is wrong.
In carrying out the weighty constitutional duty of determining whether impeachment of the President is warranted, Congress need not redo the nearly two years of
effort spent on the Special Counsel’s investigation, nor
risk being misled by witnesses, who may have provided
information to the grand jury and the Special Counsel
that varies from what they tell HJC. As explained in
more detail below, HJC’s application for an order authorizing the release to HJC of certain grand jury materials related to the Special Counsel investigation is
granted. See HJC’s App. for an Order Authorizing the
Release of Certain Grand Jury Materials (“HJC App.”),
ECF No. 1.

86a
I.

BACKGROUND

What follows begins with a brief review of the initiation of the Special Counsel’s investigation, the key findings in the Mueller Report and the grand jury secrecy
redactions embedded therein, as well as the significant
gaps in the Special Counsel’s investigation that contributed to the Special Counsel assessment that “[t]he evidence we obtained about the President’s actions and intent presents difficult issues that would need to be resolved if we were making a traditional prosecutorial
judgement.” Mueller Report at II-8. 1 Next reviewed
is Congress’s response to the release of the public redacted version of the Mueller Report and ensuing—and
ultimately unsuccessful—negotiations with DOJ to obtain the full Report and related investigative materials,
leading HJC to file the instant application, pursuant to
Federal Rule of Criminal Procedure 6(e)(3)(E)(i).
A.

The Special Counsel’s Investigation

On May 17, 2017, then-Deputy Attorney General
(“DAG”) Rod J. Rosenstein appointed Robert S. Mueller
III to serve as Special Counsel for DOJ “to investigate
Russian interference with the 2016 presidential election
and related matters.” U.S. Dep’t of Justice, Office of
the Deputy Attorney General, Order No. 3915-2017, Appointment of Special Counsel to Investigate Russian Interference with the 2016 Presidential Election and Related Matters (“Appointment Order”) (May 17, 2017)

As noted, the Mueller Report is in two volumes, with each volume re-starting the page numbering. Thus, citations to this report use a nomenclature indicating the page number in either Volume I or Volume II.
1

87a
(capitalization altered). 2 Prior to the Special Counsel’s
appointment, the Federal Bureau of Investigation (“FBI”)
had already initiated “an investigation into whether individuals associated with the Trump Campaign [had] coordinat[ed] with the Russian government” to interfere
in the 2016 presidential election. Mueller Report at I1. The order authorizing the Special Counsel’s appointment thus had the effect of transferring the ongoing
FBI investigation to his office. See Appointment Order ¶ b (authorizing the Special Counsel “to conduct the
investigation confirmed by then-FBI Director James B.
Comey in testimony before [Congress] on March 20,
2017”). The Special Counsel was also granted “jurisdiction to investigate matters that arose directly from
the FBI’s Russia investigation, including whether the
President had obstructed justice in connection with
Russia-related investigations” and “potentially obstructive acts related to the Special Counsel’s investigation
itself.” Mueller Report at II-1. Pursuant to this
grant of authority—and upon receiving evidence “relating to potential issues of obstruction of justice involving
the President”—the Special Counsel “determined that
there was a sufficient factual and legal basis to further
investigate . . . the President.” Id. at II-12.
In compliance with the DOJ regulations authorizing
his appointment, upon completion of his investigation
Then-Attorney General Jeff Sessions had recused himself “from
any existing or future investigations of any matters related in any
way to the campaigns for President of the United States,” Press
Release, U.S. Dep’t of Justice, Attorney General Sessions Statement of Recusal (Mar. 2, 2017), making the Deputy Attorney General the “Acting Attorney General, by operation of law” as to such
matters, In re Grand Jury Investigation, 315 F. Supp. 3d 602, 621
(D.D.C. 2018), aff ’d, 916 F.3d 1047 (D.C. Cir. 2019).
2

88a
the Special Counsel issued a confidential report to the
Attorney General “explaining the prosecution or declination decisions [he] reached.” Id. at I-1 (quoting
28 C.F.R § 600.8(c)). That Report laid out the Special
Counsel’s findings in two volumes, totaling 448 pages.
Both HJC and DOJ point to the contents of the Report
as highly relevant to resolving the current legal dispute.
Indeed, DOJ submitted the public redacted version of
the Mueller Report as exhibits to support its arguments.
See DOJ’s Resp., Exs. 8 (Volume I), 9 (Volume II), ECF
Nos. 20-8, 20-9. Therefore, a recounting of some of the
key events chronicled in and conclusions (or lack thereof )
reached by the Special Counsel in the Mueller Report is
in order.
Volume I of the Mueller Report “describe[s] the factual results of the Special Counsel’s investigation of
Russia’s interference in the 2016 presidential election.”
Mueller Report at I-2. The Special Counsel concluded
that “[t]he Russian government interfered in the 2016
presidential election in sweeping and systematic fashion,” “principally through two operations.” Id. at I-1.
“First, a Russian entity carried out a social media campaign that favored presidential candidate Donald J.
Trump and disparaged presidential candidate Hillary
Clinton. Second, a Russian intelligence service conducted computer-intrusion operations against entities,
employees, and volunteers working on the Clinton Campaign and then released stolen documents.” Id. Russia hacked and stole “hundreds of thousands of documents,” id. at I-4, from the Democratic National Committee, the Democratic Campaign Committee, and the
Clinton Campaign, and then disseminated those documents through fictitious online personas and through
the website WikiLeaks in order to influence the outcome

89a
of the 2016 presidential election.
58.

Id. at I-4, 38, 41, 48,

Volume I of the Mueller Report also details evidence
of “links between the Russian government and individuals associated with the Trump [2016 Presidential] Campaign.” Id. at I-2-3. According to the Special Counsel, “the [Trump] Campaign expected it would benefit
electorally from information stolen and released through
Russian efforts,” and the links between the Russian government and the Trump Campaign were “numerous.”
Id. at I-1-2. For instance, a meeting occurred on June
9, 2016 at Trump Tower in New York City, between a
Russian lawyer and senior Trump Campaign officials
Donald Trump Jr., Jared Kushner, and then-campaign
manager Paul Manafort, triggered by information provided to those campaign officials that the Russian lawyer would deliver “official documents and information
that would incriminate Hillary [Clinton].” Id. at I-6
(internal quotation marks omitted). Additionally, the
Mueller Report documents connections between Ukraine
and Manafort, who had previously “work[ed] for a proRussian regime in Ukraine.” Id. at I-129. Among
other things, the Special Counsel determined that “during the campaign” Manafort—through “Rick Gates, his
deputy on the Campaign”—“periodically sent” internal
Trump Campaign “polling data” to Konstantin Kilimnik,
Manafort’s long-time business associate in Ukraine with
alleged ties to Russian intelligence, with the expectation
that Kilimnik would “share that information with others
in Ukraine.” Id. The Mueller Report further recounts
evidence suggesting that then-candidate Trump may have
received advance information about Russia’s interference activities, stating:

90a
Manafort, for his part, told the Office that, shortly after WikiLeaks’s July 22 release, Manafort also spoke
with candidate Trump [redacted]. Manafort also
[redacted] wanted to be kept apprised of any developments with WikiLeaks and separately told Gates
to keep in touch [redacted] about future WikiLeaks
releases.
According to Gates, by the late summer of 2016,
the Trump campaign was planning a press strategy,
a communications campaign, and messaging based on
the possible release of Clinton emails by WikiLeaks.
[Redacted] while Trump and Gates were driving to
LaGuardia Airport. [Redacted], shortly after the call
candidate Trump told Gates that more releases of
damaging information would be coming.
Id. at I-53-54 (footnotes omitted) (redactions in original,
with citation in referenced footnote 206 redacted due to
grand jury secrecy).
The public version of Volume I contains over 240 redactions on the basis of grand jury secrecy. 3 These redactions occur in parts of the Mueller Report that
include discussion of the Trump Tower Meeting, then-

Redactions in the Mueller Report were not applied by the Special Counsel’s Office but “by Department of Justice attorneys working
closely together with attorneys from the Special Counsel’s Office,
as well as with the intelligence community, and prosecutors who
are handling ongoing cases.” William P. Barr, Attorney General,
Department of Justice, Attorney General William P. Barr Delivers
Remarks on the Release of the Report on the Investigation into
Russian Interference in the 2016 Presidential Election (Apr. 18,
2019), https://www.justice.gov/opa/speech/attorney-general-williamp-barr-delivers-remarks-release-report-investigation-russian.
3

91a
candidate Trump’s discussion with associates about releases of hacked documents, and Manafort’s contacts
with Kilimnik. See id. at I-54 & n.206, 111-12, 117, 120,
136-37, 140, 143.
Volume II of the Mueller Report summarizes the “obstruction investigation,” which “focused on a series of
actions by the President that related to the Russianinterference investigations, including the President’s conduct towards the law enforcement officials overseeing
the investigations and the witnesses to relevant events.”
Id. at II-3 (capitalization altered). The Special Counsel
determined that “the President of the United States
took a variety of actions towards the ongoing [Russiarelated investigations] . . . that raised questions
about whether he had obstructed justice.” Id. at II-1.
For example, in the summer of 2017 after news reports
about the Trump Tower Meeting, President Trump “directed aides not to publicly disclose the emails setting
up the June 9 meeting” and “edited a press statement
for Trump Jr.,” eliminating the portion “that acknowledged that the meeting was with ‘an individual who
[Trump Jr.] was told might have information helpful to
the campaign,’ ” even while President Trump’s personal
attorney “repeatedly denied the President had played
any role” in Trump Jr.’s statement. Id. at II-5 (alteration in original).
In another instance involving potential witness tampering, the Mueller Report examined the events leading
to former Trump Organization executive and attorney
Michael Cohen providing false testimony to Congress,
in 2017, about a deal to build a Trump Tower in Moscow,
Russia. Id. at II-6. While Cohen was preparing to

92a
give that false testimony the President’s personal counsel told Cohen, according to Cohen, that “Cohen should
‘stay on message’ and not contradict the President.”
Id. Then, in April 2018, after Cohen became the subject of a criminal investigation and the FBI had searched
Cohen’s home and office, the President stated publicly
“that Cohen would not ‘flip’ ” and “contacted [Cohen] directly to tell him to ‘stay strong,’” at the same time that
President Trump’s personal counsel “discussed pardons” with Cohen. Id.
As DOJ points out, DOJ Resp. at 32 n.19, the public
version of Volume II contains some, but far fewer, redactions on the basis of grand jury secrecy than does the
public version of Volume I. 4 Again, the Mueller Report
The reason for the fewer grand jury-related redactions in Volume II addressing “questions about whether [the President] had obstructed justice,” Mueller Report at II-1, becomes clear upon analysis. The introduction to this part of the Mueller Report provides
assurances that “we conducted a thorough factual investigation in
order to preserve the evidence when memories were fresh and documentary materials were available.” Id. at II-2. As the Mueller
Report highlights, “a President does not have immunity after he
leaves office,” and, quoting DOJ policy, the Report further observes
that “an immunity from prosecution for a sitting President would not
preclude such prosecution once the President’s term is over or he is
otherwise removed from office by resignation or impeachment.”
Id. at II-1 & n.4 (quoting A Sitting President’s Amenability to Indictment and Criminal Prosecution, 24 Op. O.L.C. 222, 255 (2000)
[hereinafter OLC Op.]). Yet, some individuals whose actions figure
prominently in incidents described in Volume II were never compelled to testify under oath before the grand jury to preserve their
testimony. For example, several witnesses, who simply declined to
speak to the Special Counsel, as is their right, were not pursued with
the tools available to prosecutors to gather material evidence in a
criminal investigation. Certain consequences flow from these prosecutorial choices—other than the obvious fact that the grand jury
4

93a
recounts an incident when then-candidate Trump spoke
to associates indicating that he may have had advance
knowledge of damaging leaks of documents illegally obtained through hacks by the Russians, stating “shortly
after WikiLeaks’s July 22, 2016 release of hacked documents, [Manafort] spoke to Trump [redacted]; Manafort
recalled that Trump responded that Manafort should
[redacted] keep Trump updated.
Deputy campaign
manager Rick Gates said that . . . Manafort instructed Gates [redacted] status updates on upcoming
releases.
Around the same time, Gates was with
Trump on a trip to an airport [redacted], and shortly after the call ended, Trump told Gates that more releases
of damaging information would be coming.” Id. at
II-18 (footnotes omitted) (redactions in original, with citation in footnote 27 redacted due to grand jury secrecy). In addition, a discussion related to the Trump
Tower Meeting contains two grand jury redactions:
“On July 12, 2017, the Special Counsel’s Office [redacted] Trump Jr. [redacted] related to the June 9 meeting and those who attended the June 9 meeting.” Id.
at II-105 (redactions in original).
was given no opportunity to consider this evidence—namely: the
testimony of these individuals is not formally preserved but also any
statements or documentary evidence that was obtained from these
individuals is not protected by grand jury secrecy. See In re Application of the Committee on the Judiciary, No. 19-gj-48, 2019 WL
5268929, at *1 (Oct. 17, 2019) (ordering DOJ to unseal improperly
redacted portion of declaration pertaining to “identities of individuals who did not testify before the grand jury”); DOJ’s’ Notice of
Compliance with Ord. of Oct. 17, 2019 (“DOJ Notice”), Ex. 10, Decl.
of Associate Deputy Attorney General (“ADAG”) Bradley Weinsheimer ¶ 4 (“Revised ADAG Decl.”), ECF No. 44-1 (revealing that
“Don McGahn did not testify before the grand jury” and “Donald
Trump, Jr. also did not testify before the grand jury”).

94a
The Mueller Report acknowledges investigative
“gaps” that were sufficiently significant that the Special
Counsel could not “rule out the possibility that the unavailable information would shed additional light on (or
cast in a new light) the events described in the report.”
Id. at I-10. Six “identified gaps” were that: (1) “[s]ome
individuals invoked their Fifth Amendment right against
compelled self-incrimination and were not, in the Office’s judgment, appropriate candidates for grants of immunity”; (2) “[s]ome of the information obtained . . .
was presumptively covered by legal privilege and was
screened from investigators”; (3) “other witnesses and
information—such as information known to attorneys or
individuals claiming to be members of the media”—were
not pursued “in light of internal Department of Justice
policies”; (4) “practical limits” prevented the gathering
of information and questioning of witnesses abroad; (5)
“[e]ven when individuals testified or agreed to be interviewed, they sometimes provided information that
was false or incomplete”; and (6) “some of the individuals we interviewed or whose conduct we investigated—
including some associated with the Trump Campaign—
deleted relevant communications or communicated during the relevant period using applications that feature
encryption or that do not provide for long-term retention of data or communications records.” Id. Consequently, the Mueller Report cautions that “[a] statement that the investigation did not establish particular
facts does not mean there was no evidence of those
facts.” Id. at I-2.
The Report acknowledges that these gaps adversely
affected the investigation and, in some instances, precluded the Special Counsel from reaching any conclu-

95a
sion about whether criminal conduct occurred. For example, evidence related to the President’s knowledge
about his personal attorney’s involvement in the preparation of Cohen’s false testimony to Congress was not
pursued. The Mueller Report states that “[t]he President’s personal counsel declined to provide us with his
account of his conversations with Cohen,” and “we did
not seek to obtain the contents of any . . . communications” between President Trump and his attorney during that time period. Id. at II-154. “The absence of
evidence about the President and his counsel’s conversations about the drafting of Cohen’s statement precludes us from assessing what, if any, role the President
played.” Id. In another example, the Special Counsel
examined the circumstances of a meeting held, during
the transition, on January 11, 2017, on the Seychelles Islands between Kirill Dmitriev, the chief executive officer of Russia’s sovereign wealth fund, and Erik Prince,
a businessman with close ties to Trump Campaign associates, including senior Trump advisor Steve Bannon.
See id. at I-7, 148. Prince said he discussed the meeting with Bannon in January 2017, but Bannon denied
this, and “[t]he conflicting accounts . . . could not be
independently clarified . . . because neither [Prince
nor Bannon] was able to produce any of the [text] messages they exchanged in the time period surrounding
the Seychelles meeting.” Id. at I-156. “Prince’s phone
contained no text messages prior to March 2017” and
“Bannon’s devices similarly contained no messages in

96a
the relevant time period,” and neither Prince nor Bannon could account for the absent messages. Id.; see
also id. at I-153-55 (extensive grand jury redactions). 5
Some areas of the report describing such gaps contain redactions of grand jury material. For example, in
describing the Trump Tower Meeting, the Mueller Report states: “The Office spoke to every participant [at
the Trump Tower Meeting] except [Natalia] Veselnitskaya and Trump, Jr., the latter of whom declined to be
voluntarily interviewed by the Office,” with the remainder of the sentence redacted for grand jury secrecy.
Id. at I-117. The Special Counsel declined to pursue
charges related to this meeting in part because “the Office did not obtain admissible evidence likely to meet the
government’s burden to prove beyond a reasonable
doubt that these individuals acted ‘willfully.’ ” Id. at
I-186. 6
5
Both Prince and Bannon testified before congressional committees. See Testimony of Erik Prince Before the H. Permanent Select
Comm. on Intelligence, 115th Cong. (Nov. 30, 2017), https://docs.
house.gov/meetings/IG/IG00/20171130/106661/HHRG-115-IG00Transcript-20171130.pdf; H. PERMANENT SELECT COMM. ON INTELLIGENCE, 115TH CONG., SCOPE OF INVESTIGATION, MINORITY
VIEWS at 11 (MARCH 26, 2018), https://perma.cc/D9HE-AFUH (reporting on Steve Bannon’s testimony).
6
Another example involves a July 2016 trip to Moscow by Carter
Page, then a Trump Campaign official, who gave a speech in Moscow
and represented in emails to other Campaign officials that he also
spoke with Russian government officials. Mueller Report at I-96,
I-98, I-101. Yet, “[t]he Office was unable to obtain additional evidence or testimony about who Page may have met or communicated
with in Moscow; thus, Page’s activities in Russia . . . were not
fully explained.” Id. at I-101. This same paragraph reporting this
gap in the evidence contains redacted references to grand jury material. See id.

97a
The Mueller Report also reveals the Special Counsel’s unsuccessful effort to speak directly with the President: “We also sought a voluntary interview with the
President. After more than a year of discussion, the
President declined to be interviewed,” which statement
is followed by two lines redacted for references to grand
jury material. Id. at II-13. Although “the President
did agree to answer written questions on certain Russiarelated topics, and he provided us with answers,” the
President refused “to provide written answers to questions on obstruction topics or questions on events during
the transition.” Id. The Special Counsel acknowledged “that we had the authority and legal justification
to issue a grand jury subpoena to obtain the President’s
testimony,” but “chose not to do so.” Id.; see also Mueller
Report App’x C (describing efforts to interview the
President in greater detail). When the Special Counsel
testified before Congress on July 24, 2019, he acknowledged that the President’s written responses to questions posed by the Special Counsel’s Office were “generally” not only “inadequate and incomplete,” but also
“showed that he wasn’t always being truthful.” HJC
App., Ex. W, Former Special Counsel Robert S. Mueller,
III on the Investigation into Russian Interference in
the 2016 Presidential Election: Hearing before the H.
Permanent Select Comm. on Intelligence, 116th Cong.
83 (July 24, 2019), ECF No. 1-24.
The Special Counsel’s investigation “did not establish
that members of the Trump Campaign conspired or coordinated with the Russian government in its election
interference activities.” Mueller Report at I-2. Nor
did the Special Counsel “make a traditional prosecutorial judgment” or otherwise “draw ultimate conclusions
about the President’s conduct.” Id. at II-8. At the

98a
same time, the Special Counsel stated that “if we had
confidence after a thorough investigation of the facts
that the President clearly did not commit obstruction of
justice, we would so state.” Id. at II-2. “[W]hile this
report does not conclude that the President committed
a crime, it also does not exonerate him.” Id.; see also
id. at II-8, II-182 (reiterating that Report “does not exonerate” President). “Given the role of the Special
Counsel as an attorney in the Department of Justice and
the framework of the Special Counsel regulations,” the
Special Counsel “accepted” the DOJ Office of Legal
Counsel’s (“OLC”) legal conclusion that “ ‘the indictment or criminal prosecution of a sitting President
would impermissibly undermine the capacity of the executive branch to perform its constitutionally assigned
functions’ in violation of ‘the constitutional separation of
powers.’ ” Id. at II-1 (citation omitted) (quoting OLC
Op. at 222, 260). This OLC legal conclusion has never
been adopted, sanctioned, or in any way approved by a
court.
At the same time, impeachment factored into this
analysis, as the Special Counsel also concluded “that
Congress may apply the obstruction laws to the President’s corrupt exercise of the powers of office [which]
accords with our constitutional system of checks and
balances and the principle that no person is above the
law.” Id. at II-8.
B.

Release of the Mueller Report

On March 22, 2019, Attorney General (“AG”) William
Barr, as required by 28 C.F.R. § 600.9(a)(3), notified the
Chairmen and Ranking Members of the United States
House and Senate Judiciary Committees, via a one-page

99a
letter, that the Special Counsel had completed his investigation. DOJ Resp., Ex. 1, Letter from William P.
Barr, Attorney Gen., Dep’t of Justice, to Lindsey Graham, Chairman, S. Comm. on the Judiciary, et al. (Mar.
22, 2019), ECF No. 20-1. AG Barr stated that he “intend[ed] to consult with Deputy Attorney General
Rosenstein and Special Counsel Mueller to determine
what other information from the report [could] be released to Congress and the public consistent with the
law,” and that he “remain[ed] committed to as much transparency as possible.” Id. Two days later, on March
24, 2019, AG Barr sent a second, four-page letter to the
Chairmen and Ranking Members of the United States
House and Senate Judiciary Committees, advising them
“of the principal conclusions reached by Special Counsel
Robert S. Mueller III,” and reiterating his “intent . . .
to release as much of the Special Counsel’s report as
[possible] consistent with applicable law,” noting that he
first needed to identify information “subject to Federal
Rule of Criminal Procedure 6(e),” as well as “information that could impact other ongoing matters.” DOJ
Resp., Ex. 2, Letter from William P. Barr, Attorney
Gen., Dep’t of Justice, to Lindsey Graham, Chairman,
S. Comm. on the Judiciary, et al. 1, 4 (Mar. 24, 2019),
ECF No. 20-2. 7
In his summary of the Mueller Report’s “principal conclusions,”
AG Barr stated that “[t]he Special Counsel’s investigation did not
find that the Trump campaign or anyone associated with it conspired or coordinated with Russia in its efforts to influence the 2016
U.S. presidential election,” Letter from William P. Barr to Lindsey
Graham, et al., supra, at 2 (Mar. 24, 2019), and that “[t]he Special
Counsel . . . did not draw a conclusion—one way or the other—
as to” whether the “actions by the President . . . that the Special Counsel investigated” “constituted obstruction,” id. at 3. AG
7

100a
The next day, March 25, 2019, the chairpersons of six
House committees (“House Committee Chairpersons”)
—including HJC Chairman Jerrold Nadler—responded
to AG Barr in a three-page letter. See HJC App., Ex.
C, Letter from Jerrold Nadler, Chairman, H. Comm. on
the Judiciary, et al., to William P. Barr, Attorney Gen.,
Dep’t of Justice (Mar. 25, 2019), ECF No. 1-4. Highlighting that each of their committees was “engaged in
oversight activities that go directly to the President’s
conduct, his attempts to interfere with federal and congressional investigations, his relationships and communications with the Russian government and other foreign powers, and/or other alleged instances of misconduct,” the House Committee Chairpersons “formally request[ed]” that AG Barr “release the Special Counsel’s
full report to Congress” and “begin transmitting the underlying evidence and materials to the relevant committees.” Id. at 1. This information, they explained, was
necessary “to perform their duties under the Constitution,” such as their duty to “make an independent assessment of the evidence regarding obstruction of justice.” Id. at 1, 2. 8
Barr determined that “[t]he Special Counsel’s decision to describe
the facts of his obstruction investigation without reaching any legal
conclusions” left it to him as the Attorney General “to determine
whether the conduct described in the report constitutes a crime,”
and he “concluded that the evidence developed during the Special
Counsel’s investigation is not sufficient to establish that the President committed an obstruction-of-justice offense.” Id.
8
On February 22, 2019—before the Mueller Report was submitted to AG Barr but when media reporting suggested that the Special
Counsel investigation was nearing its end—the House Committee
Chairpersons had submitted a similar request to AG Barr, noting
that “because the Department has taken the position that a sitting

101a
Four days later, on March 29, 2019, AG Barr responded to both the House Committee Chairpersons’
letter and a letter sent by Senate Judiciary Committee
(“SJC”) Chairman Lindsey Graham. See DOJ Resp.,
Ex. 3, Letter from William P. Barr, Attorney Gen., Dep’t
of Justice, to Lindsey Graham, Chairman, S. Comm. on
the Judiciary, and Jerrold Nadler, Chairman, H. Comm.
on the Judiciary (Mar. 29, 2019), ECF No. 20-3. AG
Barr reaffirmed that he was preparing the Report for
release, again noting that redactions would be required
to protect material that was subject to grand jury secrecy under Rule 6(e) and that could compromise sensitive
sources and methods, as well as to protect information
that could pose harm to other ongoing matters or was
related to the privacy and reputations of third parties.
Id. at 1.
The House Committee Chairpersons objected to AG
Barr’s proposed redactions. See HJC App., Ex. D,
Letter from Jerrold Nadler, Chairman, H. Comm. on
the Judiciary, et al., to William P. Barr, Attorney Gen,
Dep’t of Justice (Apr. 1, 2019), ECF No. 1-5. They observed that “[t]he allegations at the center of Special
Counsel Mueller’s investigation strike at the core of our
democracy,” such that “Congress urgently needs his
full, unredacted report and its underlying evidence in
order to fulfill its constitutional role.” Id. at 2; see also
id. App’x at 1 (stating that Congress has an “independent duty to investigate misconduct by the President”).
President is immune from indictment and prosecution, Congress
could be the only institution currently situated to act on evidence of
the President’s misconduct.” HJC App., Ex. B, Letter from Jerrold Nadler, Chairman, H. Comm. on the Judiciary, et al., to William
P. Barr, Attorney Gen., Dep’t of Justice 2 (Feb. 22, 2019), ECF No.
1-3 (footnote omitted).

102a
As to grand jury material, the House Committee Chairpersons proposed that DOJ “seek leave from the district
court to produce those materials to Congress—as it has
done in analogous situations in the past,” id. at 2, explaining that the material was needed because “[HJC] is
engaged in an ongoing investigation of whether the
President has undermined the rule of law, including by
compromising the integrity of the Justice Department,”
id. App’x at 2.
On April 18, 2019, AG Barr released the Mueller Report in redacted form to the Congress and the public.
See DOJ Resp., Ex. 4, Letter from William P. Barr, Attorney Gen., Dep’t of Justice, to Lindsey Graham, Chairman, S. Comm. on the Judiciary, et al. (Apr. 18, 2019),
ECF No. 20-4. AG Barr also promised to “make available” to SJC Chairman Graham, HJC Ranking Member
Dianne Feinstein, HJC Chairman Nadler, and HJC
Ranking Member Collins “a version of the report with
all redactions removed except those relating to grandjury information.” Id. at 4.
Not satisfied with the redacted version of the Mueller
Report, the next day HJC served a subpoena on AG Barr
requiring the production of three classes of documents:
(1) “[t]he complete and unredacted version of the [Mueller
Report],” including attachments; (2) “[a]ll documents
referenced in the Report”; and (3) “[a]ll documents obtained and investigative materials created by the Special Counsel’s office.” HJC App., Ex. G, Subpoena by
Authority of the H. of Representatives to William P.
Barr, Attorney Gen., Dep’t of Justice 3 (Apr. 19, 2019),
ECF No. 1-8.
DOJ has granted HJC access to “the entirety of Volume II, with only grand jury redactions” and did “the

103a
same with regard to Volume I” for “the Chairman and
Ranking Member from [HJC].” DOJ Resp. at 6 n.2.
DOJ has not, however, allowed HJC to review the portions of the Mueller Report redacted pursuant to Rule
6(e). See, e.g., HJC App., Ex. K, Letter from Stephen
E. Boyd, Assistant Attorney Gen., Dep’t of Justice, to
Jerrold Nadler, Chairman, H. Comm. on the Judiciary 4
(May 1, 2019), ECF No. 1-12 (stating that “Rule 6(e)
contains no exception that would permit the Department
to provide grand-jury information to the Committee in
connection with its oversight role”).
C.

The Instant Proceeding

On July 26, 2019, HJC submitted the instant application for an order pursuant to Federal Rule of Criminal
Procedure 6(e) authorizing the release to HJC of certain
grand jury materials related to the Special Counsel’s investigation. HJC App. HJC requests the release to
it of three categories of material:
1.

all portions of [the Mueller Report] that were redacted pursuant to Federal Rule of Criminal
Procedure 6(e);

2.

any underlying transcripts or exhibits referenced in the portions of the Mueller Report that
were redacted pursuant to Rule 6(e); and

3.

transcripts of any underlying grand jury testimony and any grand jury exhibits that relate directly to (A) President Trump’s knowledge of efforts by Russia to interfere in the 2016 U.S.
Presidential election; (B) President Trump’s
knowledge of any direct or indirect links or contacts between individuals associated with his
Presidential campaign and Russia, including

104a
with respect to Russia’s election interference efforts; (C) President Trump’s knowledge of any
potential criminal acts by him or any members
of his administration, his campaign, his personal
associates, or anyone associated with his administration or campaign; or (D) actions taken
by former White House Counsel Donald F.
McGahn II during the campaign, the transition, or
McGahn’s period of service as White House Counsel.”
Id. at 1-2.
After entry of a scheduling order in accord with the
dates proposed by the parties, see Min. Ord. (July 31,
2019), DOJ filed its response to HJC’s application on
September 13, 2019, maintaining that Rule 6(e) prohibits disclosure of the requested material to HJC, see DOJ
Resp., and HJC filed its reply on September 30, 2019,
see HJC’s Reply in Support of its App. for an Order Authorizing the Release of Certain Grand Jury Materials
(“HJC Reply”), ECF No. 33. 9 Following a hearing on
October 8, 2019, the parties provided supplemental submissions to address additional issues not covered by the

On August 30, 2019, the Constitutional Accountability Center
submitted an amicus brief in support of HJC’s application, see Br.
of Constitutional Accountability Ctr. as Amicus Curiae in Support
of HJC, ECF No. 16-1, and, on October 3, 2019, Representative
Doug Collins, HJC’s Ranking Member, submitted an amicus brief
urging denial of HJC’s application, see Mem. Amicus Curiae of
Ranking Member Doug Collins in Support of Denial (“Collins
Mem.”), ECF No. 35.
9

105a
initial briefing. See Min. Ord. (October 8, 2019). 10
matter is now ripe for resolution.
II.

This

LEGAL STANDARD

Under Rule 6(e) of the Federal Rules of Criminal
Procedure, disclosure of “a matter occurring before the
grand jury” is generally prohibited. FED. R. CRIM. P.
6(e)(2)(B). While witnesses are expressly exempted
from any “obligation of secrecy,” id. 6(e)(2)(A), the Rule
provides a list of seven categories of persons privy to
grand jury proceedings who must keep secret “[i]nformation . . . presented to the grand jury,” In re
Sealed Case No. 99-3091 (Office of Indep. Counsel Contempt Proceeding), 192 F.3d 995, 1002 (D.C. Cir. 1999)
(per curiam), including grand jurors, interpreters, court
reporters, operators of recording devices, persons who
transcribe recorded testimony, attorneys for the government, and certain other persons to whom authorized
disclosure is made, FED. R. CRIM. P. 6(e)(2)(B)(i)-(vii). 11
As part of this supplemental briefing, DOJ was directed to provide its reasoning for redacting from public view, as grand jury material, portions of a declaration submitted by DOJ in support of its
position that HJC’s application should be denied. See Min. Order
(Oct. 8, 2019). This Court determined that the declaration had been
improperly redacted and ordered DOJ to correct its error. In re Application of the Committee on the Judiciary, 2019 WL 5268929. DOJ
complied with that order on October 20, 2019. See DOJ Notice.
11
The definition of “a matter occurring before the grand jury” can
also encompass information “that would ‘tend to reveal some secret
aspect of the grand jury’s investigation, including” the “strategy” or
future “direction of the investigation,’ ” Bartko v. U.S. Dep’t of Justice, 898 F.3d 51, 73 (D.C. Cir. 2018) (quoting Hodge v. FBI, 703 F.3d
575, 580 (D.C. Cir. 2013)), but the D.C. Circuit has “cautioned . . .
about ‘the problematic nature of applying so broad a definition,’ ” see
In re Sealed Case No. 99-3091, 192 F.3d at 1001 (quoting In re Sealed
10

106a
Rule 6(e) also sets out exceptions to grand jury secrecy, some of which allow disclosure without any judicial involvement and others of which require either judicial notice or a court order. See FED. R. CRIM. P.
6(e)(3)(A)-(E). 12 The D.C. Circuit recently held, in
McKeever v. Barr, 920 F.3d 842 (D.C. Cir. 2019), reh’g
denied, Order, No. 17-5149 (D.C. Cir. July 22, 2019),
docketing petition for cert., No. 19-307 (U.S. Sept. 5,
2019), that the “text of the Rule” prevents disclosure of
a “ ‘matter appearing [sic] before the grand jury’ ” “ ‘unless these rules provide otherwise.’ ” Id. at 848 (quoting incorrectly FED. R. CRIM. P. 6(e)(2)(B)). 13 In the
Case No. 98-3077, 151 F.3d 1059, 1071 n.12 (D.C. Cir. 1998) (per curiam)).
12
For instance, under Rules 6(e)(3)(A)(ii) and 6(e)(3)(D), the government may disclose grand jury material in certain circumstances
without a court order but must provide notice of disclosure to the court
that impaneled the grand jury. See FED. R. CRIM. P. 6(e)(3)(B),
(D)(ii). In March 2016, this Court instituted a system for docketing
such notices received in this District, and since that time the government has submitted 783 notice letters. See In re Grand Jury Disclosures, 16-gj-1 (D.D.C. 2016) (184 notices); In re Grand Jury Disclosures, 17-gj-1 (D.D.C. 2017) (83 notices); In re Grand Jury Disclosures, 18-gj-1 (D.D.C. 2018) (244 notices); In re Grand Jury Disclosures, 19-gj-1 (D.D.C. 2019) (272 notices). This number undercounts the actual number of disclosures, given that a single notice
often advises that grand jury information has been shared with multiple persons and entities. Among these notices were sixteen instances when grand jury information was revealed to foreign governments. DOJ has represented that “[n]o grand jury information
collected from the Mueller investigation and protected from disclosure was shared with any foreign government pursuant to Rule
6(e)(3)(D).” DOJ’s Supplemental Submission in Resp. to Min. Ord.
of Oct. 8, 2019 (“DOJ Second Supp.”) at 2, ECF No. 40.
13
The D.C. Circuit’s narrow textual reading of Rule 6(e) is based
on the subsection in the Rule that secrecy is required “[u]nless these

107a
D.C. Circuit’s binding view, “deviations from the detailed list of exceptions in Rule 6(e) are not permitted,”
id. at 846, and thus a “district court has no authority outside Rule 6(e) to disclose grand jury matter,” id. at 850. 14

rules provide otherwise.” FED. R. CRIM. P. 6(e)(2)(B) (emphasis
added). Yet, this subsection is difficult to reconcile with other statutory authorities that either require or permit disclosure of grand
jury matter in civil forfeiture, financial regulatory, special-grand
jury, and criminal defense contexts. See, e.g., 18 U.S.C. § 3322(a)
(allowing disclosure of grand jury information to “an attorney for the
government . . . for use in connection with any civil forfeiture
provision of federal law”); id. §§ 3322(a), (b)(1)(A) (authorizing disclosure of grand jury information to “an attorney for the government
for use in enforcing section 951 of the Financial Institutions Reform,
Recovery and Enforcement Act of 1989” and to federal and state financial institution regulatory agencies “for use in relation to any
matter within the jurisdiction of such regulatory agency” when the
relevant grand jury was investigating “a banking law violation”); id.
§§ 3333(a), (b) (permitting special grand juries to provide reports
that the impaneling court may make public); id. §§ 3500(b), (e)(3)
(requiring disclosure to criminal defendant of certain grand jury testimony of trial witnesses).
14
The D.C. Circuit in McKeever rejected the view articulated by
this Court and several Circuit Courts of Appeals that courts have
inherent authority to disclose grand jury material. See, e.g., In re
Application to Unseal Dockets Related to the Independent Counsel’s 1998 Investigation of President Clinton, 308 F. Supp. 3d 314,
324 (D.D.C. 2018) (Howell, C.J.), appeal docketed, No. 18-5142
(D.C. Cir. May 17, 2018); In re Petition of Kutler, 800 F. Supp. 2d
42, 47 (D.D.C. 2011) (Lamberth, C.J.); see also Carlson v. United
States, 837 F.3d 753, 766-67 (7th Cir. 2016); In re Craig, 131 F.3d
99, 103 (2d Cir. 1997); Pitch v. United States, 915 F.3d 704, 707
(11th Cir. 2019), rehearing en banc ordered and opinion vacated,
925 F.3d 1224 (11th Cir. 2019). HJC acknowledges this, conceding that “McKeever currently forecloses the Committee from prevailing before this Court on [an inherent-authority] argument,” but
nonetheless raises inherent authority as a basis for disclosure to

108a
III. DISCUSSION

HJC is “not requesting the entire grand jury record”
of the Special Counsel’s investigation. HJC Reply at
24. 15 Instead, HJC seeks only disclosure of the grand
jury information referenced in or underlying the Mueller
Report as well as grand jury information collected by
the Special Counsel relating to four categories of information pursuant to Rule 6(e)’s exception for disclosure
“preliminarily to or in connection with a judicial proceeding.” HJC App. at 26 (internal quotation marks
omitted) (quoting FED. R. CRIM. P. 6(e)(3)(E)(i)). Disclosure of grand jury information is proper under this
exception when three requirements are satisfied. The
person seeking disclosure must first identify a relevant
“judicial proceeding” within the meaning of Rule
6(e)(3)(E)(i); then, second, establish that the requested
disclosure is “preliminarily to” or “in connection with”
that proceeding; and, finally, show a “particularized need”
for the requested grand jury materials. See United
States v. Sells Eng’g, Inc., 463 U.S. 418, 443 (1983)
(“Rule 6(e)(3)([E])(i) simply authorizes a court to order

“preserve[] its argument” “[i]n the event McKeever is subject to
further review.” HJC App. at 40.
15
The entire grand jury record would be extensive since the Special Counsel’s investigation involved the execution of “nearly 500
search-and-seizure warrants,” issuance of “more than 230 orders for
communications records under 18 U.S.C. § 2703(d),” “almost 50 orders authorizing use of pen registers,” “13 requests to foreign governments pursuant to Mutual Legal Assistance Treaties,” and “more
than 2,800 subpoenas under the auspices of a grand jury sitting in
the District of Columbia,” and interviews of “approximately 500 witnesses,” “almost 80” of whom “testified before a grand jury.”
Mueller Report at I-13.

109a
disclosure ‘preliminarily to or in connection with a judicial proceeding.’ . . . We have consistently construed the Rule, however, to require a strong showing
of particularized need for grand jury materials before
any disclosure will be permitted.”); United States v.
Baggot, 463 U.S. 476, 480 (1983) (explaining that the
“preliminarily to or in connection with a judicial proceeding” and the “particularized need” requirements “are
independent prerequisites to ([E])(i) disclosure” (internal quotation marks omitted)).
As discussed more fully below, HJC has identified
the requisite “judicial proceeding” to be a possible Senate impeachment trial, which is an exercise of judicial
power the Constitution assigned to the Senate. See
U.S. CONST. art. I, § 3, cl. 6. HJC has demonstrated that
its current investigation is “preliminarily to” a Senate
impeachment trial, as measured—per binding Supreme
Court and D.C. Circuit precedent—by the “primary
purpose” of HJC’s requested disclosure to determine
whether to recommend articles of impeachment against
the President. This purpose has only been confirmed
by developments occurring since HJC initially submitted its application. Finally, HJC has further shown a
“particularized need” for the requested grand jury materials that outweighs any interest in continued secrecy.
See Douglas Oil Co. of Ca. v. Petrol Stops Nw., 441 U.S.
211, 222-23 (1979). The need for continued secrecy is
reduced, given that the Special Counsel’s grand jury investigation has ended, and is easily outweighed by
HJC’s compelling need for the grand jury material referenced and cited in the Mueller Report to conduct a ful-

110a
some inquiry, based on all relevant facts, into potentially
impeachable conduct by the President.
The three requirements for disclosure under Rule
6(e)(3)(E)(i) are addressed seriatim.
A.

Rule 6(e)’s “Judicial Proceeding” Requirement is
Satisfied Because an Impeachment Trial is Such
a Proceeding

HJC posits that an impeachment trial before the Senate is a “judicial proceeding,” and that Rule 6(e)’s “judicial proceeding” requirement is thus satisfied. HJC
App. at 28. 16 DOJ, for its part, rejects the proposition
that any congressional proceeding may qualify as a “judicial proceeding.” DOJ Resp. at 13 (“The plain meaning of ‘judicial proceeding’ does not include congres-

An impeachment inquiry in the House may itself constitute a
judicial proceeding. See, e.g., Marshall v. Gordon, 243 U.S. 521,
547 (1917) (characterizing instances when a “committee contemplat[es] impeachment” as times that congressional power is “transformed into judicial authority”); Kilbourn v. Thompson, 103 U.S.
(13 Otto) 168, 191 (1880) (explaining that the House “exercises the
judicial power . . . of preferring articles of impeachment”);
Trump v. Mazars USA, LLP, No. 19-5142, 2019 WL 5089748, at
*27 (D.C. Cir. Oct. 11, 2019) (Rao, J., dissenting) (explaining that
the House’s “power to investigate pursuant to impeachment . . .
has always been understood as a limited judicial power”). HJC’s
primary contention, however, is not that a House impeachment inquiry is a judicial proceeding, but that HJC’s current inquiry satisfies Rule 6(e) because that inquiry is “ ‘preliminar[y] to’ an impeachment trial.” HJC App. at 29 (alteration in original). As explained infra in Part III.B., HJC’s “preliminarily to” argument
succeeds, and, consequently, whether a House impeachment inquiry constitutes a “judicial proceeding” within the meaning of
Rule 6(e) need not be addressed.
16

111a
sional proceedings.”) (capitalization altered). This dispute thus presents the threshold issue of whether an impeachment trial in the Senate is a “judicial proceeding”
under Rule 6(e). Consideration of this issue requires
an understanding of (1) what the drafters of Rule 6(e)
meant by “judicial proceeding,” and (2) the precise nature of an impeachment trial. Both considerations are
informed by history and, contrary to DOJ’s position,
point to the same conclusion: an impeachment trial is,
in fact, a “judicial proceeding” under Rule 6(e), as binding D.C. Circuit precedent correctly dictates.
1.

The Term “Judicial Proceeding” in Rule 6(e) Has
a Broad Meaning

In the Rule 6(e) context, “[t]he term judicial proceeding has been given a broad interpretation by the courts.”
In re Sealed Motion, 880 F.2d 1367, 1379 (D.C. Cir.
1989) (per curiam). The D.C. Circuit has indicated that
“judicial proceeding” might “include[] every proceeding
of a judicial nature before a competent court or before a
tribunal or officer clothed with judicial or quasi judicial
powers.” Id. at 1380 (quoting Jones v. City of Greensboro, 277 S.E.2d 562, 571 (N.C. 1981), overruled in part
on other grounds by Fowler v. Valencourt, 435 S.E.2d
530 (N.C. 1993)); see also In re North, 16 F.3d 1234, 1244
(D.C. Cir. 1994) (quoting In re Sealed Motion, 880 F.2d
at 1380)); Haldeman v. Sirica, 501 F.2d 714, 717 (D.C.
Cir. 1974) (en banc) (MacKinnon, J, concurring in part
and dissenting in part) (describing Rule 6(e) judicial
proceeding as one “in which due process of law will be
available”); In re Grand Jury Investigation of Uranium
Indus. (In re Uranium Grand Jury), No. 78-mc-0173,
1979 WL 1661, at *6 (D.D.C. Aug. 21, 1979) (Bryant,

112a
C.J.) (noting that the “judicial proceeding” exception authorizes disclosure of grand jury materials to a “wide
variety of official bodies”). 17
In keeping with the term’s “broad meaning,” disclosure of grand jury materials has been judicially authorized under the “judicial proceeding” exception in an array of judicial and quasi-judicial contexts. Courts, for
instance, have determined that attorney disciplinary
proceedings are “judicial proceedings” because such a
proceeding is “designed in the public interest to preserve the good name and uprightness of the bar, made
up, as it is, of attorneys who are public officers.” Doe
v. Rosenberry, 255 F.2d 118, 120 (2d Cir. 1958); see also,
e.g., In re J. Ray McDermott & Co., 622 F.2d 166, 170
(5th Cir. 1980). Similarly, courts have permitted disclosure in connection with internal police disciplinary
DOJ relies on the definition first articulated by Judge Learned
Hand in Doe v. Rosenberry, 255 F.2d 118 (2d Cir. 1958). See DOJ
Resp. at 14-15. That definition provides: “[T]he term ‘judicial proceeding’ includes any proceeding determinable by a court, having for
its object the compliance of any person, subject to judicial control,
with standards imposed upon his conduct in the public interest, even
though such compliance is enforced without the procedure applicable to the punishment of crime.” Doe, 255 F.2d at 120. DOJ’s reliance on this definition is puzzling since courts—including the D.C.
Circuit—have consistently recognized that Judge Hand gave “judicial proceeding” “a broad interpretation,” In re Sealed Motion,
880 F.2d at 1379, and judges of this Court have already twice recognized that Judge Hand’s definition encompasses an impeachment
trial, see In re Report & Recommendation of June 5, 1972 Grand
Jury, 370 F. Supp. 1219, 1228-30 (D.D.C. 1974) (citing Doe); In re
Uranium Grand Jury, 1979 WL 1661, at *5-7 (citing Doe) (explaining that a Senate impeachment trial “presided over by the Chief Justice of the United States” is “very much a judicial proceeding,” id. at
*7).
17

113a
proceedings under the “judicial proceeding” exception.
See, e.g., In re Bullock, 103 F. Supp. 639, 641, 643 (D.D.C.
1952). The D.C. Circuit’s decisions are in accord.
The Circuit has held that the following proceedings are
eligible for disclosure under Rule 6(e): (1) “disciplinary proceedings of lawyers” conducted by “bar committees,” United States v. Bates, 627 F.2d 349, 351 (D.C.
Cir. 1980) (per curiam), (2) grand jury investigations
themselves, In re Grand Jury, 490 F.3d 978, 986 (D.C.
Cir. 2007) (per curiam), and (3) proceedings pursuant to
the now-expired Independent Counsel Act, 28 U.S.C.
§ 591 et seq. (1987), to determine what portions of an independent counsel report are appropriate for release,
see, e.g., In re Sealed Motion, 880 F.2d at 1380. Additionally, the D.C. Circuit has even indicated that parole
hearings might qualify. See In re Sealed Motion,
880 F.2d at 1380 n.16 (citing United States v. Shillitani,
345 F.2d 290, 293 (2d Cir. 1965), vacated on other
grounds, 384 U.S. 364 (1966)).
As these examples illustrate, the term “judicial proceeding” in Rule 6(e) does not refer exclusively to proceedings overseen by courts exercising the “judicial
Power of the United States” referred to in Article III of
the Constitution. U.S. CONST. art. III, § 1. Plainly,
proceedings in state courts are “judicial proceedings”
eligible for disclosure of grand jury information. See,
e.g., United States v. Colonial Chevrolet Corp., 629 F.2d
943, 947 & n.9 (4th Cir. 1980) (noting that the court “may
authorize disclosure under the circumstances detailed in
Rule 6(e)(3); in fact it has done so in many cases in support of proceedings in both federal and state judicial,
and even in state administrative, proceedings”) (citing
Doe, 255 F.2d 118; In re Disclosure of Testimony, Etc.,
580 F.2d 281 (8th Cir. 1978) (authorizing disclosure of

114a
federal grand jury material to municipality investigating judicial misconduct); In re 1979 Grand Jury Proceedings, 479 F. Supp. 93 (E.D.N.Y. 1979) (authorizing
disclosure of federal grand jury material regarding obstruction by municipal employees to municipality)); In
re Petition for Disclosure of Evidence Before Oct., 1959
Grand Jury, 184 F. Supp. 38, 41 (E.D. Va. 1960) (citing
Doe, 255 F.2d 118) (“We cannot agree with the United
States that this phrase refers only to a Federal proceeding.”).
Moreover, at the federal level, “the judicial power of
the United States is not limited to the judicial power defined under Article III.” Freytag v. Comm’r of Internal Revenue, 501 U.S. 868, 889 (1991) (citing Am. Ins.
Co. v. Canter, 26 U.S. (1 Pet.) 511, 546 (1828)). The
United States Tax Court, for example, “is not a part of
the Article III Judicial Branch,” and “its judges do not
exercise the ‘judicial Power of the United States’ under
Article III,” Kuretski v. Comm’r of Internal Revenue,
755 F.3d 929, 940 (D.C. Cir. 2014). Nevertheless, the Tax
Court “exercises a portion of the judicial power of the
United States,” Freytag, 501 U.S. at 891, and that judicial power has, in turn, been deemed sufficient to make
Tax Court proceedings “judicial proceedings” under
Rule 6(e), see In re Grand Jury Subpoenas Duces Tecum, 904 F.2d 466, 468 (8th Cir. 1990) (“[T]he tax court
redetermination hearing satisfies the judicial proceeding requirement.”); Patton v. Comm’r of Internal Revenue, 799 F.2d 166, 172 (5th Cir. 1986) (“Clearly a tax
court petition for redetermination is a ‘judicial proceeding’ within the meaning of Rule 6(e)(3)([E])(i).”); United
States v. Anderson, No. 05-cr-0066, 2008 WL 1744705, at
*2 (D.D.C. Apr. 16, 2008) (ordering that grand jury ma-

115a
terials be shared pursuant to Rule 6(e)(e)(E)(i) in connection with a “law suit . . . pending before the
United States Tax Court”); see also, e.g., In re Grand
Jury Proceedings, 62 F.3d 1175, 1180 (9th Cir. 1995) (indicating that disclosure in connection with tax court litigation would be permissible under Rule 6(e) “upon an
adequate showing” of need). 18 Accordingly, while judicial power of some kind may be necessary to make a proceeding “judicial” under Rule 6(e), the exercise of Article III judicial power is not required.
Notwithstanding the weight of these precedents,
DOJ maintains that an impeachment trial cannot be a
“judicial proceeding” under Rule 6(e) because the plain
and ordinary meaning of the term refers to “legal proceedings governed by law that take place in a judicial
forum before a judge or a magistrate.” DOJ Resp. at
2; see also id. at 13 (“By its plain terms, the phrase ‘judicial proceeding’ means a matter that transpires in
court before a neutral judge according to generalized legal rules.”).19 This plain-meaning argument ignores
Even the Supreme Court, in Baggot, recognized that Tax Court
proceedings are “judicial proceedings” under Rule 6(e). Although
purporting not to address “the knotty question of what, if any, sorts
of proceedings other than garden-variety civil actions or criminal
prosecutions might qualify as judicial proceedings under ([E])(i),”
463 U.S. at 479 n.2, the Court advised that the Seventh Circuit “correctly held” that “the IRS may seek ([E])(i) disclosure” when a “taxpayer ha[s] clearly expressed its intention to seek redetermination
of [a claimed tax] deficiency in the Tax Court” and “the Government’s primary purpose is . . . to defend the Tax Court litigation,” id. at 483.
19
DOJ also cites to the use of “judicial proceeding” in two other
subsections of Rule 6(e)—(e)(3)(F) and (e)(3)(G)—as generally referring to court proceedings, DOJ Resp. at 17, but this argument
18

116a
the broad interpretation given to the term “judicial proceeding” as used in Rule 6(e), see, e.g., In re Sealed Motion, 880 F.2d at 1379, and fails to grapple with the judicial nature of an impeachment trial, see infra Part
III.A.2. In any event, applying DOJ’s plain-meaning
construction and imposing a requirement that a “judge”
preside to qualify as a “judicial proceeding” would not
remove an impeachment trial from Rule 6(e)’s ambit
since the Chief Justice of the Supreme Court presides
over any Senate impeachment trial of the President.
U.S. CONST. art. I, § 3, cl. 6. 20 DOJ dismisses the Chief
Justice’s role in impeachment trials as “purely administrative, akin to a Parliamentarian,” whose decisions can
be overridden by a vote of the Senate. DOJ Resp. at
relies on one of the least probative statutory-interpretation presumptions. Although “[o]ne ordinarily assumes ‘that identical words
used in different parts of the same act are intended to have the same
meaning,’ ” “the presumption of consistent usage ‘readily yields’ to
context, and a statutory term . . . ‘may take on distinct characters from association with distinct statutory objects calling for different implementation strategies.’ ” Util. Air Regulatory Grp. v.
EPA, 573 U.S. 302, 319-20 (2014) (internal quotation marks omitted)
(quoting Envtl. Def. v. Duke Energy Corp., 549 U.S. 561, 574 (2007)).
Moreover, as HJC explains, subsection (e)(3)(F) may in fact cover a
Senate impeachment trial, and as to subsection (e)(3)(G), significant
textual differences distinguish this subsection from (e)(3)(E)(i).
See HJC Reply at 12-13. In any event, historical practice and binding precedent guide the proper construction of Rule 6(e)(3)(E)(i), no
matter the use of the term “judicial proceeding” in other parts of the
criminal procedure rules.
20
DOJ observes that impeachment trials of officials other than the
President are presided over by “the Vice President or whichever
Senator is presiding at that time,” rather than by the Chief Justice.
DOJ Resp. at 16. This constitutional quirk is irrelevant here since
the instant petition concerns the possible impeachment of the President.

117a
16. Even if true up to a point, the fact remains that the
Senate may grant the Chief Justice as significant a role
as it sees fit.
In sum, “judicial proceeding,” as used in Rule 6(e), is
a term with a broad meaning that includes far more than
just the prototypical judicial proceeding before an Article III judge.
2.

An Impeachment Trial is Judicial in Nature

DOJ flatly states that no congressional proceeding
can constitute a Rule 6(e) “judicial proceeding” because
“[t]he Constitution carefully separates congressional
impeachment proceedings from criminal judicial proceedings.” DOJ Resp. at 15. This stance, in service
of the obvious goal of blocking Congress from accessing
grand jury material for any purpose, overlooks that an
impeachment trial is an exercise of judicial power provided outside Article III and delegated to Congress in
Article I. 21 Contrary to DOJ’s position—and as historical practice, the Federalist Papers, the text of the Constitution, and Supreme Court precedent all make clear
—impeachment trials are judicial in nature and constitute judicial proceedings.
“The institution of impeachment is essentially a
growth deep rooted in the ashes of the past.” Wrisley
Brown, The Impeachment of the Federal Judiciary,
26 HARV. L. REV. 684, 685 (1913). It was “born of the
Although Representative Collins, like DOJ, supports denial of
HJC’s application, he “agrees with [HJC] that an impeachment inquiry . . . fall[s] under Federal Rule of Criminal Procedure
6(e)’s judicial proceeding exception because” an impeachment inquiry is “preliminary to a trial in the U.S. Senate.” Collins Mem.
at 1.
21

118a
parliamentary usage of England,” id., where “the barons reserved to Parliament the right of finally reviewing
the judgments’ [sic] of all the other courts of judicature.” Id. “[T]he assembled parliament . . . represent[ed] in that respect the judicial authority of the
king,” and “[w]hile this body enacted laws, it also rendered judgments in matters of private right.” Kilbourn v. Thompson, 103 U.S. (13 Otto) 168, 183 (1880);
see also Brown, supra, at 685. (explaining that “the
Parliament [was] the high court of the realm in fact as
well as in name”). “Upon the separation of the Lords
and Commons into two separate bodies . . . called
the House of Lords and the House of Commons, the judicial function of reviewing by appeal the decisions of
the courts of Westminster Hall passed to the House of
Lords.” Kilbourn, 103 U.S. (13 Otto) at 183-84. “To the
Commons,” however, “was left the power of impeachment, and, perhaps, others of a judicial character.” Id.
at 184. “And during the memorable epoch preluding
the dawn of American independence,” the English practice of impeachment, “though seldom put into application, was still in the flower of its usefulness.” Brown,
supra, at 687.
During the drafting of the Constitution, this English
history informed how the Framers approached impeachment, and examination of pertinent Federalist Papers confirms that they viewed the impeachment power
as judicial. See THE FEDERALIST NO. 65, at 397 (Alexander Hamilton) (Clinton Rossiter ed., 1961) (explaining
that impeachment in the United States was “borrowed”
from the “model” “[i]n Great Britain”). Alexander
Hamilton’s writings in Federalist Nos. 65 and 66 are illustrative. The preceding Federalist Nos. 62, 63, and

119a
64 had discussed most of the powers that the new Constitution granted to the Senate. See THE FEDERALIST
NOS. 62-63 (probably James Madison), NO. 64 (John
Jay). The only “remaining powers” to be discussed
were those “comprised in [the Senate’s] participation
with the executive in the appointment to offices, and in
[the Senate’s] judicial character,” and Hamilton accordingly used Federalist Nos. 65 and 66 to “conclude” the
discussion of the Senate “with a view of the judicial character of the Senate” “as a court for the trial of impeachments.” THE FEDERALIST NO. 65, supra, at 396 (Alexander Hamilton).
As Hamilton’s thinking on the subject of impeachment demonstrates, his choice of the words “judicial”
and “court for the trial of impeachments” was purposeful. See Nixon v. United States, 938 F.2d 239, 260
(D.C. Cir. 1991) (Randolph, J., concurring) (“The inference that the framers intended impeachment trials to be
roughly akin to criminal trials is reinforced by seemingly unrefuted statements made by Alexander Hamilton during the ratification debates.”), aff ’d, 506 U.S. 224
(1993). 22 For instance, Hamilton described the appointment of officers—which is an executive function—and
Indeed, Hamilton’s discussion of the Senate’s impeachment
power in Federalist Nos. 65 and 66, uses such judicial terms repeatedly and consistently. Hamilton referred to the “court,” the “court
of impeachments,” and the “court for the trial of impeachments” a
total of seventeen times. THE FEDERALIST NOS. 65-66, supra, at
396-407 (Alexander Hamilton). Moreover, when referring to impeachment, Hamilton also used the following additional terms associated with the judicial nature of the proceeding: “jurisdiction” once;
“offense(s)” or “offender” five times; “prosecution” or “prosecutors”
three times; “accused,” “accusers,” “accusation,” or “accusing” nine
times; “case(s)” five times; “decision,” “decide,” or “deciding” eight
22

120a
impeachment, as powers given to the Senate “in a distinct capacity” from all of the Senate’s other powers.
THE FEDERALIST NO. 65, supra, at 396. By citing those
two powers in particular and separating them from all
others bestowed on the Senate, he thus conveyed that
those powers were, unlike those that came before, not
legislative. Additionally, when Hamilton considered
potential alternative “tribunal[s],” id. at 398, that might
be granted the power of trying impeachments, he considered the primary alternatives to be assignment of
the power directly to the Supreme Court alone, id., or
assignment to the “Supreme Court with the Senate,”
id. at 399, underscoring the judicial nature of the
impeachment-trial power.
Most importantly, when Hamilton addressed the objection that making the Senate the “court of impeachments” “confound[ed] legislative and judiciary authorities in the same body,” he accepted the premise that
granting the Senate the power to try impeachments produced an “intermixture” of “legislative and judiciary authorities.” THE FEDERALIST NO. 66, supra, at 401; see
also THE FEDERALIST NO. 81, supra, at 482 (Alexander
Hamilton) (noting that there are “men who object to the
Senate as a court of impeachments, on the ground of an
improper intermixture of powers”). Such “partial intermixture,” he argued, is “not only proper but necessary to the mutual defense of the several members of the
times; “innocence” or “innocent” three times; “guilt” or “guilty” five
times; “inquest,” “inquisitors,” or “inquiry” four times; “tribunal”
twice; “judges” or “judging” ten times; “sentence” or “sentenced,” including “sentence of the law,” five times; “party” once; “punishment”
or “punish” seven times; “conviction” once; “trial” or “try” four times,
not counting instances of “courts for the trial of impeachments”; “verdict(s)” twice; “liable” once; and “charges” once. Id.

121a
government against each other.” THE FEDERALIST
NO. 66, supra, at 401-02. He pointed out that many
states at the time combined legislative and judicial functions: the New York constitution made the New York
Senate, “together with the chancellor and judges of the
Supreme Court, not only a court of impeachments, but
the highest judicatory in the State, in all causes, civil and
criminal,” id. at 402; in New Jersey, “the final judiciary
authority [was] in a branch of the legislature,” id. at 402
n.*; and “[i]n New Hampshire, Massachusetts, Pennsylvania, and South Carolina, one branch of the legislature
[was] the court for the trial of impeachments,” id.
These Federalist Papers leave no doubt that the power
to try impeachments was, in Hamilton’s view, inherently
judicial. See Nixon, 938 F.2d at 261 (Randolph, J., concurring) (“From all of [Hamilton’s] statements, it can be
reasonably inferred that the framers intended that the
Senate would approach its duty of trying impeachments
with the solemnity and impartiality befitting judicial action. . . . ”).
Hamilton was not the only Founder who conceived of
the impeachment power as inherently judicial. Notably, James Madison shared Hamilton’s view. In Federalist No. 38, Madison, like Hamilton, noted that a principle objection to the Constitution was “the trial of impeachments by the Senate, . . . when this power so
evidently belonged to the judiciary department.” THE
FEDERALIST NO. 38, supra, at 236 (James Madison).
Then, in Federalist No. 47, Madison defended this mixing of powers. In the British system, Madison pointed
out, “the legislative, executive, and judiciary departments are by no means totally separate and distinct
from each other” because, inter alia, “[o]ne branch of
the legislative department . . . is the sole depositary

122a
of judicial power in cases of impeachment.” THE FEDERALIST N O. 47, supra, at 302 (James Madison) (spelling

irregularity in original). Such mixing, he pointed out,
occurred in the states as well, such as in New Hampshire, where “[t]he Senate, which is a branch of the legislative department, is also a judicial tribunal for the
trial of impeachments,” and in Massachusetts, where
“the Senate, which is a part of the legislature, is a court
of impeachment,” notwithstanding a declaration in the
state’s constitution “ ‘that the legislative department
shall never exercise the . . . judicial powers.’ ” Id.
at 304-05 (citing also to the “court for the trial of impeachments” in New York “consist[ing] of one branch of
the legislature and the principal members of the judiciary department,” id. at 305, and to the “court of impeachments” in Delaware, “form[ed]” by “one branch of
the [legislative department],” id. at 306)).
Hamilton and Madison’s view is confirmed by the text
of the Constitution. By making the Senate the “court
of impeachments,” id. at 306; THE FEDERALIST NO. 65,
supra, at 398 (Alexander Hamilton), the Framers tasked
the Senate with a judicial assignment. Article I uses
judicial terms to refer to impeachment trials in three
separate instances in the sixth clause of its third section,
stating that the Senate is granted “the sole Power to try
all Impeachments”; “[w]hen the President of the United
States is tried, the Chief Justice shall preside”; “[a]nd
no person shall be convicted without the Concurrence of
two thirds of the Members present.” U.S. CONST. art.
I, § 3, cl. 6 (emphases added). The next clause continues the theme: “Judgment in Cases of Impeachment
shall not extend further than to removal from Office, and
disqualification to hold and enjoy any Office . . . :
but the Party convicted shall nevertheless be liable and

123a
subject to [criminal prosecution].” Id. cl. 7 (emphases
added). Article II, meanwhile, prevents the President’s power to pardon from extending to “Cases of Impeachment,” id. art. II, § 2, cl. 1 (emphasis added), and
allows for removal of the President “on Impeachment
for, and Conviction of, Treason, Bribery, or other high
Crimes and Misdemeanors.” Id. § 4 (emphases added).
Finally, even Article III—despite being the article devoted to the “judicial” branch—reveals that when it comes
to impeachment, the Senate takes on a judicial character, for Article III requires that “[t]he Trial of all
Crimes, except in Cases of Impeachment, shall be by
Jury.” Id. art. III, § 2, cl. 3 (emphases added).
These words employed in the Constitution to describe the Senate’s role—“trial,” “convict,” “judgment,”
“case,” “crime,” and “misdemeanor”—are inherently judicial. Any layperson asked whether a constitutionally
prescribed “trial” of a “case” in order to reach a “judgment” as to whether a person should be “convicted” of a
“crime” or “misdemeanor,” is judicial in character, would
invariably answer yes—and rightly so. Cf. Mazars,
2019 WL 5089748, at *32 (Rao, J., dissenting) (“Article I
makes clear that in this [impeachment] role, the Senate
acts as a court trying impeachable offenses and renders
judgment. . . . ”); id. at *50 (“Senate trials of impeachment are an exercise of judicial power. . . . ”).
Black’s Law Dictionary confirms this intuition.
“Trial” means “[a] formal judicial examination of evidence and determination of legal claims in an adversary
proceeding.” Trial, BLACK’ S LAW DICTIONARY (11th
ed. 2019) [hereinafter BLACK’ S]. “Convict” means “[t]o
prove or officially announce (a criminal defendant) to be
guilty of a crime after proceedings in a law court; specif.,

124a
to find (a person) guilty of a criminal offense upon a
criminal trial, a plea of guilty, or a plea of nolo contendere (no contest).” Convict, BLACK’S. “Judgment”
can mean either “mental faculty” or “[a] court’s final determination of the rights and obligations of the parties
in a case” (or, in English law, “[a]n opinion delivered by
a member of the appellate committee of the House of
Lords; a Law Lord’s judicial opinion”), Judgment,
BLACK’ S—and in the context of other words like “trial”
and “convict,” the noscitur a sociis canon counsels
against adopting the first definition, see Yates v. United
States, 135 S. Ct. 1074, 1085 (2015) (plurality) (explaining that noscitur a sociis means that “a word is known
by the company it keeps”). “Case” means, as relevant
here, “[a] civil or criminal proceeding, action, suit, or
controversy at law or in equity” or “[a]n instance, occurrence, or situation” —again, noscitur a sociis pushes
strongly in favor of relying on the first definition here.
Finally, “crime” means “[a]n act that the law makes punishable; the breach of a legal duty treated as the subjectmatter of a criminal proceeding,” Crime, BLACK’S, and
“misdemeanor” means “[a] crime that is less serious
than a felony and is usu. punishable by fine, penalty, forfeiture, or confinement (usu. for a brief term) in a place
other than prison (such as a county jail).” Misdemeanor, BLACK’S. 23 As these dictionary definitions
demonstrate, at every turn the Constitution uses words

The variation “high crime” similarly means “[a] crime that is
very serious, though not necessarily a felony,” Crime, BLACK’S, and
“high misdemeanor” historically meant in English law “[a] crime
that ranked just below treason in seriousness,” Misdemeanor,
BLACK’S.
23

125a
that mark the judicial nature of the Senate’s power to
try impeachments.
Not surprisingly, therefore, the Supreme Court has
confirmed, on at least three separate occasions, that the
Senate’s power to try impeachments is judicial. First,
in Hayburn’s Case, 2 U.S. (2 Dall.) 408 (1792), the Court
quoted a letter from “[t]he circuit court for the district
of North Carolina (consisting of Iredell, Justice, and Sitgreaves, District Judge)” observing that “no judicial
power of any kind appears to be vested [in the legislature], but the important one relative to impeachments.”
Id. at 410 n.* (capitalization altered). Second, in Kilbourn, the Court explained that “[t]he Senate . . .
exercises the judicial power of trying impeachments.”
103 U.S. (13 Otto) at 191. Third, in Marshall v. Gordon, 243 U.S. 521 (1917), the Court noted that congressional contempt power can be “transformed into judicial
authority” when a “committee contemplat[es] impeachment.” Id. at 547.
As the foregoing demonstrates, impeachment trials
are judicial in nature, notwithstanding the Founders’
decision to make the Senate the “court of impeachments.” As Chief Justice Rehnquist stated, in considering a Senator’s objection to House Managers’ “referring to the Senate sitting as triers in a trial of the impeachment of the President of the United States,” 145
Cong. Rec. S279 (statement of Sen. Harkin), “the objection . . . is well taken, that the Senate is not simply a
jury; it is a court in this case,” id. (statement of Chief
Justice Rehnquist). “Therefore,” Chief Justice Rehnquist continued, “counsel should refrain from referring
to the Senators as jurors.” Id. The views of the Sen-

126a
ators participating in the last impeachment trial of a sitting President confirm their understanding of their judicial role. See id. at S1584 (statement of Sen. Leahy)
(noting that when “Senate is the court,” “Senators are
not merely serving as petit jurors” but “have a greater
role and a greater responsibility in this trial”); id. at
S1599 (statement of Sen. Stevens) (noting that “an impeachment trial is no ordinary proceeding” and that
Senators “sit as judge and jury—rulers on law and triers
of fact”); id. at S1602 (statement of Sen. Lieberman)
(noting that impeachment “is unique in that it is a hybrid
of the legislative and the judicial, the political and the
legal” (quoting Senate Rules and Precedents Applicable
to Impeachment Trials: Executive Session Hearing
Before the S. Comm. on Rules and Administration,
93rd Cong. 193 (1974) (statement of Sen. Mansfield)); id.
at S1618 (statement of Sen. Crapo) (“As each Senator
took the oath to provide impartial justice, . . . [n]o
longer was the Senate a legislative body, it was a court
of impeachment. A unique court, to be sure, not identical to traditional civil and criminal courts, but a court
nonetheless.”).
This further supports the conclusion that an impeachment trial constitutes “a judicial proceeding” under Rule 6(e)(3)(E)(i). 24

This analysis disposes of DOJ’s argument that an impeachment
trial is not judicial in nature because impeachment proceedings “are
political.” DOJ Resp. at 16. While the House “has substantial discretion to define and pursue charges of impeachment,” Mazars, 2019
WL 5089748, at *28 (Rao, J., dissenting), the Constitution nevertheless “limits the scope of impeachable offenses,” id. at *50 (citing U.S.
CONST. art. II, § 4); see id. at *32 (“[I]mpeachment addresses a public official’s wrongdoing—treason, bribery, and high crimes or
24

127a
3.

Historical Practice Before Enactment of Rule
6(e) Informs Interpretation of that Rule

Historical practice confirms that, contrary to DOJ’s
position, Rule 6(e) does not bar disclosure of grand jury
information to Congress. Indeed, grand jury investigations have prompted and informed congressional investigations, and Rule 6(e) was meant to codify this
practice.
Several examples illustrate that Congress was afforded access to grand jury material prior to the enactment of Rule 6(e) in 1946. In 1902, a House committee
investigated allegations of election fraud in St. Louis,
Missouri, based on “a report of a grand jury which sat
in St. Louis” that a city police board in the district apparently had assisted with the election fraud. 2 Asher
misdemeanors—while problems of general maladministration are
left to the political process.”); see also 3 Lewis Deschler, Deschler’s
Precedents of the House of Representatives Ch. 14 App’x [hereinafter Deschler] (“The impeachment of President Andrew Johnson
. . . rested on allegations that he had exceeded the power of his
office and had failed to respect the prerogatives of Congress.”).
Thus Hamilton, for instance, viewed an impeachment trial’s character as judicial even while he viewed impeachment offenses as “of a
nature which may with peculiar propriety be denominated POLITICAL.” THE FEDERALIST NO. 65 (emphasis in original). Further,
while Members of the U.S. Senate are politically accountable, this
accountability merely ensures that Senators properly exercise their
judicial power to try impeachments. See MICHAEL J. GERHARDT,
THE FEDERAL IMPEACHMENT PROCESS: A CONSTITUTIONAL AND
HISTORICAL ANALYSIS 110 (1996) (“[M]embers of Congress seeking
reelection have a political incentive to avoid any abuse of the impeachment power. . . . [T]he cumbersome nature of the impeachment process makes it difficult for a faction guided by base
personal or partisan motives to impeach and remove someone from
office.”).

128a
C. Hinds, Hinds’ Precedents of the House of Representatives Ch. 40 § 1123 [hereinafter Hinds]. 25 Twenty
years later, in 1924, the Senate launched an investigation of a Senator who had been indicted by a grand jury.
6 Cannon Ch. 188 § 399. Seeking to ensure that the
congressional investigation had access to all information
relevant to the allegations, the chairman of the investigating committee “sen[t] a telegram to the presiding
judge . . . asking for the minutes of the grand jury
proceedings, the names of the witnesses, and the documentary evidence which had gone before the grand
jury,” and subsequently received what he requested.
Id. (indicating that “reply to the telegram” helped the
committee compile its list of witnesses, and that “[n]o

Even earlier, in 1811, the House received a “copy of a presentment against [territorial judge] Harry Toulmin, . . . made by
the grand jury of Baldwin County, specifying charges against the
said judge, which” “set in motion” a House “inquiry” “looking to the
impeachment” of Judge Toulmin. 3 Hinds Ch. 79 § 2488. Also, in
1921 a Senate committee confronted another allegation of election
fraud, and because the committee’s investigation post-dated a grand
jury inquiry, the Senate committee had access to “everything before
the grand jury which was deemed at all relevant,” because the material had been introduced at trial to HJC. 6 Clarence Cannon,
Cannon’s Precedents of the House of Representatives Ch. 159 § 74
[hereinafter Cannon]. In these instances, the grand jury information was presumably no longer secret, but Chief Judge Sirica nevertheless deemed the 1811 Judge Toulmin “precedent” to be “persuasive” when he ordered disclosure of the Watergate grand jury
report. See In re Report & Recommendation of June 6, 1972
Grand Jury (In re 1972 Grand Jury Report), 370 F. Supp. 1219, 1230
(D.D.C. 1974) (Sirica, C.J.) (“If indeed [Rule 6(e)] merely codifies
existing practice, there is convincing precedent to demonstrate that
common-law practice permits the disclosure here contemplated.”).
25

129a
evidence [was] left out of the [Senate committee] hearings”).
Again, in 1924, in response to a grand jury report
from the Northern District of Illinois implicating two
unnamed Members of the House in a matter involving
the payment of money, the House directed the Attorney
General to submit to it “the names of the two [Members]
and the nature of the charges made against them.” Id.
§ 402. The Attorney General objected to the request,
but only insofar as the request would lead to “two tribunals attempting to act upon the same facts and to hear
the same witnesses at the same time,” which would “result in confusion and embarrassment and . .
defeat
the ends of justice.” Id. Accordingly, the Attorney
General assured the House that if, “acting within its constitutional power (under Article I) to punish its Members for disorderly behavior or to expel such Member,
[the House] request[ed] that all the evidence now in the
possession of anyone connected with the Department of
Justice . . . be turned over to [it],” he would “direct all
such evidence, statements, and information obtainable
to be immediately turned over to [the House] or to such
committee as may be designated by the House.” Id.
In 1946, Rule 6(e) was enacted to codify current practice and not “to create new law.” In re 1972 Grand
Jury Report, 370 F. Supp. at 1229. As the Advisory
Committee Notes explain, Rule 6(e) “continues the traditional practice of secrecy on the part of members of
the grand jury, except when the court permits a disclosure.” FED. R. CRIM. P. 6(e) advisory committee’s note
1 (1944 adoption) (emphasis added); see also, e.g., Sells
Eng’g, Inc., 463 U.S. at 425 (noting that Rule 6(e) “codi-

130a
fie[d] the traditional rule of grand jury secrecy”); Haldeman, 501 F.2d at 716 (MacKinnon, J, concurring in
part and dissenting in part) (observing that Rule 6(e) “is
a codification of long-standing decisions that hold to the
‘indispensable secrecy of grand jury proceedings . . .
except where there is a compelling necessity’ ”) (omission in original) (quoting United States v. Procter &
Gamble Co., 356 U.S. 677, 683 (1958))). 26 The practice,
albeit fairly rare, of sharing grand jury information with
Congress at the time of Rule 6(e)’s enactment lends support to the conclusion that this rule, particularly the “judicial proceedings” exception, is correctly construed to
include impeachment trials.
This conclusion is bolstered by the fact that these historical examples share a common thread: allegations
of election fraud and punishment of Members of Congress. In these situations, as with cases of impeachment, Congress is acting more in a judicial rather than
a legislative capacity. As the Supreme Court explained
in Kilbourn, when the House “punish[es] its own members and determin[es] their election,” the House “partake[s]” in some “degree” of the “character” of a “court.”
103 U.S. (13 Otto) at 189; see also id. at 190 (“Each
House is by the Constitution made the judge of the election and qualification of its members. In deciding on
these it has an undoubted right to examine witnesses
and inspect papers, subject to the usual rights of witnesses in such cases; and it may be that a witness would
“In the absence of a clear legislative mandate, the Advisory
Committee Notes [to the Federal Rules of Criminal Procedure] provide a reliable source of insight into the meaning of a rule, especially
when, as here, the rule was enacted precisely as the Advisory Committee proposed.” United States v. Vonn, 535 U.S. 55, 64 n.6 (2002).
26

131a
be subject to like punishment at the hands of the body
engaged in trying a contested election, for refusing to
testify, that he would if the case were pending before a
court of judicature.” (emphases added)). Further,
the Supreme Court has stated that the Senate has “certain powers, which are not legislative, but judicial, in
character,” and that “[a]mong these is the power to
judge of the elections, returns, and qualifications of its
own members.” Barry v. United States ex rel. Cunningham, 279 U.S. 597, 613 (1929) (citing U.S. CONST.
art. I, § 5, cl. 1).
4.

Binding D.C. Circuit Precedent Forecloses Any
Conclusion Other Than That an Impeachment
Trial is a “Judicial Proceeding”

The D.C. Circuit has already expressly concluded at
least twice—in Haldeman v. Sirica and McKeever v.
Barr—that an impeachment trial is a “judicial proceeding” under Rule 6(e), and these decisions bind this
Court. See also In re Sealed Motion, 880 F.2d at 1380
n.16 (quoting approvingly a District of Kansas decision
noting that Haldeman decided “disclosure of grand jury
material to [a] House Committee considering impeachment” was made preliminarily to or in connection with a
judicial proceeding (quoting United States v. Tager, 506
F. Supp. 707, 719 (D. Kan. 1979)).
Forty-five years ago, Chief Judge John Joseph Sirica
ordered that the Watergate grand jury’s report on the
President’s conduct (“Watergate Roadmap”) be sent to
HJC, which was then engaged in an impeachmentrelated investigation of President Richard Nixon. See
In re 1972 Grand Jury Report, 370 F. Supp. 1219. In
ordering that disclosure, Chief Judge Sirica confronted

132a
the same issue currently pending in this case: Is an impeachment trial a “judicial proceeding” within the meaning of Rule 6(e)? See id. at 1227. Chief Judge Sirica
answered, emphatically, yes. “[I]t should not be forgotten,” he explained, “that we deal in a matter of the
most critical moment to the Nation, an impeachment investigation involving the President of the United
States.” Id. at 1230. “Certainly Rule 6(e) [could not]
be said to mandate” the withholding of such a report
from HJC. Id.
In Haldeman v. Sirica, the D.C. Circuit, sitting en
banc, reviewed Chief Judge Sirica’s decision. Two defendants facing charges arising from the same grand
jury investigation filed petitions for writs of prohibition
or mandamus, asserting that the release of the grand
jury’s Watergate Roadmap to HJC would adversely affect their right to a fair trial. Haldeman, 501 F.2d at
714-15. Notably, by contrast to its position in the instant case, DOJ filed a memorandum before the D.C.
Circuit supporting Chief Judge Sirica’s decision to release the grand jury report to HJC. Id. at 714.
The D.C. Circuit agreed with Chief Judge Sirica,
DOJ, and the grand jury, and thus allowed the disclosure of grand jury materials to HJC to occur. In so doing, the Circuit rejected the petitioners’ argument that
“the discretion ordinarily reposed in a trial court to
make such disclosure of grand jury proceedings as he
deems in the public interest is, by the terms of Rule 6(e)
of the Federal Rules of Criminal Procedure, limited to
circumstances incidental to judicial proceedings and
that impeachment does not fall into that category.” Id.
at 715. The Circuit determined that Rule 6(e) presented no obstacle to the disclosure that Chief Judge

133a
Sirica had ordered: “Judge Sirica has dealt at length
with this contention . . . in his filed opinion. We
are in general agreement with his handling of these matters, and we feel no necessity to expand his discussion.”
Id.
One judge—Judge MacKinnon—wrote separately in
Haldeman, agreeing that Rule 6(e)’s judicial proceeding
exception authorized the disclosure. See id. at 717
(MacKinnon, J., concurring in part and dissenting in
part). In fact, he pointed out that “[a]t oral argument
the prosecutor represented that this disclosure of the
grand jury material to the House Judiciary Committee
and eventually possibly to the House and Senate is being
made ‘preliminarily to (and) in connection with a judicial
proceeding,’ and explained that his “concurrence in the
release of the grand jury material ha[d] taken this representation into consideration.” Id. (quoting FED. R.
CRIM. P. 6(e)). For Judge MacKinnon, the problem
with Chief Judge Sirica’s decision was that it had not
gone far enough in disclosing grand jury material to
HJC. See id. at 716 (“I would . . . permit the
House Judiciary Committee . . . to have access not
only to the limited testimony accompanying the report
and index but to the entire grand jury proceedings under supervision of the court. . . . ”).
Haldeman has stood the test of time. Earlier this
year, in fact, the D.C. Circuit turned back to Haldeman
in McKeever. The primary issue in McKeever was
whether courts possess inherent authority to disclose
grand jury materials, and the Circuit answered that question in the negative. 920 F.3d at 850. The McKeever
dissent, though, argued that the majority’s decision conflicted with Haldeman. On the dissent’s reading, Chief

134a
Judge Sirica’s decision had been an exercise of inherent
authority, and Haldeman, in turn, “affirmed [Chief
Judge Sirica’s] understanding that a district court retains discretion to release grand jury materials outside
the Rule 6(e) exceptions.” Id. at 855 (Srinivasan, J.,
dissenting). 27 In response, the McKeever majority acknowledged “ambigu[ity]” in Haldeman’s reasoning,
but the majority opted to “read[] the case to cohere, rather than conflict, with the Supreme Court and D.C. Circuit precedents” that formed the basis for the McKeever
holding. Id. at 847 n.3 (majority opinion). Accordingly,
the Circuit “read Haldeman as did Judge MacKinnon in
his separate opinion concurring in part, as fitting within
the Rule 6 exception for ‘judicial proceedings.’ ” Id.
Together, Haldeman and McKeever hold that an impeachment trial is a “judicial proceeding” under Rule
6(e), and these decisions bind this Court. See Save Our
Cumberland Mountains, Inc. v. Hodel, 826 F.2d 43, 54
(D.C. Cir. 1987) (Ginsburg, Ruth B., J., concurring) (explaining that D.C. Circuit law is binding “unless and until overturned by the court en banc or by Higher Authority”), vacated in part on reh’g on other grounds, 857 F.2d
1516 (D.C. Cir. 1988) (en banc). These decisions alone
DOJ relies on a footnote from a prior decision of this Court, see
DOJ Resp. at 14-15 (quoting In re Application to Unseal Dockets
Related to the Independent Counsel’s 1998 Investigation of President Clinton, 308 F. Supp. 3d at 318 n.4), for a plain reading of the
term “judicial proceeding” as precluding application to a congressional proceeding, but the cited decision read Haldeman, like
Judge Srinivasan, as “allow[ing] for district court disclosures beyond Rule 6(e)’s exceptions,” Mckeever, 920 F.3d at 853 (Srinivasan, J., dissenting). The Mckeever panel majority read Haldeman
differently to include impeachment proceedings within the “judicial proceeding” exception, and that reading now controls.
27

135a
require ruling in HJC’s favor on the threshold requirement that an impeachment trial is a “judicial proceeding” within the meaning of Rule 6(e). Indeed, in addition to Chief Judge Sirica and the Haldeman Court,
every other court to have considered releasing grand
jury material to Congress in connection with an impeachment investigation has authorized such disclosure.
See Order, In Re: Grand Jury Investigation of U.S.
Dist. Judge G. Thomas Porteous, Jr., No. 2:09-mc04346-CVSG (E.D. La. Aug. 6, 2009), summarily aff ’d
sub nom. In Re Grand Jury Proceeding, No. 09-30737
(5th Cir. Nov. 12, 2009); In re Grand Jury Proceedings
of Grand Jury No. 81-1 (Miami), 669 F. Supp. 1072
(S.D. Fla. 1987), aff ’d sub nom. In re Request for Access to Grand Jury Materials (Hastings), 833 F.2d 1438
(11th Cir. 1987). 28
DOJ strains to distinguish Haldeman and McKeever
with arguments that are simply unpersuasive. As to
Haldeman, DOJ focuses on the procedural posture,
claiming that “[t]he only issue decided in that case was
whether the petitioners had shown that the district
court’s order was a ‘clear abuse of discretion or usurpation of judicial power’ from which the petitioners had a

DOJ describes as “telling[]” that “rulemakers did not include the
possibility that a congressional proceeding could constitute a judicial
proceeding, even though” the 1983 amendments to Rule 6(e)(3)(E)(i)
“post-dated Haldeman.” DOJ Resp. at 18 n.12. If any inference
can be gleaned from leaving the judicial proceeding exception unchanged, however, the correct inference is that Congress “adopted
the earlier judicial construction of th[e] phrase,” Helsinn Healthcare
S.A. v. Teva Pharm. USA, Inc., 139 S. Ct. 628, 633-34 (2019), namely:
that disclosure of grand jury material to Congress for an impeachment investigation was already authorized by this exception.
28

136a
clear and indisputable right to relief,” and thus “it is unsurprising that the D.C Circuit was able to deny the petition without engaging in any ‘meaningful analysis of
Rule 6(e)’s terms.’ ” DOJ Resp. at 3 (first quoting
Bankers Life & Cas. Co. v. Holland, 346 U.S. 379, 383
(1952); then quoting McKeever, 920 F.3d at 855 (Srinivasan, J., dissenting)); see Hr’g Tr. at 87:24-88:1 (“That
page-and-a-half decision talked about the standard of
review being the extraordinary writ of mandamus seven
times in the opinion. . . . ”). DOJ misreads Haldeman. When discussing Rule 6(e), the mandamus standard is not mentioned, although this standard comes up
repeatedly in other parts of the opinion. Instead, after
explaining that Chief Judge Sirica had “dealt at length”
with whether an impeachment trial is a judicial proceeding, the Haldeman Court expressed “general agreement with his handling of these matters.” 501 F.2d at
715. This “agreement” was so strong, in fact, that the
Haldeman majority felt “no necessity to expand [Chief
Judge Sirica’s] discussion,” id., “thereby subscrib[ing]
to Chief Judge Sirica’s rationale for his disclosure order,” McKeever, 920 F.3d at 854 (Srinivasan, J., dissenting) (describing Haldeman as having “ratified” Chief
Judge Sirica’s decision). 29 Notably, despite the affirming language in Haldeman, DOJ has gone so far as to
DOJ characterizes the Haldeman majority’s “general agreement” with Chief Judge Sirica’s reasoning as indicating merely
that the majority believed any error in Chief Judge Sirica’s analysis did not merit reversal in light of the deferential standard of review, DOJ Resp. at 21 (internal quotation marks omitted) (quoting
Haldeman, 501 F.2d at 715), but appellate courts are not coy about
acknowledging when decisions turn on standards of review, see,
e.g., Pallet Cos. v. NLRB, 634 Fed. App’x 800, 801 (D.C. Cir. 2015)
(per curiam) (“Particularly in light of our deferential standard of
29

137a
say here that Rule 6(e) did not in fact authorize the disclosure of the grand jury’s Watergate Roadmap, which
Chief Judge Sirica ordered disclosed to HJC during the
impeachment investigation of President Nixon. See
Hearing Tr. at 89:21-90:2.
DOJ also discounts McKeever’s analysis of Haldeman as mere dicta, contending that McKeever “did not
rule on the meaning of the term ‘judicial proceeding,’ ”
because “it was undisputed that the historical grand
jury information at issue fell entirely outside Rule 6(e).”
DOJ Resp. at 2. Again, DOJ is wrong. McKeever’s interpretation of Haldeman was “‘reasoning essential’ to
the Court’s holding.” Apprendi v. New Jersey, 530 U.S.
466, 488 n.14 (2000) (quoting id. at 536 (O’Connor, J., dissenting)). Haldeman after all, was an en banc decision.
If Haldeman had been decided on inherent authority
grounds, the McKeever panel would have had no choice
but to apply that precedent faithfully. The McKeever
panel recognized as much; indeed, this argument was the
sole subject of the dissent. See 920 F.3d at 847 n.3
(“[O]ur dissenting colleague cite[s] Haldeman . . . as
stepping outside the strict bounds of Rule 6(e).”); id. at
853-55 (Srinivasan, J., dissenting). Thus, when the
McKeever majority “read Haldeman as did Judge
MacKinnon in his separate opinion concurring in part, as

review, we have no basis to disturb that credibility judgment.”);
Judgment, Giron v. McFadden, 442 Fed. App’x 574, 575 (D.C. Cir.
2011) (“Particularly in light of the deferential standard of review, we
hold that the District Court did not abuse its discretion. . . . ”), rather than straightforward approval of the decision below. The
Haldeman Court did the latter.

138a
fitting within the Rule 6 exception for ‘judicial proceedings,” id. at 847 n.3 (majority opinion), the majority made
that interpretation the binding law in this Circuit. 30
When queried about reconciling DOJ’s current position with its
historical support of providing grand jury materials to Congress for
use in impeachment inquiries, DOJ responded that its position has
“evolved.” Hr’g Tr. at 85:24. No matter how glibly presented, however, an “evolved” legal position may be estopped. “[W]here a party
assumes a certain position in a legal proceeding, and succeeds in
maintaining that position, he may not thereafter, simply because his
interests have changed, assume a contrary position. . . . ” New
Hampshire v. Maine, 532 U.S. 742, 749 (2001) (alteration in original)
(internal quotation mark omitted) (quoting Davis v. Wakelee, 156 U.S.
680, 689 (1895)). This rule also applies when a party, including a
governmental entity, makes “a claim in a legal proceeding that is inconsistent with a claim taken by that party in a previous proceeding.” Id. at 749 (internal quotation mark omitted), see also id. at
755-56 (applying estoppel to a state government). Here, DOJ has
changed its longstanding position regarding whether impeachment
trials are “judicial proceedings” and whether Haldeman so held.
In Haldeman itself, the special prosecutor argued for disclosure of
the grand jury materials and “represented that this disclosure of
the grand jury material to the House Judiciary Committee and
eventually possibly to the House and Senate [was] being made ‘preliminarily to (and) in connection with a judicial proceeding.’ ”
Haldeman, 501 F.2d at 717 (MacKinnon, J. concurring in part and
dissenting in part) (quoting FED. R. CRIM. P. 6(e)). Similarly, when
grand jury material was released to HJC during the impeachments
of Judges Hastings and Porteous, DOJ raised no objections. See
Hastings, 833 F.2d at 1441-42 (“[T]he Department of Justice has
stated that it has ‘no objection’ to this disclosure to the Committee.”); Order, In Re: Grand Jury Investigation of U.S. Dist.
Judge G. Thomas Porteous, Jr., No. 2:09-mc-04346-CVSG, at 2
(“DOJ does not oppose the request.”). Most importantly, in
McKeever itself DOJ successfully argued—just last year—that the
D.C. Circuit has “treated Haldeman as standing only for the proposition that an impeachment proceeding may qualify as a ‘judicial
proceeding’ for purposes of Rule 6(e),” see Brief for Appellee at 37,
30

139a
Most troubling, DOJ’s proposed reading of “judicial
proceeding” raises constitutional concerns. DOJ policy is that a sitting President cannot be indicted, OLC
Op., which policy prompted the Special Counsel to abstain from “mak[ing] a traditional prosecutorial judgment” or otherwise “draw[ing] ultimate conclusions
about the President’s conduct.” Mueller Report at
II-8. This leaves the House as the only federal body
that can act on allegations of presidential misconduct.
Yet, under DOJ’s reading of Rule 6(e), the Executive
Branch would be empowered to wall off any evidence of
presidential misconduct from the House by placing that
evidence before a grand jury. Rule 6(e) must not be
read to impede the House from exercising its “sole
Power of Impeachment.” U.S. CONST. art. I, § 2, cl. 5;
cf. Trump v. Comm. on Oversight and Reform of U.S.
House of Representatives, 380 F. Supp. 3d 76, 95 (D.D.C.
2019) (“It is simply not fathomable that a Constitution
that grants Congress the power to remove a President
for reasons including criminal behavior would deny Congress the power to investigate him for unlawful conduct.
. . . ”), aff ’d sub nom. Trump v. Mazars USA, LLP,
No. 19-5142, 2019 WL 5089748 (D.C. Cir. 2019).
* * *
As the foregoing analysis shows, a Senate impeachment trial is a “judicial proceeding” within the meaning
of Rule 6(e). Quod erat demonstrandum.
McKeever, 920 F.3d 842 (No. 17-1549), and the D.C. Circuit agreed,
see McKeever, 920 F.3d at 847 n.3. DOJ’s position has had a
speedy evolution indeed. Nevertheless, since DOJ’s reading of
Haldeman and McKeever fails on the merits, further consideration
of whether DOJ’s new position is estopped is unnecessary.

140a
B.

HJC’s Consideration of Articles of Impeachment
is “Preliminarily To” an Impeachment Trial

Rule 6(e)(3)(E)(i)’s authorization of disclosure “preliminarily to or in connection with a judicial proceeding”
is “an affirmative limitation on the availability of courtordered disclosure of grand jury materials.” Baggot,
463 U.S. at 480. Thus, “[i]f the primary purpose of disclosure is not to assist in preparation or conduct of a judicial proceeding, disclosure under ([E])(i) is not permitted.” Id. For HJC’s current impeachment-related
proceedings to qualify as “preliminarily to . . . a judicial proceeding” and disclosure to be permissible, HJC
must be engaged in an investigation that is “related
fairly directly to” an “anticipated” impeachment trial.
Id. As explained in more detail below, the “primary purpose,” id., of HJC’s investigation is to determine whether
to recommend articles of impeachment and HJC therefore satisfies this prerequisite for disclosure.
1.

Governing Legal Principles Demonstrate That
House Proceedings Can be “Preliminarily To” a
Senate Impeachment Trial

The Supreme Court has addressed the issue of how
to apply Rule 6(e)’s “preliminarily to” requirement only
once, in Baggot.
There, the Court addressed two
situations—one that met the “preliminarily to” requirement, and one that did not. First, the Supreme Court
considered an Internal Revenue Service (“IRS”) “audit
of civil tax liability,” the purpose of which was “not to
prepare for or conduct litigation, but to assess the amount
of tax liability through administrative channels.” Id.
This failed the “preliminarily to” test because, even
“[a]ssuming arguendo that this audit will inevitably disclose a deficiency,” “[t]he IRS’s decision is largely self-

141a
executing, in the sense that it has independent legal
force of its own, without requiring prior validation or enforcement by a court.” Id. at 481. By contrast, the
Court discussed a second situation where “the IRS had
closed its audit and issued a notice of deficiency, and the
taxpayer had clearly expressed its intention to seek redetermination of the deficiency in the Tax Court.” Id.
at 483. In that second situation, the Supreme Court explained the Seventh Circuit “correctly held . . . that
the IRS may seek [Rule 6(e)(3)(E)(i)] disclosure” because “[i]n such a case, the Government’s primary purpose is plainly to use the materials sought to defend the
Tax Court litigation, rather than to conduct the administrative inquiry that preceded it.” Id. (citing In re
Grand Jury Proceedings (Miller Brewing Co.), 687 F.2d
1079 (7th Cir. 1982)).
Between these two situations, a myriad of alternative
circumstances is possible. The Supreme Court abstained, however, in footnote 6, from defining precisely
“the level of likelihood of litigation that must exist before an administrative action is preliminary to litigation.” Id. at 482 n.6. In so doing, the Court acknowledged, in practical terms, how investigations evolve to
reach the point of contemplating litigation, stating:
[a]s a general matter, many an investigation, begun
to determine whether there has been a violation of
law, reaches a tentative affirmative conclusion on
that question; at that point, the focus of the investigation commonly shifts to ascertaining the scope and
details of the violation and building a case in support
of any necessary enforcement action.
Id. (emphasis in original). Given these practical realities, the Court declined to specify “how firm the agency’s

142a
decision to litigate must be before its investigation can
be characterized as ‘preliminar[y] to a judicial proceeding,’ ” id. (alteration in original), noting that in the case
before it, the Court was confronted with a “clear” case
of the “IRS’s proposed use” being to “assess[] taxes rather than to prepare for or to conduct litigation,” id. at
483.
The D.C. Circuit similarly has had limited opportunity to consider application of the “preliminarily to”
requirement in Rule 6(e). Post-Baggot, the D.C. Circuit has made clear that “a party requesting grand jury
material must demonstrate that his ‘primary purpose’
for acquiring the material is preliminary to or in connection with a judicial proceeding.” In re Sealed Motion,
880 F.2d at 1379 n.15. 31 As suggested by Baggot’s footnote 6, the D.C. Circuit has further indicated that an investigation can be “preliminarily to” a judicial proceeding even though no litigation is actually pending but may
only be “possible.” In re Grand Jury, 490 F.3d at 986
(holding that grand jury investigation satisfies the “preliminarily to” test as “preliminary to a possible criminal
trial”).
DOJ actually makes little effort to dispute that if an
impeachment trial is a judicial proceeding, the House’s
At least two other circuits have reached the same conclusion.
See Patton v. C.I.R., 799 F.2d 166, 172 (5th Cir. 1986) (“In Baggot,
the Supreme Court observed that Rule [6(e)(3)(E)(i)] ‘contemplates
only uses related fairly directly to some identifiable litigation, pending
or anticipated,’ as measured by the ‘primary purpose of the disclosure.’ ” (quoting Baggot, 463 U.S. at 480)); In re Barker, 741 F.2d
250, 254 (9th Cir. 1984) (“Under Baggot, the proper inquiry is whether
the primary purpose of the disclosure is to assist in the preparation
or conduct of judicial proceedings.”).
31

143a
consideration of articles of impeachment is “preliminary
to” that proceeding at least in some circumstances.
DOJ Resp. at 26, n.15; see id. at 24-30. DOJ is wise not
to waste much energy on that argument. To the extent
the House’s role in the impeachment context is to investigate misconduct by the President and ascertain whether
that conduct amounts to an impeachable offense warranting removal from office, the House performs a function somewhat akin to a grand jury. See In re 1972
Grand Jury Report, 370 F. Supp. at 1230 (stating that
House “acts simply as [a] grand jury.”); 3 Hinds Ch. 72
§ 2343 (“The analogy between the function of the House
in this matter [referring to 1804 impeachment of Justice
Samuel Chase] and that of a grand jury was correct and
forcible.”); id. Ch. 54 § 1729 (explaining in the context of
an 1818 “inquiry into the conduct of clerks in the Executive Departments” “that the House was in the relation
of a grand jury, to the nation, and that it was the duty of
the House to examine into the conduct of public officers”); id. Ch. 79 § 2505 (explaining in 1873 during the
impeachment of Judge Delahay that “[t]he Senate is a
perpetual court of impeachment, and in presenting
these articles we act only as a grand jury”); Mazars,
2019 WL 5089748, at *32 (Rao, J., dissenting) (“In the
context of an impeachment inquiry, the House serves as
a kind of grand jury, investigating public officials for
misconduct.”); cf. Jefferson’s Manual of Parliamentary
Procedure § 615a (“Jefferson’s Manual”) (“[The English
House of Commons] have been generally and more justly
considered, as is before stated, as the grand jury.”). 32
The grand jury analogy is not perfect. See 145 Cong. Rec.
S1586 (1999) (statement of Sen. Leahy) (noting that the analogy between the House and a grand jury is “loose” (quoting Background
32

144a
Accordingly, just as a grand jury investigation is
“preliminary to a possible criminal trial,” In re Grand
Jury, 490 F.3d at 986, a House impeachment inquiry occurs preliminarily to a possible Senate impeachment
trial.
2.

HJC’s Primary Purpose is to Determine Whether
to Recommend Articles of Impeachment

HJC’s investigation is in fact “preliminarily to” an
impeachment trial because its primary purpose is to determine whether to recommend articles of impeachment. Before detailing how the record of House and
HJC impeachment activities verifies this primary purpose, DOJ’s and Representative Collins’ proposed criteria for meeting the “preliminarily to” test are considered and, due to their critical shortcomings, rejected.
a.

DOJ’s Proposed “Preliminarily To” Test is Contrary to Baggot

Despite the clarity with which the Supreme Court
“decline[d],” Baggot, 463 U.S. at 482 n.6, to draw the line
when an investigation becomes “preliminarily to . . .
a judicial proceeding,” DOJ relies heavily on Baggot to
contend that HJC’s inquiry fails to cross that line. See

and History of Impeachment: Hearing Before the Subcomm. On
the Constitution of the HJC, 105th Cong., XX S. Doc. 106-3 at 228
(statement of Laurence H. Tribe) (1998)). When the House decides
whether to impeach, it functions as more than a “mere ‘accuser.’ ”
Id. “The House’s constitutional responsibility for charging the President should not be misinterpreted to justify applying only a grand
jury’s ‘probable cause’ standard of proof.” Id. at S1587. Rather,
“House Members who vote to impeach should also be convinced th[e]
President has so abused the public trust and so threatens the public
that he should be removed.” Id.

145a
DOJ Resp. at 24-25. In this vein, DOJ construes Baggot as requiring HJC to show that its investigation
“must lead to referral of articles of impeachment to the
floor of the House,” id. at 25, and further that “referral
of articles of impeachment ‘must’ lead to a Senate trial,”
id. Short of those dual showings of action in the House
and in the Senate, DOJ posits that HJC’s investigation
amounts only to “[a] nonlitigative function,” id. at 27
(quoting Baggot, 463 U.S. at 483), with only a “tenuous”
connection to an impeachment trial, id. at 25, which is
“entirely hypothetical rather than ‘likely to emerge,’ ”
id. at 29 (quoting Baggot, 463 U.S. at 480)).
The line-drawing suggested by DOJ—requiring dual
showings of the House’s intention to pass articles of impeachment plus a guaranteed Senate impeachment trial
—ignores first the Supreme Court’s expressed appreciation that, even in the midst of an investigation, the focus can shift to “building a case” and then qualify as preliminarily to “any necessary enforcement action.” Baggot, 463 U.S. at 482 n.6. Nor is DOJ’s requirement of a
guarantee of a Senate impeachment trial grounded in
Baggot. Baggot made clear that the requisite judicial
proceeding need not be subject to initiation by the party
seeking disclosure or pending at the time of the requested grand jury disclosure; the proceeding need only
be “anticipated,” id. at 480, or “possible,” In re Grand
Jury, 490 F.3d at 986; see Baggot, 463 U.S. at 482-83
(“We also do not hold that . . . a private party who
anticipates a suit . . . may never obtain ([E])(i) disclosure of grand jury materials any time the initiative
for litigating lies elsewhere. Nor do we hold that such
a party must always await the actual commencement of
litigation before obtaining disclosure.”). Thus, DOJ’s

146a
proposed criteria to demonstrate a “primary purpose”
for an impeachment inquiry are rejected.
DOJ also reasons that HJC’s proceedings here are
not “preliminarily to” impeachment because “the Committee’s actions thus far . . . at most amount to an
exploratory inquiry where impeachment is one of many
possible outcomes.” DOJ Resp. at 24. 33 Even if DOJ
were correct that only some congressional committee investigations are “preliminarily to” an impeachment
trial, see In re Uranium Grand Jury, 1979 WL 1661, at
*7 (determining that Rule 6(e) is not satisfied where a
House committee “makes a somewhat vague assertion
that one of the reasons it needs to examine the transcripts is that it might result in its recommendation to
the House Judiciary Committee that impeachment proceedings be initiated”), DOJ is wrong in this instance, as
detailed infra in Part III.B.2.C.

Some of DOJ’s arguments regarding whether HJC meets the
“preliminarily to” test have been mooted due to developments in the
possible impeachment of President Trump since the pending application was filed. DOJ, for instance, initially argued that statements
by the Speaker and the House Majority Leader showed that “the
House Democratic caucus was ‘not even close’ to an ‘impeachment
inquiry.’ ” DOJ Resp. at 27 (quoting Rep. Nancy Pelosi (D-CA) Continues Resisting Impeachment Inquiry, CNN (June 11, 2019), http://
transcripts.cnn.com/TRANSCRIPTS/1906/11/cnr.04html). That may
have been true in June, but not now, after the Speaker herself announced in September that the full House is “moving forward with
an official impeachment inquiry.” Pelosi Remarks Announcing
Impeachment Inquiry (Sept. 24, 2019), https://perma.cc/6EQM-34PT
[hereinafter Pelosi Tr.].
33

147a
b.

No House “Impeachment Inquiry” Resolution is
Required

Relatedly, Representative Collins asserts that HJC’s
investigation cannot be “preliminarily to” an impeachment trial until the full House passes a resolution authorizing a “formal impeachment proceeding.” Collins
Mem. at 1. DOJ equivocates on this proposed bright line
test to meet the “preliminarily to” requirement, Hr’g Tr.
at 69:10-11, but seems to indicate that the House must go
at least that far, see DOJ Resp. at 28. Like all brightline rules, this “House resolution” test is appealing in
terms of being easy to apply. Yet, the reasoning supporting this proposed test is fatally flawed. The precedential support cited for the “House resolution” test is
cherry-picked and incomplete, and more significantly,
this test has no textual support in the U.S. Constitution,
the governing rules of the House, or Rule 6(e), as interpreted in binding decisions.
Turning first to the arguments that stem from precedent, DOJ and Representative Collins state that the
“impeachments of Presidents Clinton and Andrew Johnson were investigated in multiple phases with each phase
authorized by the House’s adoption of resolutions.”
DOJ Resp. at 28; see also Collins Mem. at 9-12 (stating
that for presidential impeachments, including the likely
impeachment of President Nixon had he not resigned,
“the full House voted to authorize impeachment proceedings”). Even were this statement accurate, which
it is not, the manner in which the House has chosen to
conduct impeachment inquiries encompasses more than
past Presidents and no sound legal or constitutional rea-

148a
son has been presented to distinguish the House’s exercise of impeachment authority for a President from the
exercise of such authority more generally. 34
Indisputably, the House has initiated impeachment
inquiries of federal judges without a House resolution
“authorizing” the inquiry. See, e.g., H.R. Rep. No. 10136, at 13-16 (1988) (describing proceedings with respect
to Judge Walter Nixon leading up to HJC’s recommendation of articles of impeachment, with no mention of an
authorizing resolution); H.R. Res. 320, 100th Cong. (as
passed by the House Dec. 2, 1987) (authorizing taking of
affidavits and depositions during the impeachment investigation of Judge Hastings, without any formal House
resolution for an “impeachment inquiry”); H.R. Rep.
No. 99-688, at 3-7 (1986) (describing proceedings with
respect to Judge Harry Claiborne leading up to HJC’s
DOJ and Representative Collins offer only one argument for distinguishing presidential and judicial impeachments: that the House
“has delegated initial investigatory authority for impeachment to the
U.S. Judicial Conference through the passage of the Judicial Conduct and Disability Act of 1980.” Collins Mem. at 10 n.12 (citing
28 U.S.C. § 355(b)); see also Hr’g Tr. at 83:21-84:23 (DOJ) (raising
similar argument). Yet, during the investigations of Judge Porteous and Judge Hastings, HJC did not rely on the Judicial Conference to furnish relevant grand jury material but instead petitioned
for and received relevant grand jury material directly from the courts
supervising the grand jury investigations of the judges at issue.
See Hastings, 833 F.2d 1438; Order, In Re: Grand Jury Investigation of U.S. Dist. Judge G. Thomas Porteous, Jr., No. 2:09-mc04346-CVSG. Moreover, the impeachment investigation of Justice
Douglas, which went forward without a House Resolution, occurred
in 1970, before the Judicial Conduct and Disability Act of 1980 was
adopted. See Final Report on Associate Justice William O. Douglas, Special Subcomm. on H.R. Res. 920 of the House Comm. on the
Judiciary, 91st Cong. (1970).
34

149a
recommendation of articles of impeachment, with no
mention of an authorizing resolution); 3 Deschler Ch. 14
§ 5 (“In the case of Justice Douglas, the Committee on
the Judiciary authorized a special subcommittee to investigate the charges, without the adoption by the
House of a resolution specifically authorizing an investigation.”). Furthermore, federal judges have been impeached by the House without a House resolution “authorizing” an inquiry. See H.R. Res. 87, 101st Cong.
(1989) (impeaching Judge Nixon); H.R. Res. 499 100th
Cong. (1988) (impeaching Judge Hastings); H.R. Res.
461, 99th Cong. (1986) (impeaching Judge Claiborne).
In the course of an impeachment proceeding against a
federal judge, the House has also obtained grand jury
material to assist in an impeachment inquiry that was
not “authorized” by a specific House impeachment resolution. See Hastings, 833 F.2d at 1439 (releasing Hastings grand jury information to HJC).
Even in cases of presidential impeachment, a House
resolution has never, in fact, been required to begin an
impeachment inquiry. In the case of President Johnson,
a resolution “authoriz[ing]” HJC “to inquire into the official conduct of Andrew Johnson” was passed after HJC
“was already considering the subject.” 3 Hinds Ch. 75
§ 2400. In the case of President Nixon, HJC started its
investigation well before the House passed a resolution
authorizing an impeachment inquiry. See 3 Deschler
Ch. 14, § 15 (Parliamentarian’s Note) (noting that
even before “the adoption of ” the Nixon impeachmentinquiry resolution, “House Resolution 803,” HJC “had
been conducting an investigation into the charges of impeachment against President Nixon,” such as by “hir[ing]

150a
special counsel for the impeachment inquiry”). 35 In the
case of President Clinton, the D.C. Circuit authorized
the disclosure of grand jury materials to Congress on
July 7, 1998, see HJC App., Ex. Q, Order, In re Madison
Guaranty Savings & Loan Assoc., Div. No. 94-1 (D.C.
Cir. Spec. Div. July 7, 1998) (per curiam), ECF No. 1-18,
even though no impeachment resolution had yet been
adopted and was not adopted by the House until four
months later, see H.R. Res. 525, 105th Cong. (1998) (authorizing, on October 8, 1998, HJC to “investigate fully
and completely whether sufficient grounds exist for the
House of Representatives to exercise its constitutional
power to impeach” President Clinton). 36
While close scrutiny of the historical record undercuts that justification for the “House resolution” test
proposed by Representative Collins, the more significant flaw with this proposal is as follows: while this
test may address political legitimacy concerns, which
are best resolved in the political arena, no governing law
requires this test—not the Constitution, not House
DOJ and Representative Collins both agree that the events leading up to President Nixon’s resignation are relevant historical precedent for the purpose of the current inquiry, even though President
Nixon left office before he could be impeached. See Hr’g Tr. at
71:13-19 (DOJ); Collins Mem. at 9-10.
36
DOJ dismisses the example of the House’s impeachment of President Clinton, contending that the then-operative Independent Counsel Act provided independent authorization for disclosure of grand
jury material to Congress. DOJ Resp. at 22-23. Putting aside whether
DOJ correctly reads the now-lapsed independent counsel statute,
this contention only confirms that full House impeachment resolutions have not been a necessary predicate for HJC to commence an
impeachment investigation and obtain access to grand jury material
to assist in that investigation.
35

151a
Rules, and not Rule 6(e), and so imposing this test would
be an impermissible intrusion on the House’s constitutional authority both to “determine the rules of its proceedings” under the Rulemaking Clause, U.S. CONST.,
Art. I, § 5, cl. 2, and to exercise “the sole power of Impeachment” under the Impeachment Clause, id. § 2, cl.
5. This Court “ha[s] no authority to impose,” by judicial order, a particular structure on House proceedings.
Mazars, 2019 WL 5089748, at *24. In Mazars, for example, the D.C. Circuit rejected the position that enforcement of a House Oversight and Reform Committee
subpoena of a third-party’s records related to President
Trump and his business associates was inappropriate
until the “full House” granted the Committee “express
authority to subpoena the President for his personal financial records.” Id. at *24 (internal quotation marks
omitted). Citing the Constitution’s Rulemaking Clause,
the D.C. Circuit explained that “unless and until Congress adopts a rule that offends the Constitution, the
courts get no vote in how each chamber chooses to run
its internal affairs.” Id.; see also Barker v. Conroy,
921 F.3d 1118, 1130 (D.C. Cir. 2019) (noting that “ ‘making the Rules . . . [is] a power that the Rulemaking
Clause reserves to each House alone’ ” (quoting United
States v. Rostenkowski, 59 F.3d 1291, 1306-07 (D.C. Cir.
1995)). This Court likewise lacks authority to require
the House to pass a resolution tasking a committee with
conducting an impeachment inquiry.
Representative Collins shifts gears with an alternative challenge to HJC’s petition, contending that, even if
no House rule prohibits HJC from beginning an impeachment investigation without a House resolution, the
House has not “delegate[d] such authority to the Committee,” and HJC has no powers except those expressly

152a
granted to it. Collins Mem. at 6. Pressing this point,
he argues that the House has thus far delegated only
“legislative and oversight authority to the Committee,”
not “impeachment authority,” id. at 5, and, further, that
the Speaker of the House may not “unilaterally delegate
to the Committee the House’s impeachment power,” id.
at 13-14. These contentions are, at worst, red herrings
and, at best, incorrect.
At the outset, the distinction drawn by Representative Collins between Congress’s “legislative and oversight authority” and Congress’s “impeachment authority,” is not so rigid as he makes out. Nothing “in the Constitution or case law . . . compels Congress to abandon its legislative role at the first scent of potential illegality and confine itself exclusively to the impeachment
process.” Mazars, 2019 WL 5089748, at *18. 37 In any
event, the House has sufficiently delegated to HJC the
authority to conduct an impeachment inquiry in at least
two ways. Jefferson’s Manual—which under House
Rule XXI “ ‘govern[s] the House in all cases to which [it
is] applicable and in which [it is] not inconsistent with
the Rules and orders of the House’ ”—provides that impeachment can be “set[] . . . in motion” by “a resolution introduced by a Member and referred to a committee” as well as “facts developed and reported by an
investigating committee of the House.” Jefferson’s

The distinction between Congress’ legislative and impeachment
authority, even if otherwise sound, has questionable relevance to the
Rule 6(e) analysis. The “preliminarily to” requirement depends on
the “primary purpose” disclosure would serve, not the source of authority Congress acts under.
37

153a
Manual § 603. 38 Additionally, the full House has authorized, in Resolution 430, HJC to bring this suit and
simultaneously granted HJC “any and all necessary authority under Article I of the Constitution.” H.R. Res.
430, 116th Cong. (as passed by House June 11, 2019)
(emphases added). 39
As to Representative Collins’ last point regarding the
Speaker’s statement, HJC never claims that the Speaker
possesses the power to authorize an impeachment inquiry solely by saying so. Rather, HJC points to the
Speaker’s statement as evidence of the primary purpose
of HJC’s investigation. The Speaker’s statement is, in
fact, highly probative evidence on that score. 40 Even

Jefferson’s Manual is one of the “fundamental source material[s] for parliamentary procedure used in the House of Representatives.” Thomas J. Wickham, Constitution, Jefferson’s Manual, and Rules of the House Representatives of the United States
One Hundred Fifteenth Congress at v (2017).
39
Challenge to a specific committee action on grounds that HJC’s
authority was in doubt would be unreviewable. “[U]nless and until
Congress adopts a rule that offends the Constitution,” judicial review of House rules is inappropriate. Mazars, 2019 WL 5089748,
at *24. Here, neither DOJ nor Representative Collins complains
that HJC’s actions or authorizing House rules suffer from a “constitutional infirmity.” Vander Jagt v. O’Neill, 699 F.2d 1166, 1173
(D.C. Cir. 1983). That distinguishes this case from Tobin v. United
States, 306 F.2d 270 (D.C. Cir. 1962), which Representative Collins
heavily relies on; there the House resolution at issue raised “serious
and difficult” constitutional issues. Id. at 275; see also Mazars,
2019 WL 5089748, at *24 (similarly distinguishing Tobin).
40
Citing Speaker Pelosi’s September 2019 statement, Representative Collins also argues that HJC’s investigation is not “preliminarily
to” a Senate impeachment trial because the “impeachment inquiry”
announced by the Speaker will “be handled by three other commit38

154a
DOJ does not dispute that statements made by the
House Speaker may be probative in evaluating the “primary purpose” of HJC inquiries, as DOJ too has relied
on the Speaker’s statements in its arguments about satisfaction of the “preliminarily to” requirement. See
DOJ Resp. at 3, 26-27.
c.

The Record of House and HJC Impeachment
Activities Here Meets the “Preliminarily To” Test

Having dispatched DOJ’s and Representative Collins’ unsupported criteria for meeting the “preliminarily
to” test, examination of the record before the Court is
essential to assess whether HJC has satisfied the actual
inquiry: Baggot’s “primary purpose” test. As HJC explains, the purpose of HJC’s investigation and the requested disclosure is “to determine whether to recommend articles of impeachment,” HJC App. at 3, and
the record evidence supports that claim. Determining
tees and focus ‘narrowly on the Ukraine matter’ ” rather than on allegations in the Mueller Report. Collins Mem. at 14 (quoting Rachael
Blade and Mike DeBonis, Democrats Count on Schiff to Deliver Focused Impeachment Inquiry of Trump, WASH. POST (Sept. 29, 2019),
https://www.washingtonpost.com/politics/pelosi-turns-to-schiff-tolead-house-democrats-impeachment-inquiry-of-trump/2019/09/28/
ed6c4608-e149-11e9-8dc8-498eabc129a0_story.html). This argument
is misguided, first, because Speaker Pelosi made clear that “six
[c]ommittees”—including HJC—would “proceed with their investigations under that umbrella of impeachment inquiry,” Pelosi Tr.,
and thus HJC plainly remains engaged. Second, the current focus
on President Trump’s interactions with the foreign leader of
Ukraine is pertinent, not to the “preliminarily to” requirement, but
to the issue of whether HJC has shown a “particularized need” for
the redacted grand jury materials in the Mueller Report. As to the
“preliminarily to” requirement, the Ukrainian developments simply
underscore that the investigations currently proceeding in the
House may lead to a Senate impeachment trial.

155a
whether to recommend articles of impeachment may not
have been the primary purpose of HJC’s investigation
initially, but that is of no moment. “Congress’s decision whether, and if so how,” to act “will necessarily depend on what information it discovers in the course of an
investigation, and its preferred path forward may shift
as members educate themselves on the relevant facts
and circumstances.” Mazars, 2019 WL 5089748, at
*13. While HJC is “pursuing a legitimate legislative
objective [it] may . . . choose to move from legislative investigation to impeachment,” id. at *18, and that
is precisely what occurred here, as a review of the record evidence in chronological order demonstrates.
The beginnings of HJC’s current investigation trace
to January 3, 2019, when a resolution calling for President Trump’s impeachment was introduced, see H.R.
Res. 13, 116th Cong. (2019), and, in keeping with standard practice, then referred to HJC for consideration,
165 Cong. Rec. H201, H211 (daily ed. Jan. 3, 2019) (referring H.R. Res. 13 to HJC). This resolution remains
under review before HJC. See All Actions H.Res.13—
116th Congress (2019-2020), https://www.congress.gov/
bill/116th-congress/house-resolution/13/all-actions.
HJC turned to the subject of impeachment in earnest
after the release of the Mueller Report. On June 6,
2019, HJC issued a report that accompanied a resolution
recommending that AG Barr be held in contempt of Congress for failing to comply with a subpoena for production of the unredacted Mueller Report and underlying
materials. See H.R. Rep. No. 116-105 (2019) (“Contempt Report”). That Contempt Report explained that
among the “purposes” of HJC’s “investigation into the
alleged obstruction of justice, public corruption, and

156a
other abuses of power by President Donald Trump” was
to “consider[] whether any of the conduct described in
the Special Counsel’s Report warrants the Committee in
taking any further steps under Congress’ Article I powers,” “includ[ing] whether to approve articles of impeachment with respect to the President.” Id. at 13.
Significantly, on June 11, 2019, the full House voted
to ensure HJC possessed the authority needed to continue this investigation. The House approved, by a
vote of 229 to 191, a resolution allowing HJC “to petition
for disclosure of information” related to the Mueller
Report—i.e., to bring the instant action. H.R. Res.
430, 116th Cong. (2019). House Resolution 430 expressly authorized HJC to bring a petition pursuant to
Rule 6(e)’s “ ‘preliminarily to . . . a judicial proceeding’ ” exception, id. (omission in original) (quoting FED.
R. CRIM. P. 6(e)(3)(E)(i)), and, as noted above, granted
HJC, in connection with that authorization, “any and all
necessary authority under Article I of the Constitution,”
id. (emphases added).
By July, HJC’s investigation had become focused on
the impeachment power, as expressed in a July 11, 2019
memorandum issued by HJC Chairman Nadler explaining that HJC is “determin[ing] whether the Committee
should recommend articles of impeachment against the
President or any other Article I remedies, and if so, in
what form.” HJC App., Ex. A, Jerrold Nadler, Chairman, H. Comm. on the Judiciary, Memorandum Re:
Hearing on “Lessons from the Mueller Report, Part III:
‘Constitutional Processes for Addressing Presidential
Misconduct’ ” at 3 (July 11, 2019), ECF No. 1-2. At a
hearing held the next day, Chairman Nadler further
stated that HJC’s “responsibility” was “to determine

157a
whether to recommend articles of impeachment against
the President,” noting that “articles of impeachment are
under consideration as part of the Committee’s investigation.” HJC App., Ex. T, Lessons from the Mueller
Report, Part III: “Constitutional Processes for Addressing Presidential Misconduct”: Hearing Before
the H. Comm. on the Judiciary at 4 (July 12, 2019), ECF
No. 1-21 (capitalization altered). On September 12,
2019, HJC adopted a resolution confirming that the purpose of its investigation is “to determine whether to recommend articles of impeachment with respect to President Donald J. Trump.” DOJ Resp., Ex. 11, Comm. on
the Judiciary, Resolution for Investigative Procedures
at 4 (Sept. 12, 2019), ECF No. 20-11.
Finally, on September 24, 2019, House Speaker
Nancy Pelosi announced that the full House is “moving
forward with an official impeachment inquiry.” Pelosi
Tr. “For the past several months,” Speaker Pelosi explained, the House had been “investigating in our Committees and litigating in the courts so the House can
gather all of the relevant facts and consider whether to
exercise its full Article I powers, including a constitutional power of the utmost gravity, approval of articles
of impeachment.” Id. Thus, Speaker Pelosi “direct[ed]”
the “six Committees”—including HJC—to “proceed with
their investigations under that umbrella of impeachment inquiry” going forward. Id.
These indicia of HJC’s purpose sufficiently demonstrate that the primary purpose of the investigation for
which the grand jury disclosure is sought is to determine
whether to recommend articles of impeachment against
President Trump. Cf. Mazars, 2019 WL 5089748, at
*10-11 (looking to statements a committee chairman

158a
made in a memorandum to his colleagues to assess the
purpose of a congressional investigation); see Jefferson’s
Manual § 603 at 319 (stating that “[i]n the House various events have been credited with setting an impeachment in motion,” such as “charges made on the floor on
the responsibility of a Member or Delegate,” “a resolution introduced by a Member and referred to a committee,” “charges transmitted . . . from a grand jury,”
and “facts developed and reported by an investigating
committee of the House”); 3 Deschler Ch. 14 § 5 (“In the
majority of cases, impeachment proceedings in the
House have been initiated either by introducing resolutions of impeachment by placing them in the hopper, or
by offering charges on the floor of the House under a
question of constitutional privilege. Where such resolutions have directly impeached federal civil officers,
they have been conferred by the Speaker to the Committee on the Judiciary, which has jurisdiction over federal judges and presidential succession. . . . ”);
Charles W. Johnson et al., House Practice: A Guide to
the Rules, Precedents, and Practice of the House, Ch. 27
§ 6, at 602 (2017) (confirming same).
Formulating a firm line on when, in the impeachment
context, activities within the House meet the “preliminarily to” requirement to qualify for disclosure of grand
jury material need not be drawn here, since this case is
clear. Collectively, the record shows an evolving and
deliberate investigation by HJC that has become focused on determining whether to impeach the President
and thus has crossed the “preliminarily to” threshold.

159a
3.

Requiring More Than the Current Showing by
HJC, as DOJ Demands, Would Improperly Intrude
on Article I Powers Granted to House of Representatives

DOJ urges this Court to second-guess a co-equal
branch of government and find that the steps taken by
the House fall short of showing a primary purpose of undertaking an impeachment inquiry that would meet the
“preliminarily to” requirement in Rule 6(e)(3)(E)(i).
In so doing, DOJ again invites an impermissible intrusion on the House’s constitutional authority under the
Rulemaking and Impeachment Clauses. These Article
I grants of exclusive authority require a degree of deference to the House’s position that the House and HJC
are currently engaged in an investigation with the primary purpose of assessing whether to adopt articles of
impeachment. See Vander Jagt, 699 F.2d at 1173 (concluding that the Rulemaking Clause “means that neither
we nor the Executive Branch may tell Congress what
rules it must adopt”); Mazars, 2019 WL 5089748, at *24
(“[U]nless and until Congress adopts a rule that offends
the Constitution, the courts get no vote in how each
chamber chooses to run its internal affairs.”); Nixon v.
United States, 506 U.S. 224, 238 (1993) (concluding that
judicial review of Senate impeachment trial procedures
would be inconsistent with the text and structure of the
Constitution).
At the same time, HJC has argued that complete and
absolute deference is due to the House and HJC not only
in structuring but also in articulating the purpose of the
current inquiry. Hearing Tr. at 25:23-26:4; see also
HJC App. at 30-31. HJC’s position goes too far, at
least as to judicial review of HJC’s “primary purpose.”

160a
Rule 6(e), and the Supreme Court’s cases interpreting
it, grant this Court authority, and indeed a responsibility, to verify that HJC seeks disclosure of the grand jury
material for use in an inquiry whose core aim is assessing possible articles of impeachment. The preceding review of the factual record and finding about HJC’s
“primary purpose” fulfill that responsibility of judicial
review without intruding on the House’s ability to write
its own rules or to exercise its power of impeachment.
See Morgan v. United States, 801 F.2d 445, 449 (D.C.
Cir. 1986) (Scalia, J.) (noting that “no absolute prohibition of judicial review” of House Rules exists). 41
Additionally, DOJ’s position that no disclosure of
grand jury information to a House impeachment inquiry
is permitted under Rule 6(e), see DOJ Resp. at 13-19,
would completely bar access to relevant grand jury materials. Such a blanket bar would have concrete repercussions on limiting the House’s access to investigative
materials and thereby impermissibly impede the House’s
ability to exercise its constitutional power of impeachment. The House, through the committees tasked with
conducting an impeachment investigation, must develop
a factual record supporting at least a good-faith basis for
believing that the President has engaged in conduct
meeting the constitutional requirement of a “high
crime” or “misdemeanor” before voting in favor of articles of impeachment targeting such conduct. Cf. Kaley
Although neither the Supreme Court nor the D.C. Circuit has
considered the justiciability of, or the degree of deference due in,
cases implicating the House’s “sole power of Impeachment,” U.S.
CONST., Art. I, § 2, cl. 5, verifying that the factual record supports
HJC’s assertion about its “primary purpose” does not require direct judicial review of any actions by the House taken pursuant to
the impeachment power.
41

161a
v. United States, 571 U.S. 320, 328 (2014) (noting that to
issue an indictment, a grand jury must find probable
cause to believe a defendant committed the charged offense); Dep’t of Justice, Justice Manual § 9-27.220 (explaining that before commencing or recommending federal prosecution against an individual, a federal prosecutor must “believe[] that the person’s conduct constitutes a federal offense, and that the admissible evidence
will probably be sufficient to obtain and sustain a conviction”). Indeed, even a lawyer in a civil proceeding
must “certif[y] that to the best of the [lawyer’s] knowledge, information, and belief, formed after an inquiry
reasonable under the circumstances,” the “factual contentions” presented to the court “have evidentiary support.” FED. R. CIV. P. 11(b).
Blocking access to evidence collected by a grand jury
relevant to an impeachment inquiry, as DOJ urges, undermines the House’s ability to carry out its constitutional responsibility with due diligence. On the other
hand, interpreting Rule 6(e) in a manner compatible
with this constitutional responsibility avoids this conundrum, and ensures HJC has access to the pertinent information before making an impeachment recommendation to the full House.
4.

DOJ’s Remaining Objections are Unpersuasive

DOJ’s remaining arguments are easily dispatched.
DOJ asserts that “the full House in the current Congress has already voted overwhelmingly against impeachment,” DOJ Resp. at 25 (emphasis added), because
House Resolution 498, which called for an impeachment
inquiry based on “President Trump’s racist comments,”
H.R. Res. 498, 116th Cong. (2019), was “defeated 332-

162a
95,” DOJ Resp. at 25. Yet, the fact that House Resolution 498 was tabled, see All Actions, H.Res.498—116th
Congress (2019-2020), https://www.congress.gov/bill/
116th-congress/house-resolution/498/all-actions?actions
SearchResultViewType=compact, has little relevance
here since that resolution has nothing to do with the concerns of the current impeachment inquiry, which is focused on the President’s possible criminal conduct described in the Mueller Report and in connection with
Ukraine.
Next, DOJ claims that HJC’s “primary purpose” is to
decide among different possible actions to “pursue in response to the Mueller Report,” such as “various legislative proposals, Constitutional amendments, and a Congressional referral to the Department of Justice for prosecution or civil enforcement.” DOJ Resp. at 26. DOJ
is correct that deciding whether to recommend articles
of impeachment may not always have been—and still
may not be—the only purpose of HJC’s current investigation, but that is to be expected. “As the Supreme
Court has explained, ‘[t]he very nature of the investigative function—like any research—is that it takes the
searchers up some “blind alleys” and into nonproductive
enterprises.’ ” Mazars, 2019 WL 5089748, at *21 (alteration in original) (quoting Eastland v. U.S. Servicemen’s Fund, 421 U.S. 491, 509 (1975)). Here, HJC began, appropriately, with a broad inquiry, but focused on
impeachment as the investigation progressed. This
new focus does not necessitate that HJC forgo its other
aims. See Mazars, 2019 WL 5089748, at *18. HJC’s
investigation to determine whether to impeach President Nixon, for example, contributed not only to President Nixon’s resignation, but also to significant legislative reforms. See, e.g., Tax Analysts v. IRS, 117 F.3d

163a
607, 611 (D.C. Cir. 1997) (Internal Revenue Code provision restricting public release of individual tax returns);
United States v. Rose, 28 F.3d 181, 183 (D.C. Cir. 1994)
(Ethics in Government Act of 1978).
Finally, DOJ cautions that if introduction of articles
of impeachment by a single Member of Congress were
sufficient to render an HJC investigation “preliminarily
to” an impeachment trial, grand jury information would
become “politicized.” Hr’g Tr. at 70:6; see also DOJ
Resp. at 28. That hypothetical situation is far removed
from this case, where HJC is months into its investigation and both the Speaker of the House and HJC have
confirmed that the current investigation’s purpose is to
determine whether to recommend articles of impeachment against President Trump. Besides, this “slippery
slope” may be less precipitous than DOJ suggests, for a
congressional committee seeking to obtain grand jury
information based solely on a single Member’s introduction of articles of impeachment would have an uphill battle demonstrating a “particularized need” for the materials.
* * *
In sum, HJC has presented sufficient evidence that
its investigation has the primary purpose of determining
whether to recommend articles impeachment and thus
has satisfied Rule 6(e)’s “preliminarily to . . . a judicial proceeding” requirement.
C.

HJC Has a “Particularized Need” for the Requested Materials

Finally, to meet the last “independent prerequisite[]
to ([E])(i) disclosure,” HJC needs to “show particular-

164a
ized need for access to” the requested grand jury materials, Baggot, 463 U.S. at 480; In re Sealed Case, 801 F.2d
1379, 1381 (D.C. Cir. 1986). As stated earlier, those
materials fall into three categories. First, HCJ asks
for “all portions of the Mueller Report that were redacted pursuant to Rule 6(e).” HJC App. at 25. Second, HJC wants the material underlying those redactions
—that is, the portions of the grand jury “transcripts or
exhibits” cited in the Report. Id. Third, HJC requests “transcripts of any underlying grand jury testimony and any grand jury exhibits that relate directly to”
President Trump’s knowledge of several topics as well as
to actions taken by former White House counsel Donald
F. McGahn II during his service to first-candidate and
then-President Trump. Id. 42
The “particularized need” standard requires a showing that (1) the requested materials are “needed to avoid
a possible injustice in another judicial proceeding; (2)
the need for disclosure is greater than the need for continued secrecy; and (3) the request is structured to cover
only material so needed.” In re Sealed Case, 801 F.2d
To repeat, the topics in the third category of requested grand
jury materials are: (A) “President Trump’s knowledge of efforts by
Russia to interfere in the 2016 U.S. Presidential election;” (B) his
“knowledge of any direct or indirect links or contacts between individuals associated with his Presidential campaign and Russia, including with respect to Russia’s election interference efforts;” (C)
his “knowledge of any potential criminal acts by him or any members
of his administration, his campaign, his personal associates, or anyone associated with his administration or campaign;” and (D) “actions taken by McGahn during the campaign, the transition, or
McGahn’s period of service as White House Counsel.” HJC App.
at 25. Material is related directly to President Trump’s knowledge,
HJC says, if it reflects “what witnesses saw or heard President
Trump do.” Hr’g Tr. at 7:5-7:6.
42

165a
at 1381 (internal quotation marks omitted); see also
Baggot, 463 U.S. at 480 n.4 (citing Douglas Oil, 441 U.S.
at 222). The balancing aspect of the test means that
“as the considerations justifying secrecy become less
relevant, a party asserting a need for grand jury [material] will have a lesser burden.” Douglas Oil, 441 U.S.
at 223.
Ultimately, determinations of “particularized need”
are committed to the “considered discretion of the district court.” Douglas Oil, 441 U.S. at 228; see also In
re Sealed Case, 801 F.2d at 1381 (recognizing the “substantial discretion of the district court”). That discretion “to determine the proper response to requests for
disclosure,” Douglas Oil, 441 U.S. at 228, extends to
structuring the “time,” “manner,” and “other conditions” of any release of material, FED. R. CRIM. P.
6(e)(3)(E); see also Douglas Oil, 441 U.S. at 223 (acknowledging the possibility of “protective limitations”
on the release of the material). HJC has proposed that
the Court use this authority to “direct a focused and
staged disclosure,” starting with categories one and two
of the requested grand jury information and, following
HJC’s review of that material, moving to category three.
HJC Reply at 25; see also Hr’g Tr. at 35:1-35:11.
Adopting that proposal, to which DOJ has not objected, the Court finds that HJC has demonstrated a
“particularized need” for the material in the first and
second categories. DOJ must promptly produce to
HJC the grand jury material redacted from and cited in
the Mueller Report. HJC may file further requests articulating its “particularized need” for any grand jury
material in category three.

166a
1.

Disclosure is Necessary to Avoid Possible Injustice

HJC asserts that it needs the material to conduct a
fair impeachment investigation based on all relevant
facts. See HJC App. at 34. In authorizing disclosure
of grand jury material for use in impeachment investigations of judges and of a President, courts have found
this “interest in conducting a full and fair impeachment
inquiry” to be sufficiently particularized. Hastings,
833 F.2d at 1442; Order, In Re: Grand Jury Investigation of U.S. Dist. Judge G. Thomas Porteous, Jr., No.
2:09-mc-04346-CVSG, at 3; In re 1972 Grand Jury Report, 370 F. Supp. at 1230 (applying the predecessor to
the “particularized need” standard). Chief Judge Sirica, in releasing the Watergate Roadmap to HJC, remarked that “[i]t would be difficult to conceive of a more
compelling need than that of this country for an unswervingly fair inquiry based on all the pertinent information.” In re 1972 Grand Jury Report, 370 F. Supp.
at 1230. 43

At the time, DOJ similarly recognized that “[t]he ‘need’ for the
House to be able to make its profoundly important judgment on the
basis of all available information is as compelling as any that could
be conceived.” HJC App., Ex. P, Mem. for the U.S. on behalf of
the Grand Jury, In re 1972 Grand Jury Report, 370 F. Supp. 1219
(Mar. 5, 1974), ECF No. 1-17. DOJ now attempts to distinguish
In re 1972 Grand Jury Report on the ground that the grand jury
itself initiated the request to disclose the Watergate Roadmap to
Congress, DOJ Resp. at 35, but Rule 6(e) does not give different
treatment to disclosures by grand jurors, see FED. R. CRIM. P.
6(e)(2)(B)(i), and so, unsurprisingly, the grand jury’s involvement
featured not at all in the relevant portions of Chief Judge Sirica’s
analysis, see In re 1972 Grand Jury Report, 370 F. Supp. at 122931.
43

167a
Impeachment based on anything less than all relevant evidence would compromise the public’s faith in the
process. See Hastings, 833 F.2d at 1445 (“Public confidence in a procedure as political and public as impeachment is an important consideration justifying disclosure.”). Further, as already discussed, denying HJC
evidence relevant to an impeachment inquiry could pose
constitutional problems. See supra Parts III.B.3; see
also Hastings, 833 F.2d at 1445 (concluding that denying
the House the full record available, including the grand
jury material, for use in impeachment would “clearly violate separation of powers principles”). These principles
may, on their own, justify disclosure. See Hastings,
833 F.2d at 1442; Order, In Re: Grand Jury Investigation of U.S. Dist. Judge G. Thomas Porteous, Jr., No.
2:09-mc-04346-CVSG, at 3; In re 1972 Grand Jury Report, 370 F. Supp. at 1230. Features of the House’s investigation and of the Mueller Report make HJC’s need
for the grand jury materials referenced and cited in the
Report especially particularized and compelling.
First, several “portions of the Mueller Report” are of
particular interest to HJC, including the Trump Tower
Meeting, Carter Page’s trip to Moscow, Paul Manafort’s
sharing of internal polling data with a Russian business
associate, and the Seychelles meeting, as well as information about what candidate Trump knew in advance
about Wikileaks’ dissemination in July 2016 of stolen
emails from democratic political organizations and the
Clinton Campaign. See HJC App. at 35-36. Rule 6(e)
material was redacted from the descriptions of each of
these events in the Mueller Report and access to this redacted information is necessary to complete the full
story for HJC. In some instances, without access to
the redacted material, HJC cannot understand what the

168a
Special Counsel already found about key events. For example, what appears to be a citation to grand jury material
supports the investigative finding that then-candidate
Trump asked Manafort for continued updates about WikiLeaks’s plans to release hacked documents.
See
Mueller Report at II-18 n.27.
Second, numerous individuals have already testified
before or given interviews with HJC or other House
committees about the events noted above that are central to the impeachment inquiry and also described in
the Mueller Report. 44 These witnesses include Donald
Trump, Jr., Carter Page, Erik Prince, Steve Bannon,
and Corey Lewandowski. 45 Of concern is that another
witness who spoke to both the Special Counsel and to
Congress, Michael Cohen, has already been convicted of
making false statements to Congress, Mueller Report at
I-195-96, and two other individuals have been convicted
of making false statements to the FBI in connection with
In particular, the activities of the House Permanent Select
Committee on Intelligence (“HPSCI”) are relevant here because
HJC’s protocols for handling the grand jury information, discussed
infra, state that the information will be shared with Members of
HPSCI. See HJC App., Ex. X, Jerrold Nadler, Chairman, HJC,
[HJC] Procedures for Handling Grand Jury Information (“GJ
Handling Protocols”) ¶ 11, ECF No. 1-25. With HJC, HPSCI is
one of the six committees conducting the impeachment inquiry.
See Pelosi Tr.
45
See DOJ Resp. at 34 & n.23 (noting testimony by Trump Jr.,
Page, Bannon, and Prince and citing Minority Views, HPSCI Report, https://intelligence.house.gov/uploadedfiles/20180411_-_final__hpsci_minority_views_on_majority_report.pdf); Thursday: House
Judiciary to Consider Procedures Regarding Whether to Recommend Impeachment, COMM. ON THE JUDICIARY (Sept. 9, 2019), https://
judiciary.house.gov/news/press-releases/thursday-house-judiciaryconsider-procedures-regarding-whether-recommend (Lewandowski).
44

169a
the Special Counsel’s investigation, see id. at I-192 (Papadopoulos); id. at I-194 (Flynn). The record thus suggests that the grand jury material referenced or cited in
the Mueller Report may be helpful in shedding light on
inconsistencies or even falsities in the testimony of witnesses called in the House’s impeachment inquiry. See
HJC App. at 37 (seeking the materials “to refresh or
challenge th[e] testimony” of witnesses before Congress
and “to corroborate [witness] veracity”); see also Hr’g
Tr. at 40:5-41:17 (HJC) (confirming that the grand jury
material would be used to impeach or corroborate witnesses). 46 Disclosure is thus necessary here to prevent
witnesses from misleading the House during its investigative factfinding. See supra Part III.B.3 (discussing
the House’s factfinding role). As DOJ acknowledges,
disclosure of grand jury information “when necessary to
avoid misleading a trier of fact” is a paradigmatic showing of “particularized need.” DOJ Resp. at 18-19 (recognizing that requests under the “judicial proceedings
exception typically arose” in this situation and quoting
Douglas Oil); Douglas Oil, 441 U.S. at 222 n.12 (“The
typical showing of particularized need arises when a litigant seeks to use ‘the grand jury transcript at the trial
to impeach a witness, to refresh his recollection, to test
his credibility and the like.’ ” (quoting Procter & Gamble Co., 356 U.S. at 683)).
Third, HJC needs the requested material not only to
investigate fully but also to reach a final determination
about conduct by the President described in the Mueller
In identifying this need, HJC’s application focused on the example of Don McGahn, see HJC App. at 37, but DOJ has now confirmed that McGahn did not testify before the grand jury, see Revised ADAG Decl. ¶ 4.
46

170a
Report. See HJC App. at 34 (requesting the material
“to assess the meaning and implications of the Mueller
Report”). 47 Given that the Special Counsel stopped
short of a “traditional prosecutorial judgment” or any
“ultimate conclusions about the President’s conduct,”
Mueller Report at II-8, in part to avoid “preempt[ing]
constitutional processes for addressing presidential
misconduct,” id. at II-1; see also id. at 2 (“[W]hile this
report does not conclude that the President committed
a crime, it also does not exonerate him.”), “the House
alone can hold the President accountable for the conduct
described,” HJC Reply at 19. HJC cannot fairly and
diligently carry out this responsibility without the grand
jury material referenced and cited in the Mueller Report. Put another way, HJC requires the grand jury material to evaluate the bases for the conclusions reached by
the Special Counsel.
Critically, for example, the Mueller Report states:
“The evidence we obtained about the President’s actions
and intent presents difficult issues that prevent us from
conclusively determining that no criminal conduct occurred.” Mueller Report at II-2. The grand jury material relied on in Volume II is indispensable to interpreting the Special Counsel’s evaluation of this evidence
and to assessing the implications of any “difficult issues”
for HJC’s inquiry into obstruction of justice. The same
is true of the material redacted from Appendix C, which
details the Special Counsel’s unsuccessful efforts to interview the President directly, the Special Counsel’s
As HJC confirmed at the hearing, the recent revelations related to Ukraine have not displaced HJC’s focus on investigating
the conduct described in the Mueller Report. See Hr’g Tr. at
30:25-32:22.
47

171a
choice not to issue a grand jury subpoena for the President’s testimony, and related information redacted for
grand jury secrecy. See Mueller Report App’x C-1-C-2.
Complete information about the evidence the Special
Counsel gathered, from whom, and in what setting is indispensable to HJC. The recent revelation that two individuals who figured prominently in events examined
in the Mueller Report—Don McGahn and Donald Trump,
Jr.—were not compelled to testify before the grand jury
illustrates this point. See Revised ADAG Decl. ¶ 4.
The choice not to compel their testimony may indicate,
for example, that the Special Counsel intended to leave
aggressive investigation of certain potential criminal
conduct, such as obstruction of justice by the President,
to Congress. That intention should inform HJC’s investigation of those same issues. The grand jury material redacted from and cited in the Report may provide
other significant insights into the Special Counsel’s use
of, or decisions not to use, the grand jury. Those insights may be essential to HJC’s decisions about witnesses who should be questioned and about investigatory routes left unpursued by the Special Counsel that
should be pursued by HJC prior to a final determination
about impeachment.
Similarly, disclosure is necessary to assist HJC in
filling, or assessing the need to fill, acknowledged evidentiary “gaps” in the Special Counsel’s investigation.
See supra Part I.A. The Report detailed or alluded to
investigative choices by the Special Counsel about immunity, about privilege, about pursuit of hard-to-get evidence, and other matters. As described earlier, these
choices had an impact on the quantity and quality of ev-

172a
idence gathered about events of interest to HJC, including the Trump Tower Meeting, Carter Page’s trip to
Moscow, Erik Prince’s Seychelles meeting, and potential tampering of Michael Cohen’s testimony to Congress. See supra Part I.A. The Special Counsel helpfully documented those impacts, identifying critical factual disputes his investigation left unresolved and pointing to potential criminal violations that went uncharged
due at least in part to gaps in evidence. See supra Part
I.A. HJC thus needs the grand jury material redacted
from and cited in the Report to pursue evidence that the
Special Counsel did not gather and to resolve questions
—including the ultimate question whether the President
committed an impeachable offense—that the Special
Counsel simply left unanswered.
In a last gasp effort to deny HJC access to the requested grand jury information, DOJ argues that HJC
cannot show “particularized need” because other sources,
such as the public version of the Mueller Report, the
other categories of material redacted from the Mueller
Report, congressional testimony, and FBI Form 302 interview reports (“FBI-302s”), can supply the requisite
information. See DOJ Resp. at 31-34. As the preceding discussion makes abundantly clear, this argument
gets the basic relationship between HJC’s and the Special Counsel’s investigations backwards: the overlap
between these investigations enhances, rather than detracts from, HJC’s showing of “particularized need.”
Cf. In re Grand Jury Proceedings GJ-76-4 & GJ-75-3,
800 F.2d 1293, 1302 (4th Cir. 1986) (explaining that “particularized need’ standard requires more than relatedness but that “[o]bviously, the materials must be ‘rationally related’ for otherwise there would be no reason at
all to disclose”).

173a
Furthermore, the sources DOJ identifies cannot substitute for the requested grand jury materials. To insure most effectively against being misled, HJC must
have access to all essential pieces of testimony by witnesses, including testimony given under oath to the
grand jury. Additionally, for purposes of assessing
and following up on the Mueller Report’s conclusions,
the full Report is needed: the grand jury material may
offer unique insights, insights not contained in the rest
of the Report, congressional testimony, or FBI-302 reports.
Finally, DOJ claims that “[a] finding of ‘particularized need’ is especially inappropriate” because HJC
“has not yet exhausted its available discovery tools”—
namely, waiting for DOJ to fulfill its promised production of FBI interview reports and using congressional
subpoenas. DOJ Resp. at 32-33 (citing In re Grand
Jury 89-4-72, 932 F.2d 481, 488 (6th Cir. 1991)). In particular, DOJ cites an agreement reached with HJC this
summer for DOJ to provide to HJC the thirty-three
FBI-302 reports cited in Volume II of the Report, contending that this agreement must preclude a finding of
“particularized need.” See DOJ Resp. at 32. These
arguments smack of farce. The reality is that DOJ and
the White House have been openly stonewalling the
House’s efforts to get information by subpoena and by
agreement, and the White House has flatly stated that
the Administration will not cooperate with congressional requests for information. See Letter from Pat
A. Cipollone, Counsel to the President, to Representative Nancy Pelosi, Speaker of the House, et al. (Oct. 8,
2019) at 2.

174a
Regarding DOJ’s production of FBI-302s, “the bottom line,” as HJC put it, is that some 302s have so far
been produced by DOJ but not “the ones of most interest.” HJC Resp. to DOJ Second Supp. at 4, ECF No.
41. 48 Although DOJ at first “anticipate[d] making the
remaining FBI-302s available,” DOJ First Supp. at 3,
DOJ now says it “may need to amend the . . . agreement” because of a letter the White House sent to congressional leadership on October 8, see DOJ Second
Supp., Second Decl. of ADAG Bradley Weinsheimer
(“Second ADAG Decl.”) ¶ 6, stating that “President
Trump and his Administration reject [the House’s] baseless, unconstitutional efforts to overturn the democratic
process” and “cannot participate in [the House’s] partisan and unconstitutional inquiry,” Letter from Pat A.
Cipollone, Counsel to the President, to Representative
Nancy Pelosi, Speaker of the House, et al. (Oct. 8, 2019)
at 2. The letter’s announced refusal to cooperate extends to congressional subpoenas, which the President
himself had already vowed to “fight[].” Remarks by President Trump Before Marine One Departure, WHITE HOUSE
(Apr. 24, 2019), https://www.whitehouse.gov/briefingsstatements/remarks-president-trump-marine-onedeparture-39/ (“Well, we’re fighting all the subpoenas.”).
The White House’s stated policy of non-cooperation
with the impeachment inquiry weighs heavily in favor of
disclosure. Congress’s need to access grand jury material relevant to potential impeachable conduct by a
President is heightened when the Executive Branch
DOJ has produced redacted FBI-302s for only seventeen of the
thirty-three individuals promised. DOJ’s Supplemental Submission Regarding Accommodation Process (“DOJ First Supp.”) at 3,
ECF No. 37.
48

175a
willfully obstructs channels for accessing other relevant
evidence.
2.

The Need for Disclosure Outweighs the Need for
Continued Secrecy

Any “considerations justifying” continued grand jury
“secrecy bec[a]me less relevant” once the Special Counsel’s investigation, and attendant grand jury work, concluded. Douglas Oil, 441 U.S. at 223. Once a grand
jury has ended, interests in preventing flight by those
who might be indicted and in protecting sitting jurors
and witnesses disappear, or lessen considerably. See
id. at 222 (recognizing that “the interests in grand jury
secrecy” are “reduced” once “the grand jury has ended
its activities”); Butterworth v. Smith, 494 U.S. 624, 63233 (1990) (identifying these as the considerations that no
longer apply “[w]hen an investigation ends”); In re 1972
Grand Jury Report, 370 F. Supp. at 1229; 1 Charles
Alan Wright & Arthur R. Miller, Federal Practice and
Procedure § 106 (4th ed. 2019).
Once a grand jury has ended, the primary purpose of
secrecy is safeguarding future grand juries’ ability to
obtain “frank and full testimony.” Douglas Oil, 441
U.S. at 222. Any risk of damage to this interest is slim
here, for two reasons. First, as DOJ itself emphasizes
in arguing that HJC cannot establish a need for the material, categories one and two of HJC’s request are relatively “limited.” DOJ Resp. at 6; see also id. at 31
(calling the redactions “minimal”); Revised ADAG Decl.
¶ 3. Disclosure of “limited” information, including excerpts of grand jury transcripts, to HJC is unlikely to
deter potential future grand jury witnesses. Second,
disclosure is to the House, not to the public, and “less
risk of . . . leakage or improper use” of grand jury

176a
material is present when disclosure is made to “government movants.” Sells Eng’g, Inc., 463 U.S. at 445;
Hastings, 833 F.2d at 1441 (considering factors “peculiar to the [HJC] as a government movant”). Here,
HJC guarantees that “a high degree of ‘continued secrecy’ could in fact be maintained” under already-adopted
Grand Jury Handling Procedures calling for storage of
the material in a secure location and restriction of access
to Members of HJC and HPSCI. See HJC App. at 38
(citing GJ Handling Protocols); see also In re 1972
Grand Jury Report, 370 F. Supp. at 1230 (observing that
the relevant standard “might well justify even a public
disclosure” but that there is “certainly ample basis for
disclosure to a body” that “has taken elaborate precautions to insure against unnecessary and inappropriate
disclosure of these materials”). DOJ discounts these
procedures as “entirely illusory” because they can be altered “on a simple majority vote” by HJC, DOJ Resp. at
36, but offers “no basis on which to assume that the
Committee’s use of the [material] will be injudicious or
that it will disregard” or change these procedures, In re
1972 Grand Jury Report, 370 F. Supp. at 1230. Such
an assumption would be inappropriate. See supra Part
II.B.3 (discussing deference due to Congress in this
matter).
Certainly, a continued interest in protecting from
“public ridicule” individuals investigated but not indicted by the grand jury persists even when a grand jury
has ended. Douglas Oil, 441 U.S. at 219; see also
Wright & Miller, supra, § 106. The risk of public reputational harm to such individuals is slim to none here,
however, where disclosure is to HJC under special handling protocols. Further, any remaining interest in secrecy is diminished by widespread public knowledge

177a
about the details of the Special Counsel’s investigation,
which paralleled that of the grand jury’s, and about the
charging and declination decisions outlined in the Mueller
Report. See In re Grand Jury Subpoena, Judith Miller, 438 F.3d 1138, 1140 (D.C. Cir. 2006) (recognizing
that “when information is sufficiently widely known” it
has no “character [of] Rule 6(e) material” (quoting In re
North, 16 F.3d at 1245)).
DOJ argues that ongoing criminal matters referred
by the Special Counsel’s Office for investigation or prosecution are the chief reason for continued secrecy. See
DOJ Resp. at 36-37 (citing, inter alia, Mueller Report
App’x D (“Special Counsel’s Office Transferred, Referred, and Completed Cases”)). That DOJ has already disclosed to certain Members of the House the
material redacted from the Mueller Report to prevent
harm to ongoing matters, see DOJ Resp. at 8; see also
Hr’g Tr. at 4:4-4:11, undercuts this claim that continued
secrecy of the grand jury material is required to protect
any ongoing investigations or cases. HJC has nevertheless made clear that it has “no interest whatsoever in
undermining any ongoing criminal proceedings” and has
expressed willingness to negotiate with DOJ about disclosure of any grand jury information that DOJ believes
could harm ongoing matters. Hr’g Tr. at 45:2-45:11.
The Court expects that any such negotiations between
the parties would be limited to the six redactions for
grand jury information in Volume I of the Report that
DOJ has already identified as presenting potential harm
to ongoing matters. See Second ADAG Decl. ¶ 3.

178a
* * *
The need for continued secrecy is minimal and thus
easily outweighed by HJC’s compelling need for the material. Tipping the scale even further toward disclosure is the public’s interest in a diligent and thorough
investigation into, and in a final determination about, potentially impeachable conduct by the President described in the Mueller Report. See In re 1972 Grand
Jury Report, 370 F. Supp. at 1230; see Illinois v. Abbott
& Assocs., Inc., 460 U.S. 557, 567 n.15 (1983) (“[T]he district court may weigh the public interest, if any, served
by disclosure to a governmental body.”).
3.

Scope of Disclosure Authorized

HJC has shown that it needs the grand jury material
referenced and cited in the Mueller Report to avoid a
possible injustice in the impeachment inquiry, that this
need for disclosure is greater than the need for continued secrecy, and that the “request is structured to cover
only material so needed.” Douglas Oil, 441 U.S. at
222. 49 DOJ is ordered to disclose that material to HJC
promptly, by October 30, 2019. HJC may file further
requests with the Court articulating its particularized
need for disclosure of any additional material requested
in its initial application.
IV. CONCLUSION

For the foregoing reasons, HJC’s application is
granted. Consequently, DOJ is ordered to provide
DOJ concedes that the requests for the material referenced or
cited in the report are properly structured. See DOJ Resp. at 3738 (challenging only the structure of HJC’s request for material in
category three).
49

179a
promptly, by October 30, 2019, to HJC all portions of the
Mueller Report that were redacted pursuant to Rule
6(e) and any underlying transcripts or exhibits referenced in the portions of the Mueller Report that were
redacted pursuant to Rule 6(e). HJC is permitted to
file further requests articulating its particularized need
for additional grand jury information requested in the
initial application.
An appropriate Order accompanies this Memorandum Opinion.
Date:

Oct. 25, 2019

180a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA

Grand Jury No. 19-48 (BAH)
Chief Judge Beryl A. Howell
IN RE APPLICATION OF THE COMMITTEE ON THE
JUDICIARY, U.S. HOUSE OF REPRESENTATIVES,
FOR AN ORDER AUTHORIZING THE RELEASE
OF CERTAIN GRAND JURY MATERIALS
Filed:

Oct. 25, 2019

ORDER GRANTING THE APPLICATION OF THE
COMMITTEE ON THE JUDICIARY, U.S. HOUSE OF
REPRESENTATIVES

Upon consideration of the Application of the Committee on the Judiciary (“HJC”), U.S. House of Representatives, for an Order Authorizing the Release of Certain
Grand Jury Materials, ECF No. 1.; the memoranda and
declarations, with exhibits, in support and opposition
thereto, including the memoranda of amici curiae Constitutional Accountability Center and U.S. House Representative Doug Collins, HJC’s Ranking Member; the
arguments presented at the Hearing on October 8, 2019,
see Hr’g Tr., ECF No. 38, and the entire record herein,
for the reasons stated in the accompanying Memorandum Opinion Granting the Application of the Committee
on the Judiciary, U.S. House of Representatives, it is
hereby:

181a
ORDERED that HJC’s Application is GRANTED; and

it is further

ORDERED that, by October 30, 2019, DOJ must dis-

close to HJC: (1) All portions of Special Counsel Robert
S. Mueller III’s Report on the Investigation Into Russian Interference In The 2016 Presidential Election
(“Mueller Report”) that were redacted pursuant to Federal Rule of Criminal Procedure 6(e); and (2) any underlying transcripts or exhibits referenced in the portions
of the Mueller Report that were redacted pursuant to
Rule 6(e); and it is further
ORDERED that, following review and assessment of
the disclosed grand jury material set out in (1) and (2)
above, HJC may submit further requests articulating
particularized need for disclosure of additional grand
jury material requested in the Application.
SO ORDERED.

DATE:

Oct. 25, 2019

This is a final and appealable order.

182a
APPENDIX D

1.

Fed. R. Crim. P. 6(e) provides:

The Grand Jury
(e) Recording and Disclosing the Proceedings.
(1) Recording the Proceedings. Except while the
grand jury is deliberating or voting, all proceedings
must be recorded by a court reporter or by a suitable
recording device. But the validity of a prosecution is
not affected by the unintentional failure to make a recording. Unless the court orders otherwise, an attorney for the government will retain control of the recording, the reporter’s notes, and any transcript prepared
from those notes.
(2) Secrecy.

(A) No obligation of secrecy may be imposed on
any person except in accordance with Rule 6(e)(2)(B).
(B) Unless these rules provide otherwise, the
following persons must not disclose a matter occurring before the grand jury:
(i)

a grand juror;

(ii)

an interpreter;

(iii) a court reporter;
(iv) an operator of a recording device;
(v) a person who transcribes recorded testimony;
(vi) an attorney for the government; or
(vii) a person to whom disclosure is made under Rule 6(e)(3)(A)(ii) or (iii).

183a
(3) Exceptions.

(A) Disclosure of a grand-jury matter—other
than the grand jury’s deliberations or any grand juror’s vote—may be made to:
(i) an attorney for the government for use in
performing that attorney’s duty;
(ii) any government personnel—including
those of a state, state subdivision, Indian tribe, or
foreign government—that an attorney for the government considers necessary to assist in performing that attorney’s duty to enforce federal criminal law; or
(iii) a person authorized by 18 U.S.C. § 3322.
(B) A person to whom information is disclosed
under Rule 6(e)(3)(A)(ii) may use that information
only to assist an attorney for the government in performing that attorney’s duty to enforce federal criminal law. An attorney for the government must
promptly provide the court that impaneled the grand
jury with the names of all persons to whom a disclosure has been made, and must certify that the attorney has advised those persons of their obligation of
secrecy under this rule.
(C) An attorney for the government may disclose any grand-jury matter to another federal grand
jury.
(D) An attorney for the government may disclose any grand-jury matter involving foreign intelligence, counterintelligence (as defined in 50 U.S.C.
§ 3003), or foreign intelligence information (as de-

184a
fined in Rule 6(e)(3)(D)(iii)) to any federal law enforcement, intelligence, protective, immigration, national defense, or national security official to assist
the official receiving the information in the performance of that official’s duties. An attorney for the
government may also disclose any grand-jury matter
involving, within the United States or elsewhere, a
threat of attack or other grave hostile acts of a foreign power or its agent, a threat of domestic or international sabotage or terrorism, or clandestine intelligence gathering activities by an intelligence service
or network of a foreign power or by its agent, to any
appropriate federal, state, state subdivision, Indian
tribal, or foreign government official, for the purpose
of preventing or responding to such threat or activities.
(i) Any official who receives information under Rule 6(e)(3)(D) may use the information only
as necessary in the conduct of that person’s official
duties subject to any limitations on the unauthorized disclosure of such information. Any state,
state subdivision, Indian tribal, or foreign government official who receives information under Rule
6(e)(3)(D) may use the information only in a manner consistent with any guidelines issued by the
Attorney General and the Director of National Intelligence.
(ii) Within a reasonable time after disclosure
is made under Rule 6(e)(3)(D), an attorney for the
government must file, under seal, a notice with the
court in the district where the grand jury convened stating that such information was disclosed

185a
and the departments, agencies, or entities to which
the disclosure was made.
(iii) As used in Rule 6(e)(3)(D), the term “foreign intelligence information” means:
(a) information, whether or not it concerns
a United States person, that relates to the ability of the United States to protect against—
• actual or potential attack or other grave
hostile acts of a foreign power or its agent;
• sabotage or international terrorism by
a foreign power or its agent; or
• clandestine intelligence activities by
an intelligence service or network of a foreign
power or by its agent; or
(b) information, whether or not it concerns
a United States person, with respect to a foreign power or foreign territory that relates
to—
• the national defense or the security of
the United States; or
• the conduct of the foreign affairs of
the United States.
(E) The court may authorize disclosure—at a
time, in a manner, and subject to any other conditions
that it directs—of a grand-jury matter:
(i) preliminarily to or in connection with a judicial proceeding;
(ii) at the request of a defendant who shows
that a ground may exist to dismiss the indictment

186a
because of a matter that occurred before the
grand jury;
(iii) at the request of the government, when
sought by a foreign court or prosecutor for use in
an official criminal investigation;
(iv) at the request of the government if it
shows that the matter may disclose a violation of
State, Indian tribal, or foreign criminal law, as
long as the disclosure is to an appropriate state,
state-subdivision, Indian tribal, or foreign government official for the purpose of enforcing that law;
or
(v) at the request of the government if it
shows that the matter may disclose a violation of
military criminal law under the Uniform Code of
Military Justice, as long as the disclosure is to an
appropriate military official for the purpose of enforcing that law.
(F) A petition to disclose a grand-jury matter
under Rule 6(e)(3)(E)(i) must be filed in the district
where the grand jury convened. Unless the hearing
is ex parte—as it may be when the government is the
petitioner—the petitioner must serve the petition on,
and the court must afford a reasonable opportunity
to appear and be heard to:
(i)

an attorney for the government;

(ii)

the parties to the judicial proceeding; and

(iii) any other person whom the court may
designate.
(G) If the petition to disclose arises out of a judicial proceeding in another district, the petitioned

187a
court must transfer the petition to the other court unless the petitioned court can reasonably determine
whether disclosure is proper.
If the petitioned
court decides to transfer, it must send to the transferee court the material sought to be disclosed, if feasible, and a written evaluation of the need for continued grand-jury secrecy. The transferee court must
afford those persons identified in Rule 6(e)(3)(F) a
reasonable opportunity to appear and be heard.
(4) Sealed Indictment. The magistrate judge to
whom an indictment is returned may direct that the indictment be kept secret until the defendant is in custody
or has been released pending trial. The clerk must
then seal the indictment, and no person may disclose the
indictment’s existence except as necessary to issue or
execute a warrant or summons.

Subject to any right to an open
hearing in a contempt proceeding, the court must close
any hearing to the extent necessary to prevent disclosure of a matter occurring before a grand jury.
(5) Closed Hearing.

(6) Sealed Records. Records, orders, and subpoenas relating to grand-jury proceedings must be kept under seal to the extent and as long as necessary to prevent the unauthorized disclosure of a matter occurring
before a grand jury.
(7) Contempt. A knowing violation of Rule 6, or of
any guidelines jointly issued by the Attorney General
and the Director of National Intelligence under Rule 6,
may be punished as a contempt of court.

188a
2.

Fed. R. Crim. P. 6(e) (1977) provides:

The Grand Jury.

(e) SECRECY OF PROCEEDINGS AND DISCLOSURE.
(1) General Rule. A grand juror, an interpreter, a stenographer, an operator of a recording
device, a typist who transcribes recorded testimony,
an attorney for the Government, or any person to
whom disclosure is made under paragraph (2)(A)( ii)
of this subdivision shall not disclose matters occurring before the grand jury, except as otherwise provided for in these rules. No obligation of secrecy
may be imposed on any person except in accordance
with this rule. A knowing violation of rule 6 may be
punished as a contempt of court.
(2)

Exceptions.—

(A) Disclosure otherwise prohibited by this
rule of matters occurring before the grand jury,
other than its deliberations and the vote of any
grand juror, may be made to—
(i) an attorney for the government for use
in the performance of such attorney’s duty; and
(ii) such government personnel as are
deemed necessary by an attorney for the government to assist an attorney for the government in the performance of such attorney’s
duty to enforce Federal criminal law.
(B) Any person to whom matters are disclosed under subparagraph (A)(ii) of this paragraph shall not utilize that grand jury material for
any purpose other than assisting the attorney for

189a
the government in the performance of such attorney’s duty to enforce Federal criminal law. An
attorney for the government shall promptly provide the district court, before which was impaneled the grand jury whose material has been so
disclosed, with the names of the persons to whom
such disclosure has been made.
(C) Disclosure otherwise prohibited by this
rule of matters occurring before the grand jury
may also be made—
(i) when so directed by a court preliminarily to or in connection with a judicial proceeding; or
(ii) when permitted by a court at the request of the defendant, upon a showing that
grounds may exist for a motion to dismiss the
indictment because of matters occurring before
the grand jury.
(3) Sealed indictments.—The Federal magistrate to whom an indictment is returned may direct
that the indictment be kept secret until the defendant
is in custody or has been released pending trial.
Thereupon the clerk shall seal the indictment and no
person shall disclose the return of the indictment except when necessary for the issuance and execution
of a warrant or summons.
3. Fed. R. Crim. P. 6(e) (1946) provides:
The Grand Jury
(e) Secrecy of Proceedings and Disclosure. Disclosure of matters occurring before the grand jury other

190a
than its deliberations and the vote of any juror may be
made to the attorneys for the government for use in the
performance of their duties. Otherwise a juror, attorney, interpreter or stenographer may disclose matters
occurring before the grand jury only when so directed
by the court preliminarily to or in connection with a judicial proceeding or when permitted by the court at the
request of the defendant upon a showing that grounds
may exist for a motion to dismiss the indictment because
of matters occurring before the grand jury. No obligation of secrecy may be imposed upon any person except
in accordance with this rule. The court may direct that
an indictment shall be kept secret until the defendant is
in custody or has given bail, and in that event the clerk
shall seal the indictment and no person shall disclose the
finding of the indictment except when necessary for the
issuance and execution of a warrant or summons.

